<html>
<title> - CURRENT PUBLIC LANDS AND FORESTS BILLS</title>
<body><pre>[Senate Hearing 111-566]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-566

                 CURRENT PUBLIC LANDS AND FORESTS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION


                                   ON
                                     

            S. 1546                               S. 2830            S. 2798                               S. 2963 

                                     

                               __________

                             APRIL 21, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources





                  U.S. GOVERNMENT PRINTING OFFICE
57-766 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee














                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     3
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     4
Conrad, Gregory E., Executive Director, Interstate Mining Compact 
  Commission (IMCC), Herndon, VA.................................    44
Gibbs, Hon. Dan, Colorado State Senator, Senate District 16, 
  Denver, CO.....................................................    30
Kulakowski, Dominik, Assistant Professor, Clark University, 
  Worcester, MA..................................................    25
Owens, Glenda, Deputy Director, Office of Surface Mining 
  Reclamation and Enforcement, Department of the Interior........    16
Reinhardt, Forrest, President, Venture Beyond, Coto de Caza, CA..    42
Sherman, Harris, Under Secretary, Natural Resources and 
  Environment, Department of Agriculture.........................     5
Udall, Hon. Mark, U.S. Senator From Colorado.....................   155

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    51

                              Appendix II

Additional material submitted for the record.....................    55

 
                 CURRENT PUBLIC LANDS AND FORESTS BILLS

                              ----------                              


                       WEDNESDAY, APRIL 21, 2010

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:01 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The subcommittee will come to order.
    The purpose of today's hearing is to receive testimony on 
several bills pending before the subcommittee. These include S. 
1546, the Box Elder Utah Land Conveyance Act; S. 2798, the 
National Forest Insect and Disease Emergency Act of 2009; S. 
2830, a bill to amend the Surface Mining Control and 
Reclamation Act of 1977; and S. 2963, the Cathedral Rock and 
Horse Heaven Wilderness Act of 2010.
    At this point, I would like to ask that the first panel 
come forward and take their seats. I know on behalf of Senator 
Barrasso, I would like to welcome the Honorable Harris Sherman, 
the Under Secretary of Agriculture for Natural Resources and 
Environment, and Glenda Owens, Deputy Director of the Office of 
Surface Mining Reclamation Enforcement at the Department of 
Interior.
    I know that we have a long list of bills to go through. So 
I would like to ask you to summarize your oral remarks, and we 
will include all of your written testimony in the record. But 
before we do that, I have a statement I would like to make.
    I know, Senator Barrasso, you have got a tight schedule. 
Would you like to make your statement first?
    Senator Barrasso. No. I will go right after you.
    Senator Udall. Let me make my statement, and then I will 
turn to the Senator from Wyoming, and then we will hear the 
testimony from our 2 witnesses.
    I want to thank the chairman for holding this hearing 
today. It is important to me and my State. First, I want to 
focus on S. 2798, the National Forest Insect and Disease 
Emergency Act of 2009, which I introduced with Senator Risch.
    S. 2798 will address a real and serious threat to our 
Nation's forests and communities, especially in our western 
States. This bipartisan bill will provide additional tools and 
resources to the Forest Service and, to a lesser degree, to the 
Bureau of Land Management to help address the deaths of 
millions of acres of trees due to insect infestations.
    This bill is in direct response to an especially pronounced 
epidemic of bark beetles in western States. This epidemic is 
creating serious concerns in our communities regarding our 
forested regions, the recreational economies of these areas, 
and water supplies and infrastructures that exist on these 
lands.
    Today, various parts of the U.S., but especially western 
States, continue to experience unnaturally large-scale 
infestations of bark beetles and other insects that have 
resulted from past policies and warming climate conditions. 
Recent periods of drought and population growth on land 
adjacent to Forest Service land has increased the risk of lost 
lives and property due to wildfire and other impacts from 
millions of acres killed by insects and disease.
    In addition, this large-scale forest condition creates 
threats to hundreds of miles of power transmission lines and 
dozens of communicationsites, hundreds of miles of roads and 
trails, thousands of campgrounds and recreationsites, and 
community water supplies in forested headwaters. This sort of 
threat is akin to an emergency like any other natural 
phenomenon, and I believe we need to treat it as such.
    That is what this bipartisan bill does. It creates 
emergency insect areas. I should say insect emergency areas. 
That is more properly the way it is in the bill. That is areas 
defined by the Forest Service as experiencing significant tree 
mortality, resulting in increased wildfire threats and risks to 
people and infrastructure from falling dead trees.
    Within these areas, the Forest Service would be directed to 
provide priority treatment to reduce these threats. It would 
also provide additional funding sources and incentives to 
remove trees and other woody biomass and convert it to energy 
use and streamline the National Environmental Policy Act 
expedited environmental analysis of the treatment work.
    The bill also authorizes the use of good neighbor 
authority, which allows the Forest Service to contract with 
State foresters to enter Forest Service lands and implement 
treatments to reduce threats next to homes and private property 
whose owners have, in many cases, removed dead trees and 
performed treatments on their own property adjacent to Forest 
Service land.
    Finally, it makes permanent and authorizes and makes more 
effective the successful stewardship contracting tool that 
allows the Forest Service to fashion agreements to perform 
treatment for trees like insect-killed trees that may not have 
high commercial value.
    Since the bill was introduced, I have heard from many 
interests affected by the current epidemic and others who are 
interested in forest health. This includes support from the 
Northwest Colorado Council of Governments, composed of the 
counties in Colorado at ground zero of the current epidemic; 
Lake County in Colorado; the National Ski Area Association; the 
Colorado Timber Industry Association; and from the Society of 
American Foresters. All of these entities appreciate the need 
to address this issue, and I thank them for this support.
    Let me turn to the second bill that I believe is an 
important one on our agenda, and that is S. 2830. That is 
Senator Bingaman's bill. I support it. It is a bill that would 
ensure States could use abandoned mine land payments for both 
coal and non-coal reclamation.
    I am disappointed that the Interior Department currently 
limits these funds to coal reclamation. Colorado has many 
abandoned hard rock mine sites that must be cleaned up, and the 
Interior Department should be working with us to make this job 
easier, not creating roadblocks. I am pleased to be a co-
sponsor of Senator Bingaman's bill, which would fix this 
problem.
    Again, I want to thank the chairman, who I think will join 
us, for holding this important hearing. I look forward to 
hearing from today's witnesses.
    With that, I want to turn to my good friend and colleague 
from Wyoming, Senator Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Chairman Udall. That 
sounds good. Thank you for being here to chair this important 
hearing.
    I want to welcome each of our witnesses today. I want to 
make a couple of comments on 2 of the bills before us this 
afternoon, and one is the bill that Senator Udall and Senator 
Risch have introduced, S. 2798, to reduce catastrophic fire 
risk by treating insect and disease infestation in the western 
United States.
    This bill takes many important steps to mitigate effects of 
the bark beetle infestation, and that bark beetle infestation 
truly is devastating the Intermountain West. We are facing an 
unprecedented forest health epidemic. Three and a half million 
acres of forest in Wyoming are infested by bark beetles. The 
infestation totals 17.5 million acres across the West.
    This situation is presenting many challenges. Two hundred 
sixty communities in Wyoming are considered at risk for 
wildland fire. We face erosion and habitat loss. Roads and 
infrastructure need to be protected. All uses of the land will 
have to change, including grazing, hunting, fishing, and 
energy. This is a natural disaster unlike any we have faced 
before, and the administration must respond accordingly.
    I am deeply disappointed to see that the President's budget 
does not allocate a single penny to addressing this multi-State 
emergency. We need to discuss that issue today. I want to know 
how the administration is going to meet its responsibility to 
the people of my State and the entire Intermountain West.
    Funding is not our only challenge in the face of this 
infestation. We must also address long-term efficient 
management of our forests. In the face of this emergency, the 
administration must ignore politics and focus on results.
    The Forest Service should utilize all available management 
authorities that will mitigate bark beetle effects. There is no 
time for political proposals to eliminate timber sales, road 
improvements, or any of the agency's management tools. It is 
important that we discuss these issues today as well.
    So I want to thank the sponsors of S. 2798 for their hard 
work on this. The bill gives the Forest Service important tools 
to manage the bark beetle infestation. The provisions to 
prioritize insect mitigation are important, and I am glad to 
see the good neighbor authority within the bill. S. 2798 
recognizes that we are facing a forest health disaster in the 
West, and we must respond with the same intensity that we would 
to other natural disasters.
    Now the other bill that I would like to comment on is S. 
2830, sponsored by Chairman Bingaman. The Department is 
prohibiting the use of AML funds for hard rock mine 
remediation. I want to work with Senators Bingaman, Bennett, 
and Udall to address this issue that is so important to New 
Mexico, Utah, and Colorado.
    I hope the committee will help ensure Wyoming and other 
certified States and tribes continue also to receive the AML 
money that we are owed. The department has proposed undoing the 
2006 bipartisan agreement that paid back States like Wyoming 
and Montana, as well as the Indian tribes like the Crow and the 
Navajo Nation.
    This agreement was reached after more than a decade of 
bipartisan negotiation. The money is owed from taxes levied on 
coal production within our States and tribal lands. The 
President and Secretary Salazar both supported this agreement 
when they were members of the U.S. Senate. The administration 
and Congress must stand by this commitment.
    So thank you, Mr. Chairman. I look forward to the hearing.
    Senator Udall. Thank you, Senator Barrasso.
    Let me turn to the chairman of the full committee, who has 
joined us, who is the author of one of the bills we are 
considering today. Senator Bingaman is recognized.

 STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW MEXICO

    The Chairman. Thank you very much, Chairman Udall and 
Senator Barrasso.
    Let me just talk a minute about the bill that Senator 
Barrasso was just speaking of. S. 2830 is an important bill 
that I have introduced and that Senator Udall is co-sponsoring 
with me.
    I do think since the initial enactment of the Surface 
Mining Control and Reclamation Act, States and tribes have been 
able to use a portion of the abandoned mine land funds to 
reclaim abandoned high-priority non-coal mines. Unfortunately, 
the department has construed amendments that we enacted in 2006 
to preclude this. So this legislation would fix that problem.
    It does not increase the amount of funding being 
distributed to any State. It merely reinstates the 
interpretation of the law that had been in effect since 1977. 
So I hope very much we can enact this, and I appreciate you 
including it on the list of bills that you are considering 
today.
    Senator Udall. Thank you, Chairman Bingaman.
    I will extend those thanks to Chairman Wyden of the 
subcommittee. I am proud to be a co-sponsor of this important 
bill.
    Let me propose that we do this. Secretary Sherman, we would 
like to hear from you, if we might, and then I know Senator 
Barrasso has a busy schedule. I would like to extend to him the 
courtesy to be able to ask you some questions.
    Then, Ms. Owens, if that is acceptable to you, after the 
Senator has asked his questions, we will then turn to your 
testimony.
    So, Secretary Harris, it is wonderful to see you here. As a 
fellow Coloradoan, I want you to know how proud we are of the 
service you are extending to your Nation. You come with a long 
biography, a long involvement in all of these important public 
lands issues, and I know we are well served as Americans by 
your service.
    So thank you for being here, and the floor is yours. We 
look forward to your testimony.

 STATEMENT OF HARRIS SHERMAN, UNDER SECRETARY OF AGRICULTURE, 
  NATURAL RESOURCES AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Sherman. Thank you very much, Chairman Udall.
    My name is Harris Sherman. I am the Under Secretary at USDA 
for Natural Resources and the Environment. It is a pleasure to 
be here.
    I wanted to offer testimony on 2 bills. One is your bill, 
Chairman Udall, S. 2798, and I wanted to briefly address S. 
1546. I will start with S. 1546 because I just have a few 
comments.
    S. 1546 involves a conveyance of about 31.5 acres of Forest 
Service land to the Town of Mantua, Utah. We are clearly 
willing to work with the Town of Mantua to effectuate this 
conveyance, but we want to do so under the terms of the 
Townsite Act, which requires us to receive fair market value 
for the conveyance.
    Our concern with the bill is that it does not provide for 
fair market value to Forest Service, which runs counter to 
well-established, longstanding policies of the department and 
the Forest Service. Under the Independent Offices Appropriation 
Act and FLPMA, we are precluded from engaging in conveyances 
without fair market value.
    So I simply want to say that we stand ready, willing, and 
able to work with the town to effectuate a conveyance, but it 
needs to be under the Townsite Act, unless Congress decides to 
proceed in a different direction.
    With that said, let me then turn to the National Forest 
Insect and Disease Emergency Act of 2009. At the outset, I want 
to say that the Obama administration supports the goals and the 
principles of this act.
    As Senator Barrasso has said, there are 12 States today 
that are facing an epidemic with the bark beetle. As he has 
said, this affects some 17 million acres of land in the West. 
This is a vast, complicated, challenging situation for many 
reasons.
    No. 1, it represents significant risk to hundreds, if not 
thousands, of communities in the West to the threat of 
wildfire. This is wildfire that occurs usually within the 
wildland-urban interface area, but there is no question that 
these communities need to be prepared for this kind of an 
eventuality.
    No. 2, it challenges the protection of our watersheds and 
challenges the protection of our water supplies, both for 
communities within the WUI and for communities outside of these 
areas. We need to take steps to protect our intake structures 
and our reservoirs. We need to take steps to protect water 
quality issues. Millions of Americans get their drinking water 
from the national forests.
    Last, but not least, how do we protect the public from 
falling trees that can jeopardize roadways, rights-of-ways, 
trails, campgrounds, ski trails, and so forth? This is a 
significant and emerging problem. It is very hard to explain 
the magnitude of this problem, but I want to try to use an 
example that my colleagues in the Forest Service in Region 2 
provided us.
    If you take 3 national forests in southern Wyoming and in 
northern Colorado, there are 3.5 million acres of dead trees in 
these 3 national forests. If you assume roughly 100 trees, 100 
dead trees per acre, and you assume that once a tree dies, it 
will take approximately 5 to 10 years for that tree to fall 
over, we are looking since the late 1990s at a situation where 
the trees are now starting to fall over.
    If you just do the math for these 3 national forests out of 
155 national forests that we have in this country, we are 
looking at somewhere in the neighborhood, on average, of 
100,000 trees a day, or 1 million trees a day falling in just 
these 3 national forests. Most of this will occur in the 
backcountry. But a certain percentage will occur where there 
are people, there are recreational activities taking place, 
where there are power lines and roads, and so forth.
    So this is a significant problem that we need to address. 
We applaud you for this bill. This bill, first of all, deals 
with this situation on a comprehensive regional basis. We 
applaud that because it transcends individual States, and it 
deals with a collective problem across the western United 
States.
    It allows the Secretary to prioritize with the Governors 
these critical needs. It reaffirms our existing authority to 
perform necessary restoration work. Importantly, as you 
mentioned, Chairman Udall, it adds certain new authority so 
that we can proceed with permanent stewardship contracts, a 
very important tool. As you mentioned, Senator Barrasso, it 
allows us to expand on this good neighbor effort with State 
governments that we want to fully take advantage of.
    It also allows the Federal Government to make direct 
payments to private land owners to deal with thinning issues 
and restoration issues, which we think will be helpful. It 
fine-tunes the National Environmental Policy Act to address 
emergency designated areas.
    The administration does have some concerns with certain 
aspects of this legislation, and we wish to work with the staff 
of the committee, staffs of Senator Udall and Senator Risch, 
and others to address these limited number of concerns we have. 
We will do so, hopefully, in the coming weeks.
    So, in conclusion, let me say this. There is a real problem 
that demands attention. We must deal with this on a landscape-
scale basis. We must bring together the stakeholders in a 
collaborative fashion so we are working together, as opposed to 
litigating these issues.
    We need to maximize our use of biomass materials for wood 
products and for energy-related products. We must keep our 
timber industry strong because we need our timber industry to 
help us do the vital work that is necessary and to provide jobs 
for rural communities throughout the West.
    We must have a responsive and efficient National 
Environmental Policy Act process that responds to this crisis. 
We must provide the necessary budgetary resources to address 
this problem because it is a very large, complicated problem.
    We feel this legislation is a positive, progressive step in 
the right direction, and we are looking forward to working with 
you on it.
    Thank you very much.
    [The prepared statements of Mr. Sherman follow:]
    Prepared Statements of Harris Sherman, Under Secretary, Natural 
          Resources and Environment, Department of Agriculture
                                s. 1546
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity today to present the Department's view on S. 1546. I am 
Harris Sherman, USDA Under Secretary for Natural Resources and 
Environment. S. 1546 would direct the Secretary of Agriculture to 
convey, without consideration, to the Town of Mantua, Utah, all right, 
title and interest of the United States in approximately 31.5 acres of 
National Forest System lands in Box Elder County, Utah. These lands are 
currently part of the Unita-Wasatch-Cache National Forest. The 
conveyance would be conditioned upon the town using the conveyed land 
for public purposes. If the land is ever used for other than public 
purposes, title would revert to the United States at the election of 
the Secretary. While the Department does not object to these lands 
being made available for conveyance to Mantua, Utah, we object to the 
terms of the bill.
    The 31.5 acres in question comprise two irregular peninsula-shaped 
parcels which are surrounded on three sides by private land. The 
parcels are encumbered with several outstanding rights in Brigham City 
including three pipelines, a right to construct a pipeline, and use of 
four springs. A survey would be required to be made in advance of any 
proposed conveyance.
    We oppose the bill because it does not require market value 
consideration for the conveyance and because of the reverter 
provisions.
    A general public policy is that the Federal Government receive 
market value consideration for the conveyance or use of its property. 
This policy is well established in law including the Independent 
Offices Appropriation Act (31 U.S.C. 9701), section 102(9) of the 
Federal Land Policy and Management Act (43 U.S.C. 1701), as well as the 
numerous land exchange authorities.
    There are also practical problems with S. 1546. The land is 
required to revert to the Secretary in the event it is used for other 
than ``public purposes.'' However, public purposes are not defined and 
could cover a vast array of land uses from municipal waste treatment, 
low income housing, to industrial parks. This lack of public purpose 
definition could draw a future Secretary of Agriculture into future 
local land use controversies. Therefore, we oppose the Reversionary 
Clause listed in Section 2 (e).
    There are laws on the books which would accommodate the municipal 
needs of the Town of Mantua, Utah. Specifically, the Townsite Act of 
July 31, 1958 (16 U.S.C. 478a) was enacted to permit established 
communities to acquire up to 640 acres of National Forest land to serve 
indigenous community objectives. Consistent with the aforementioned 
public policy, the Townsite Act requires payment to the United States 
of the fair market value of the land. Similarly, the lands could be 
made available by exchange for equal value consideration.
                                s. 2798
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to share the Administration's views on S. 2798, the 
National Forests Insect and Disease Emergency Act of 2009.
    I would like to express my appreciation to Senators Udall and Risch 
for their leadership in addressing insect and disease issues on 
millions of acres affecting thousands of communities across the western 
United States. This legislation: authorizes the Secretary of 
Agriculture to designate emergency areas in order to mitigate hazards 
posed by large scale infestations of beetles and insects; directs that 
increased resources are available within each emergency area to 
mitigate hazards; and makes existing good neighbor and stewardship 
contracting authorities permanent. The legislation directs the 
Secretary to give priority consideration to the removal of hazardous 
fuels and hazard trees, the restoration of forest health, and the 
delivery of assistance to state and local governments, Indian tribes, 
and private landowners in the designated emergency areas. The 
legislation provides for the application of the Healthy Forest 
Restoration Act environmental documentation process and a pre-
decisional administrative review process to provide for a more rapid 
response to address these issues. We believe the pathway forward 
torestore these areas is to work in close coordination with states and 
private landowners.
                           current challenges
    Outbreaks of bark beetles, which are occurring in numerous forest 
ecosystems across western North America, are the largest in recorded 
history.\1\ Although western forests have experienced regular 
infestations throughout their history, the current outbreaks are 
notable for their intensity, extensive range, and simultaneous 
occurrence in multiple ecosystems. During the last 10 years there have 
been 17 million acres affected by bark beetles in the interior west 
(CO, MT, ID, WY, UT, SD)\2\
---------------------------------------------------------------------------
    \1\ Bentz, et. al. (2009)Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
    \2\ USDA, Forest Service--Forest Health Protection Aerial Survey 
Data. 2009
---------------------------------------------------------------------------
    The primary difference between previous beetle outbreaks and the 
current epidemic is that more people now live, work and recreate 
throughout the lodgepole pine ecosystem. Removing dead trees and other 
fuels can effectively reduce the risk of fire damage at a local scale, 
e.g., in the immediate vicinity of a home or community, although the 
effectiveness of removing dead trees to reduce fire risk at the forest 
landscape scale is less clear.\3\ Communities surrounded by dead trees 
are at increased risk of wildfire and damage from falling trees. In 
addition, the forest products industry that is vital to the efficient 
removal of hazardous fuels and hazard trees has been hard hit by the 
down turn in the market. These important differences along with the 
scale of infestations require new and innovative approaches that reduce 
safety threats to people and property while ensuring that the restored 
forests are diverse and resilient to change across the landscape.
---------------------------------------------------------------------------
    \3\ see Dominik Kulakowski, Thomas T. Veblen (2007) EFFECT OF PRIOR 
DISTURBANCES ON THE EXTENT AND SEVERITY OF WILDFIRE IN COLORADO 
SUBALPINE FORESTS. Ecology: Vol. 88, No. 3.
---------------------------------------------------------------------------
                             public hazards
    Dead trees pose several significant hazards to public safety 
including increased risk of catastrophic fire, threats to water 
supplies as a result of catastrophic fire, and hazard trees along 
utility corridors, roads, trails, and other infrastructure.
Wildfire Implications
    The relationship between bark beetle outbreaks and subsequent fire 
at the larger landscape scale is not yet fully understood\4\. Outbreaks 
in recent years have provided scientists with excellent opportunities 
to conduct studies and gather new information about the role of bark 
beetles in western forests, but more research remains to be done.
---------------------------------------------------------------------------
    \4\ Bentz, et. al. (2009) Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
---------------------------------------------------------------------------
    At the stand level, both crown and surface fire hazards\5\ change 
over time after a bark beetle outbreak\6\. The fire hazard in the crown 
is high in the period one to two years after pine trees diebecause the 
dead needles are retained in the tree's crown, stocking the canopy with 
dry, fine fuels that can ignite quickly during weather conditions 
conducive to fire.\7\ Importantly, in the grey phase, characterized by 
dead standing trees with no needles, the risk of ignition and the risk 
of crown fires actually go down, and that lasts for 10 to 20 years 
after the tree is attacked.\8\ As the trees lose their needles, the 
fire risk in the crowns decreases because there is less fuel. The fire 
hazard at the surface increases as dead trees begin to fall and create 
a heavy fuel bed with young trees growing up through the tangle of down 
logs\9\. In dry, hot, windy weather conditions, fires burning in heavy 
surface fuels can move fast, burn extremely hot, and be very resistant 
to control\10\. An additional significant concern is the safety of our 
firefighters. Large areas of fallen trees limit escape routes for 
crews, severely limiting our ability to deploy firefighters in these 
areas\11\.
---------------------------------------------------------------------------
    \5\ The term Fire hazard as used here refers specifically to the 
state of fuels in a given stand--independent of variables such as 
temperature, wind, and precipitation that influence fuel moisture 
content and fire occurrence.
    \6\ Bentz, et. al. (2009) Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
    \7\ Page, W.; Jenkins, M. 2007. Mountain pine beetle-induced 
changes to selected lodgepole pine fuel complexes within the 
intermountain region. Forest Science 53(4):507-518.
      Page, W.; Jenkins, M. 2007. Predicted Fire Behavior in Selected 
Mountain Pine Beetle--Infested Lodgepole Pine. Forest Science 
53(6):662-674
      Hawkes, B. 2008. Effects of the mountain pine beetle on fuels and 
fire behaviour. In Mountain Pine Beetle: From Lessons Learned to 
Community-based Solutions Conference Proceedings, June 10-11, 2008. BC 
Journal of Ecosystems and Management 9(3):77-83.http://www.forrex.org/
publications/jem/ISS49/vol9_no3_MPBconference.pdf
      Jenkins, M., Hebertson E., Page, W. and Jorgensen C. 2008 Bark 
beetles, fuels, fires and implications for forest management in the 
Intermountain West. Forest Ecology and Management 254 (2008) 16-34
    \8\ see Dominik Kulakowski, Thomas T. Veblen (2007) EFFECT OF PRIOR 
DISTURBANCES ON THE EXTENT AND SEVERITY OF WILDFIRE IN COLORADO 
SUBALPINE FORESTS. Ecology: Vol. 88, No. 3, pp. 759-769.
    \9\ Bentz, et. al. (2009) Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
    \10\ Barrows, J. 1951. Fire Behavior in the Northern Rocky 
Mountains. Station Paper No. 29. USDA Forest Service, Northern Rocky 
Mountain Forest and Range Experiment Station, Missoula MT. 133 pages
    \11\ Alexander, M and Stam, J. 2003. Safety Alert for Wildland 
Firefighetrs: Fuel Conditions in Spruce Beetle Killed Forest of Alaska. 
Fire Management Today 63 (2) 25.
---------------------------------------------------------------------------
    A wildfire burning in the heavy fuels close to the soil can 
literally bake the soil, sterilizing it and sometimes leaving a water-
repellent surface that sheds rain, and leads to severe gully erosion, 
debris flows into reservoirs and streams, and flood damage. We 
experienced these effects after the Hayman Fire in central Colorado in 
2002. After the Buffalo Creek Fire in 1996, Strontia Springs Reservoir 
filled with sediment that washed off burned areas after heavy rains, 
and the South Platte River was running brown with mud.
Hazard Trees
    In certain areas, dead trees are an immediate hazard because of the 
increased risk they may fall and damage property or hurt people. For 
example, in the beetle-infested area of northern Colorado and southern 
Wyoming, over 900 miles of trails and 3500 miles of roads are lined 
with dead trees that are at high risk of falling. There are hazard 
trees on more than 21,000 acres of developed recreation sites--such as 
campgrounds and picnic areas. Power lines and communication sites are 
also threatened by hazard trees. There are more than six thousand acres 
of right-of-way corridors for authorized transmission and distribution 
lines in the area affected by bark beetle infestation in northern 
Colorado and southern Wyoming.\12\ Forest Service resource specialists 
have estimated this represents over 1000 miles of transmission lines. 
When dead trees within and bordering on transmission corridors fall on 
lines they can start wildfires and disrupt power supplies to cities and 
towns.
---------------------------------------------------------------------------
    \12\ Figure derived from data in the Forest Service Special-Use 
Database System, Region 2.
---------------------------------------------------------------------------
                            current efforts
    No effective treatment for suppression of large-scale pine beetle 
outbreaks currently exists, butthe agencies within the Department are 
approaching this problem in a variety of ways based upon their 
individual missions, policies, laws, and management mandates under 
which they operate. On National Forests that have been affected by bark 
beetle, we are actively engaged in numerous on-the-ground efforts to 
address the insect and disease outbreak that this legislation targets. 
In the areas hardest hit by bark beetles, we modified our 2010 budget 
allocations to focus resources to mitigate the outbreak.
    When Secretary Vilsack articulated his vision for America's 
forests, he underscored the overriding importance of forest restoration 
by calling for a commitment to restoration across landscapes--an all-
lands approach to forest restoration--by working closely with other 
landowners to encourage collaborative solutions. Restoring our forests 
includes mitigating the effects of severe infestations of insects and 
disease by removing dead trees where appropriate and working across 
boundaries by cooperating with the states, other governments, and 
private landowners. Much of the woody material to be removed can be 
used as a sustainable energy source for our country and other uses such 
as pellets for wood stoves, house logs, furniture, and decorative 
items.
    As Forest Service Chief, Tom Tidwell, recently stated in testimony 
on the President's budget, theagency will integrate traditional timber 
activities predominately within the context of larger restoration 
objectives, focusing on priority watersheds in most need of stewardship 
and restoration work, pursuing forest products when they support 
watershed, wildlife, and restoration goals. We will also greatly expand 
the use of stewardship contracting authority to meet restoration 
objectives and build in longer-term contracting certainty for 
communities and the private sector to invest in the kind of forest 
restoration infrastructure we will need to achieve these objectives. In 
this regard and to the extent that S. 2798 is implemented using a 
sciencebased and collaborative approach, engaging multiple and diverse 
stakeholders, this bill will be more consistent with the aspirations 
and goals of the Administration concerning ecological forest 
restoration and rural job development.
    The Forest Service recognizes the impact a depressed market is 
having on the forest products industry in much of the West. The forest 
products industry is a primary partner in accomplishing work integral 
to sustaining and restoring the health, diversity, and productivity of 
the National Forest System, and can help us in our work to mitigate the 
risks of insect and disease. To accomplish the work of effectively and 
efficiently restoring National Forest System lands to a healthy 
condition, we need skilled forestry operators, vibrant rural 
communities, and a healthy forest products industry.
    Our experience indicates that an expanded use of the objections 
process under the Healthy ForestRestoration Act tends to increase 
direct dialogue between the agency and stakeholders and often results 
in resolution of concerns before a decision is made, and thus a better, 
more informed decision results.
                                concerns
    I look forward to further dialogue with Senators Udall and Risch 
and the committee to consider the following suggestions, concerns and 
other minor technical input into sections of the legislation.
Biomass
    We appreciate the emphasis on biomass production and use to promote 
a sustainable and renewable energy source for our country that may lead 
to greater diversification of the wood products markets and the 
development of new businesses and jobs. However, we would like to work 
with the committee to understand and address the relationship between 
the bill and the Clean Air Act and existing programs and policies.
Stewardship Contracting
    We appreciate and value the recognition of the need for stewardship 
contracting authority as a tool to achieve forest restoration goals on 
the national forests. We have serious concerns with the methods used to 
address the challenges of awarding long-term stewardship contracts, and 
do not believe the provisions in Section 7(a) (1) and (3) is necessary 
or desirable. The administration has the flexibility to address 
relevant requirements and is convening a multiagency working group to 
identify and assess options for issues related to stewardship 
contracting, and we look forward to apprising the Committee on 
progress.
National Environmental Policy Act Provisions
    We are concerned about the applicability provisions under Section 4 
emergency designations. We are concerned that not subjecting emergency 
designations to applicable laws and regulations would give the 
impression that the bill circumvents important environmental 
protections and we would like to work with you to ensure environmental 
protections remain. We would also like to work with you to clarify the 
nature and effect of designating insect and disease emergency areas to 
better understand applicability to other laws and regulations. 
Similarly, the Administration has significant concerns about the overly 
broad waiver contained in Section 4(c)(6)(c).
    While the bill recognizes NEPA's applicability to treatment 
decisions, it does so by expanding the use of the Healthy Forest 
Restoration Act (HFRA) provisions for NEPA analysis and documentation. 
The bill needs to provide for an effective NEPA process and include 
HFRA protections for old-growth forest stands, threatened and 
endangered species, and other resources. We would like to work with you 
to ensure that management actions will be consistent with land 
management plans and consistent with prohibitions and restrictions on 
removing vegetation from Federal land including roadless areas.
Good Neighbor Authority
    As the Departments of Interior and Agriculture testified before 
this subcommittee in October of 2009, we believe our Nation's forests 
and public lands face forest health challenges that must be addressed 
across diverse land ownerships. In these times of limited resources, it 
is important to leverage workforce and technical capacities and develop 
partnerships for forest restoration across all lands, while ensuring 
compliance with existing applicable laws and regulations. However, we 
believe further study and analysis is needed to better understand the 
interplay of needs, state and federal contracting and labor law, and 
regulation before expansion of the authority is authorized. For 
example, where federal or applicable state contracts are awarded, we 
would seek to use competition, consistent with current statutory 
requirements and the President's March 4, 2009 Memorandum on Government 
Contracting. We look forward to working with the committee, States, and 
federal agencies to make suggestions to improve the bill in a manner 
that meets the needs of key stakeholders.
    I want to again thank Senators Udall and Risch for their leadership 
and commitment to our national forests, their surrounding communities 
and the forest products infrastructure. I look forward to working with 
the Senators the committee, and all interested stakeholders on this 
bill and to help ensure sustainable communities and provide the best 
land stewardship for our national forests.
    This concludes my prepared statement and I would be pleased to 
answer any questions you mayhave.

    Senator Udall. Thank you, Secretary Sherman.
    Let me turn to Senator Barrasso for comments and questions 
he might have.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    First, Ms. Owens, thank you for your patience in this. The 
committee meeting was moved back a bit, and that has bumped 
into other schedules. So, thank you.
    Thank you, Mr. Sherman, for the comments that you made. 
Obviously, you understand the scope and the magnitude of the 
problem, and I understand you recently flew over Wyoming to 
specifically assess the bark beetle damage in our forests. So, 
you have seen firsthand the things that I see every weekend 
when I return to Wyoming.
    For just a second, could you go over the statistic that you 
talked about that since the 1990s with the dying of the trees, 
and they are starting to fall over now, and I think you said 
100 dead trees per acre? Because it really is an astonishing 
number, and I want to make sure that everyone really has a 
chance to focus on that number.
    Mr. Sherman. Yes. I would be happy to.
    In these 3 national forests, we have 3.5 million acres of 
dead trees. Once these trees are dead, within a 10-year period, 
most of these trees will fall over. Since the late 1990s, this 
epidemic has been in full force and effect, and many of these 
trees are now starting to fall.
    We estimate conservatively that every day in these 3 
national forests, 100,000 trees on average will fall. Every 10 
days, a million trees will fall. The implications of this for 
campgrounds, roads, rights-of-ways, ski trails, you name it, 
there are going to be some very, very significant challenges 
for us.
    Senator Barrasso. So that over the summer, we are looking 
at 10 million trees falling between Wyoming and Colorado, in 
those 3 national forests. So, obviously, you know what we are 
facing. The numbers are astonishingly large.
    Then I look at the budgeting. The things that you say in 
terms of the commitment and the concerns are the ones that are 
important for all of America to hear. In fiscal year 2010, the 
Department of Agriculture provided substantial funding to 
Wyoming, Colorado, South Dakota, Montana, and Idaho, for bark 
beetle mitigation. We know that the infestation has now doubled 
in the last year.
    But the President's budget doesn't include bark beetle 
funding for the Intermountain West in fiscal year 2011. That, 
to us, doesn't seem to make sense, having heard all of the 
words that you have spoken about commitment. How does the 
department intend to meet this responsibility? Can you explain 
for us a little bit so we can understand how you plan to deal 
with this?
    Mr. Sherman. I would be happy to do so, Senator.
    The President's 2011 budget contains multiple items, which 
will address the bark beetle situation. Let me just briefly 
explain what some of those are.
    Three hundred fifty million dollars approximately is set 
aside for fuel reduction activities. Seven hundred million 
dollars is set aside for this integrated resource restoration 
category we have, which clearly will impart focus on the bark 
beetle epidemic in the West. We are spending well over $1 
billion on fire preparation and fire suppression in our Forest 
Service system, and a portion of that clearly will be devoted 
to these areas in the West where fire occurs in bark beetle 
areas.
    Through other agencies in USDA, we will be allocating money 
for the harvesting, collection, transportation, and storage of 
biomass materials through the so-called BCAP program. Through 
the Rural Development Agency at USDA, we will be making 
opportunities available for new experiments with biomass 
facilities in communities in various parts of the country.
    We are working very hard on these collaborative efforts 
throughout the country and our planning efforts, all of these 
things are focused in part on dealing with the bark beetle 
challenges that we have.
    Senator Barrasso. When you would take a look at those, the 
commitment of finances, is that new money or is that money that 
is going to come from within current Forest Service programs? 
It makes me think are you going to have to cut other programs 
that are necessary throughout the Forest Service.
    Mr. Sherman. We will have to review very carefully how we 
allocate priorities here. I am pleased to say in the 
President's budget, the Forest Service was one of a few 
agencies that actually had an increase in its budget, rather 
than a decrease. I think that is a recognition within the White 
House and in the department that these problems are very real, 
and we have got to devote a lot of attention to them.
    So the Forest Service will look each year at how it is 
going to allocate its budget between regions. But clearly, the 
bark beetle issue throughout these 12 States will be an 
important priority.
    Senator Barrasso. In terms of the way that those decisions 
are made, it seemed that the agency barely escaped closing 
campgrounds recently to pay for bark beetle mitigation. So I 
don't know what you are expecting for this year. Will you have 
to close campgrounds? Because that is a concern for folks 
throughout the tourism industry and folks that live in these 
communities. Is that an area that you would have to cut?
    Or are you going to be closing down certain areas of the 
forest? I am just trying to see what kind of thought process 
you are engaged in with this because there are limited 
resources.
    Mr. Sherman. One of the activities we are undertaking now 
is to convene a national incident management team with Region 2 
to look at the magnitude of this problem and what the budgetary 
needs will be to address all of the issues that you just 
mentioned.
    I think it is too early to say exactly what we will be 
doing, but we are going to have to very thoughtfully prioritize 
the needs. This is expensive work. When you are providing for 
maintaining roads and campgrounds and water facilities and so 
forth, there are a lot of resources that needs to go into these 
activities.
    So we will be working on this, but we also have other needs 
throughout the forest system nationally that have to be 
addressed. But we would be happy to report back to you as we 
develop this strategy for the coming fiscal year.
    Senator Barrasso. Because if a million trees are falling 
every 10 days, and we want to give considerable thought to 
that, but the bark beetle infestation is continuing. Over the 
next year, we are looking at another doubling of acreage. The 
impacts are going to be such that the faster that these 
decisions can be made, the more helpful it is going to be, 
which gets into the issue of management.
    I have concerns about timber sale programs and how that 
will play into this. You talked about the importance of the 
economy, timber, and proper harvesting. Can you give us some of 
your thoughts on that?
    Mr. Sherman. We are making every effort to look at the 
panoply of steps that need to be taken to address moving 
forward effectively with timber sales. The stewardship contract 
is a very important tool that we want to develop because it 
deals with not only the removal of material, but it deals with 
the restoration of these areas as well. We are trying to take a 
holistic approach at this.
    We need to make sure on the front end that we have got 
collaborative efforts working because that is a key to moving 
forward on these various contracts in timber sales. We need to 
make sure the NEPA process is working efficiently because that 
is an important step that we have to go through. But if we can 
go through it quickly and efficiently, that will help us to get 
to where we need to be. We need to work with the timber 
industry to develop new markets for these materials and 
hopefully develop the biofuels industry that goes with it.
    Senator Barrasso. I have a pie chart here that I will ask 
you to take a quick look at, if you would, Mr. Sherman. This 
talks about the Forest Service's review for 2009, which found 
that about 59 percent of Forest Service lands, or about 113 
million acres, are at high risk for forest fires. Meanwhile, 
less than 15 percent of the agency's acreage has been treated 
to reduce the wildfire risk in the past decade.
    The chart says, of that 15 percent, 1 percent of the 
treatment was conducted under stewardship contracts, about 11 
percent from timber sales, prescribed burns about 33 percent, 
and then wildfire over half, the other 55 percent. So can you 
talk a little bit about how this track record supports the 
Department's proposal with the elimination of timber sales and 
relies more on some of the other ways?
    Mr. Sherman. Let me be clear that we are not eliminating 
timber sales. Stewardship contracts are a new tool that 
supplements timber sales. I think we will be moving more and 
more toward the use of stewardship contracts, but timber sales 
are an avenue that will always be available to the Forest 
Service as we go forward. It will be right now a blend of the 
2.
    But I hope that that composite figure of 15 percent will 
increase, but it will be a combination of stewardship contracts 
and timber sales.
    Senator Barrasso. There are some concerns with the 
stewardship contracts in terms of bonding requirements, the 
length of contracts, and I don't know if that discussion is 
taking place in the agency.
    Mr. Sherman. It is. In fact, this bill will help to address 
a number of the challenges and the issues that we have with 
stewardship contracts. We are hoping to fine-tune this tool so 
it can be a more effective one going forward.
    Senator Barrasso. All right. I think I have used plenty of 
time, Mr. Chairman. Perhaps I could submit to Mr. Sherman some 
additional questions in writing?
    Ms. Owens, thank you once again for your patience. I 
appreciate it very much.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Barrasso.
    I look forward to working with you as we move forward. 
Secretary Sherman has surfaced some important concerns and 
opportunities.
    We have been joined by the real chairman of the 
subcommittee, Senator Wyden. Senator Wyden, I don't know if you 
would like to make any opening remarks or direct questions at 
Secretary Sherman?
    Senator Wyden. Senator Udall, thank you very much, and I am 
sorry that I was in the Budget Committee and was detained. I am 
very appreciative of your stepping in, Senator Udall.
    Let me also thank Mr. Sherman. I know that he and his team 
are spending a lot of time and effort working with us on trying 
to address our eastside forestry bill, and I think we are 
making a lot of headway. Very appreciative of the kind comments 
that you have made, Mr. Sherman, to folks in Oregon, and I 
thank you for it.
    The question I had involves briefly S. 2963. I guess this 
will be a question for both of our administration witnesses. 
This is the bill that would consolidate a splintered ownership 
of land in our home State and protect almost 16,500 acres of 
new wilderness along the lower John Day River.
    We have put the proposal together the Oregon way, lots of 
folks at the local level developing the proposal from the 
ground up. It has won the endorsement of private land owners in 
the region, all of the affected counties--Wasco, Wheeler, and 
Jefferson--a variety of recreational interests, and the 
conservation community.
    In addition to protecting what is a stunning landscape and 
providing 2 consolidated blocks of Federal land that will 
provide a host of recreational activities--hunting and fishing 
and rafting and camping--the legislation would also solve the 
management challenges faced by both private land owners and the 
BLM in dealing with land ownership that I think you charitably 
could call a checkerboard.
    With the equal-value land exchanges included in the bill, 
public lands would be consolidated into 2 new wilderness areas. 
This would enhance public safety, improve land management, and 
increase public access. So there are lots of benefits here--
nearly 5 miles of new river access for the public, 16,500 acres 
of protected wildland, better management for private land 
owners and the public agencies, and important habitat 
protections.
    So we also note that it has come to our attention that the 
addition of some parcels of Forest Service/BLM land through the 
exchange might enable the addition of another 2,381 acres of 
wilderness, and certainly, we would like the views of the 
agencies on this today.
    I will close by way of a point that Mr. Sherman and I have 
talked about, and I have appreciated his input. It is obvious 
that our wildlands are playing an increasingly important role 
in the economic development of Oregon and the West. That is 
particularly true in traditionally rural areas east of the 
Cascades in my home State.
    Visitors come from thousands of miles away to hike, fish, 
raft, and hunt. In our desert wilderness, the Cathedral Rock 
and Horse Heaven wilderness areas are going to make sure that 
there is permanent protection for the landscape for generations 
to come. That is good news.
    For the 2 administration witnesses at the Forest Service 
and the BLM, as you could tell from my opening statement, I 
have learned of some additional parcels of Forest Service and 
BLM land that might make sense to add to the land exchanges. 
These lands face the same management challenges as the parcels 
proposed for exchange in the bill and, if possible, would allow 
for another 2,381 acres of wilderness to be added.
    Now, we have shared maps with your agencies on the proposed 
additions, and I would like to have some sense of how you all 
at the Forest Service and the BLM would look at it with respect 
to the prospect of the possible additional lands.
    Mr. Sherman.
    Mr. Sherman. Thank you, Chairman.
    The Forest Service has not yet had an opportunity to 
evaluate either Parcel F1 or F2. But I would say that we have 
no objection to either parcel being identified for exchange 
with BLM, with the proviso that the environmental documentation 
necessary through NEPA would be completed prior to these 
parcels going out of Federal ownership. But other than that, we 
have no reason to object to what is being proposed here.
    Senator Wyden. Very good. Let me ask your colleague at the 
witness table, several colleagues at the witness table.
    Mr. Roberson. Good afternoon, Senator. Chairman Udall, 
Chairman Wyden.
    I would like to say that on behalf of BLM, and I know that 
Ms. Owens will be giving our testimony momentarily, but I have 
reviewed your April 13 letter. I have looked at those parcels. 
I have looked at your proposal for Cathedral Rock and the Horse 
Heaven wilderness area proposals, and we see that these areas 
would be a great asset to the wilderness preservation system.
    The amendments that you have supplied to us, the additional 
areas, we would be happy to work with you on that. We have 
shared this information with our Oregon office, and the folks 
there in north central Oregon are going to be willing to work 
on the ground cooperatively with your office on this exchange.
    Senator Wyden. Thank you. Thank you both.
    Mr. Sherman, we will spare you any questions on the 
eastside program. Obviously, we think this is exactly the kind 
of program that was in the budget for priority consideration as 
it relates to hazardous fuels reduction efforts, and we 
appreciate your ongoing attention.
    I consider this my top priority for the rural part of our 
State. We think that this is going to be a breakthrough in 
forestry policy in the West because when we get this nailed 
down on the east side, save those remaining mills, I think a 
lot of the lessons that will be learned can be applied to the 
west side of Oregon.
    After decades of timber wars, decades of gridlock in the 
forest, working in cooperation with you all, I think that on 
our watch we can go a long way to ending them. So very 
encouraged about the efforts underway.
    Thank you for your comments today.
    Senator Udall, I know you are on a tight time constraint. 
So why don't you just hold forth? I think you have manned the 
subcommittee well.
    Senator Udall. That means a lot to hear that from you, 
Chairman Wyden. You have piqued my curiosity as well about your 
talk about your eastern side of the Cascades mill projects. I 
am going to take a look at what you are proposing.
    In Colorado, we are down to one mill. We have a couple of 
wood pellet mills in addition, but they have had some trouble 
recently with market downturns. But we do need to have a 
sustainable industry----
    Senator Wyden. Let us work together.
    Senator Udall. I would like to do that.
    Senator Wyden. Good.
    Senator Udall. I am certainly--if the names of these 2 
proposed wilderness areas, Cathedral Rock and Horse Heaven, are 
any indication of the quality----
    Senator Wyden. Those are Udall-like places.
    Senator Udall. Those are excellent.
    Ms. Owens, you have been patient. I want to thank you for 
taking the time to come up to Capitol Hill and testify to the 
subcommittee. Please, the floor is yours. If you can keep your 
remarks in that 5-minute timeframe, that would be very helpful. 
But the floor is yours. Welcome.

 STATEMENT OF GLENDA OWENS, DEPUTY DIRECTOR, OFFICE OF SURFACE 
 MINING RECLAMATION AND ENFORCEMENT, DEPARTMENT OF THE INTERIOR

    Ms. Owens. Thank you. Thank you, Senator Udall and Chairman 
Wyden.
    Thanks for the invitation to testify on behalf of the 
Office of Surface Mining Reclamation and Enforcement on S. 
2830. We look forward to working with you on matters relating 
to the Surface Mining Control and Reclamation Act of 1977.
    While we share your concern about abandoned non-coal mine 
sites, we cannot support S. 2830. It is inconsistent with the 
administration's goal of ensuring reclamation of high-priority 
abandoned coal sites before the reclamation fee terminates in 
2021. We believe AML funds should be devoted to the highest-
priority coal problems.
    Through SMCRA, Congress established OSM for 2 purposes. 
First, to ensure that the Nation's coal mines operate in a 
manner that protects citizens and the environment during mining 
and to restore the land to beneficial use following mining. 
Second, to implement an Abandoned Mine Land program to address 
the hazards and environmental degradation created by 2 
centuries of weakly regulated coal mining that occurred before 
SMCRA's enactment.
    Title IV of SMCRA established an AML reclamation program 
funded by a fee assessed on each ton of coal produced. The fees 
collected have been placed in the Abandoned Mine Reclamation 
Fund. The money has been used primarily to reclaim lands and 
waters adversely impacted by mining conducted before the 
enactment of SMCRA and to mitigate the adverse impacts of 
mining on individuals and communities.
    Since 2006, section 411(h)(1) of SMCRA has precluded 
uncertified States and tribes from using funds that they 
receive under that section for non-coal reclamation. S. 2830 
would amend SMCRA to allow uncertified States and tribes to use 
funds received under section 411(h)(1) for reclamation 
activities on non-coal mine sites.
    The Department's proposed fiscal year 2011 budget, in 
addition to reducing spending, proposes to limit the use of AML 
moneys to high-priority coal reclamation projects. The 
Department, therefore, cannot support S. 2830 because it is 
inconsistent with the 2011 budget proposal.
    While we recognize the dangers that abandoned hard rock 
mines pose, the current challenging economic conditions, 
coupled with this administration's commitment to fiscal 
responsibility, heighten the need for AML funds to be focused 
on the core objective of high-priority coal reclamation 
problems.
    However, because we share your concern about non-coal 
abandoned mine sites, OSM would be happy to work with the 
Congress and this committee to explore other options to address 
non-coal abandoned mine reclamation problems.
    I am also submitting testimony for the record on behalf of 
the Bureau of Land Management regarding S. 2963, the Cathedral 
Rock and Horse Heaven Wilderness Act. The Department of the 
Interior supports the goals of S. 2963, which provides for the 
establishment of 2 new wilderness areas along the John Day 
River in Oregon.
    The bill also provides for the exchange of lands between 3 
private parties and the Federal Government, which, if 
completed, would allow the consolidation of fragmented land 
patterns and provide for 2 wilderness areas. Should the land 
exchanges be completed, the additional land would greatly 
enhance the wilderness quality and manageability of the 2 areas 
proposed for wilderness.
    The BLM would like to work with you, Senator Wyden, and the 
committee on several concerns and to make adjustments to the 
legislation as discussed in the bureau's full testimony.
    I am accompanied by Ed Roberson, who has already spoken. He 
is an Assistant Director for BLM, and he will be happy to 
answer any questions that you might have on S. 2963.
    Again, thank you for the opportunity to appear before the 
subcommittee today and testify on these bills. I look forward 
to working with you to ensure that the Nation's abandoned mine 
lands are adequately reclaimed.
    [The prepared statements of Ms. Owens follow:]
Prepared Statements of Glenda Owens, Deputy Director, Office of Surface 
     Mining Reclamation and Enforcement, Department of the Interior
                                s. 2830
    Mister Chairman and Members of the Subcommittee, thank you for the 
invitation to testify on behalf of the Office of Surface Mining 
Reclamation and Enforcement (OSM) regarding S. 2830. I look forward to 
working with you on matters relating to the Surface Mining Control and 
Reclamation Act of 1977 (SMCRA).
    S. 2830 would allow noncertified states and tribes to use certain 
SMCRA payments for non-coal reclamation. While we recognize the 
importance of addressing hardrock mine hazards, we cannot support this 
bill because it is inconsistent with the President's FY 2011 Budget 
proposal to limit SMCRA payments to high priority coal sites.
    The FY 2011 President's Budget includes a proposal to focus AML 
funds on the high priority coal reclamation sites in order to ensure 
that the most hazardous issues can be addressed before the AML fee 
expires. In addition to terminating unrestricted payments to certified 
states and tribes, the proposal will require all noncertified states to 
use their funding only for high priority coal reclamation projects.
                               background
    Through SMCRA, Congress established OSM for two basic purposes. 
First, to ensure that the Nation's coal mines operate in a manner that 
protects citizens and the environment during mining operations and to 
restore the land to beneficial use following mining. Second, to 
implement an Abandoned Mine Land (AML) program to address the hazards 
and environmental degradation created by two centuries of weakly 
regulated coal mining that occurred before SMCRA's enactment.
    Title IV of SMCRA created an AML reclamation program funded by a 
reclamation fee assessed on each ton of coal produced. The fees 
collected have been placed in the Abandoned Mine Reclamation Fund 
(Fund). OSM, either directly or through grants to States and Indian 
tribes with approved AML reclamation plans under SMCRA, has been using 
the Fund primarily to reclaim lands and waters adversely impacted by 
coal mining conducted before the enactment of SMCRA and to mitigate the 
adverse impacts of mining on individuals and communities. Also, since 
FY1996, an amount equal to the interest earned by and paid to the Fund 
has been available for direct transfer to the United Mine Workers of 
America Combined Benefit Fund to defray the cost of providing health 
care benefits for certain retired coal miners and their dependents. 
Section 402(a) of SMCRA fixed the reclamation fee for the period before 
September 30, 2007, at 35 cents per ton (or 10 percent of the value of 
the coal, whichever is less) for surface-mined coal other than lignite, 
15 cents per ton (or 10 percent of the value of the coal, whichever is 
less) for coal from underground mines, and 10 cents per ton (or 2 
percent of the value of the coal, whichever is less) for lignite. As 
originally enacted, section 402(b) of SMCRA authorized collection of 
reclamation fees for 15 years following the date of enactment (August 
3, 1977); thus, OSM's fee collection authority would have expired 
August 3, 1992. However, Congress extended the fees and fee collection 
authority through September 30, 1995, in the Omnibus Budget 
Reconciliation Act of 1990. The Energy Policy Act of 1992 extended the 
fees through September 30, 2004. A series of short interim extensions 
in appropriations and other acts extended the fees through September 
30, 2007.
    The AML reclamation program was established in response to concern 
over extensive environmental damage caused by past coal mining 
activities. Before the 2006 amendments, the AML program reclaimed 
eligible lands and waters using the Fund, which came from the 
reclamation fees collected from the coal mining industry. Eligible 
lands and waters were those which were mined for coal or affected by 
coal mining or coal processing, were abandoned or left inadequately 
reclaimed prior to the enactment of SMCRA on August 3, 1977, and for 
which there was no continuing reclamation responsibility under State or 
other Federal laws.
    SMCRA established a priority system for reclaiming coal problems. 
Before the 2006 amendments, the AML program had five priority levels, 
but reclamation was focused on eligible lands and waters that reflected 
the top three priorities. The first priority was ``the protection of 
public health, safety, general welfare, and property from extreme 
danger of adverse effects of coal mining practices.'' The second 
priority was ``the protection of public health, safety, and general 
welfare from adverse effects of coal mining practices.'' The third 
priority was ``the restoration of land and water resources and the 
environment previously degraded by adverse effects of coal mining 
practices.''
    As originally established, the Fund was divided into State or 
Tribal and Federal shares. Each State or tribe with a Federally 
approved reclamation plan was entitled to receive 50 percent of the 
reclamation fees collected annually from coal operations conducted 
within its borders. The ``Secretary's share'' of the Fund consisted of 
the remaining 50 percent of the reclamation fees collected annually and 
all other receipts to the Fund, and was allocated into three shares as 
required by the 1990 amendments to SMCRA. First, OSM allocated 40% of 
the Secretary's share to ``historic coal'' funds to increase 
reclamation grants to States and Indian tribes for coal reclamation. 
However, all the funds which were allocated may not have been 
appropriated. Second, OSM allocated 20% to the Rural Abandoned Mine 
Program (RAMP), operated by the Department of Agriculture. However, 
that program has not been appropriated AML funds since the mid-1990s.
    Last, SMCRA required OSM to allocate 40% to ``Federal expense'' 
funds to provide grants to States for emergency programs that abate 
sudden dangers to public health or safety needing immediate attention, 
to increase reclamation grants in order to provide a minimum level of 
funding to State and Indian tribal programs with unreclaimed coal 
sites, to conduct reclamation of emergency and high-priority coal sites 
in areas not covered by State and Indian tribal programs, and to fund 
OSM operations that administer Title IV of SMCRA.
    States with an approved State coal regulatory program under Title V 
of SMCRA and with eligible coal mined lands may develop a State program 
for reclamation of abandoned mines. The Secretary may approve the State 
reclamation program and fund it. At the time the 2006 amendments were 
enacted, 23 States received annual AML grants to operate their approved 
reclamation programs. Three Indian tribes (the Navajo, Hopi and Crow 
Tribes) without approved regulatory programs have received grants for 
their approved reclamation programs as authorized by section 405(k) of 
SMCRA.
    Before the 2006 amendments, States and Indian tribes that had not 
certified completion of reclamation of their abandoned coal lands could 
use AML grant funds on noncoal projects only to abate extreme dangers 
to public health, safety, general welfare, and property that arose from 
the adverse effects of mineral mining and processing and only at the 
request of the Governor or the governing body of the Indian tribe.
    The Surface Mining Control and Reclamation Act Amendments of 2006 
were signed into law as part of the Tax Relief and Health Care Act of 
2006, on December 20, 2006 (Public Law 109-432). The 2006 amendments 
revised Title IV of SMCRA to make significant changes to the 
reclamation fee and the AML program. One change extended OSM's 
reclamation fee collection authority through September 30, 2021. The 
statutory fee rates were reduced by 10 percent from the current levels 
for the period from October 1, 2007, through September 30, 2012, and an 
additional 10 percent from the original levels for the period from 
October 1, 2012, through September 30, 2021.
    The Fund allocation formula was also changed. Beginning October 1, 
2007, certified States are no longer eligible to receive State share 
funds. Instead, amounts that would have been distributed as State share 
for fee collections for certified States are distributed as historic 
coal funds. The RAMP share was eliminated, and the historic coal 
allocation is further increased by the amount that previously was 
allocated to RAMP.
    Since 2006, the Department has interpreted the language of SMCRA 
section 411(h) to require that OSM use grants to provide funds to 
eligible States and Indian tribes and to preclude noncertified states 
and Indian tribes from using funds that they receive under that section 
for noncoal reclamation.
                                s. 2830
    Under SMCRA, states can use some of the AML funds they receive for 
non-coal reclamation. S. 2830 would amend SMCRA to allow noncertified 
states and tribes to use their mandatory funds received under Section 
411(h)(1) from their unappropriated AML Fund balance for reclamation 
activities on non-coal mine sites. Noncertified states and tribes can 
already use the funds they receive from the ``state share'' and 
``historic coal'' formulas for non-coal reclamation.
    When Secretary Salazar appeared before the Committee on Energy and 
Natural Resources to testify about the FY 2011 President's Budget for 
the Department of the Interior, he noted that in developing a balanced 
budget request for FY 2011, tough choices had to be made. The budget, 
in addition to eliminating unrestricted payments to certified states, 
also proposes limiting the use of AML payments to priority coal 
reclamation projects. The Department cannot support S.2830 because it 
is inconsistent with the Fiscal Year 2011 budget.
    In an effort to focus the AML program on coal reclamation before 
the reclamation fee terminates, the President's FY 2011 budget proposes 
to restrict the use of AML funds by noncertified states to high 
priority coal reclamation. Because S.2830 is inconsistent with the 
Administration's goal of ensuring expeditious coal reclamation, we 
cannot support this bill.
    While we recognize the dangers that abandoned hard rock mines can 
pose, AML funding needs to be focused on the highest priority problems 
Congress originally identified in 1977. The challenging economic 
conditions, coupled with this Administration's commitment to fiscal 
responsibility, only heighten the need for AML funds to be devoted to 
the highest priority coal problems. We note that the administration has 
continued to invest in AML, both through the Bureau of Land Management 
and National Park Service American Recovery and Reinvestment Act of 
2009 funding and the FY 2011 President's Budget to address hardrock 
mine reclamation on Federal Lands.
    We share your concern about non-coal abandoned mine sites and would 
be happy to share the expertise gained administering SMCRA and work 
with the Congress and this committee as we seek to address abandoned 
non-coal mine problems.
    Thank you for the opportunity to appear before the Subcommittee 
today and testify on this bill. I look forward to working with the 
Subcommittee to ensure that the Nation's abandoned mine lands are 
adequately reclaimed.
                                s. 2963
    Thank you for inviting the Department of the Interior to testify on 
S. 2963, the Cathedral Rock and Horse Heaven Wilderness Act. The 
Department supports the goals of S. 2963, which would bring into 
Federal ownership certain lands along the John Day River in Oregon, and 
designate those lands and adjacent public lands as wilderness. However, 
we would like to work with Senator Wyden and the Committee on several 
concerns and to make adjustments to the legislation as discussed below.
                               background
    Congress recognized the rugged beauty of the John Day River in 
central Oregon by designating it as a wild and scenic river in 1988 
(Public Law 100-557). Last year, we built on the success of that 
designation when President Barack Obama signed into law Public Law 111-
11, the Omnibus Public Land Management Act of 2009. Title I, Subtitle 
J, of that Act provided for a series of land exchanges and the 
designation of the Spring Basin Wilderness in Wheeler County along the 
east bank of the middle reaches of the John Day River.
    Along the western bank of the John Day Wild and Scenic River, just 
to the south of Spring Basin Wilderness, are some equally outstanding 
lands proposed to become the Cathedral Rock Wilderness. The lands 
planned for designation range from the cliffs and canyons along the 
river heading westerly to steep rolling hills punctuated by rocky 
escarpments. Wagner Mountain is located in the center of the proposed 
wilderness and is the highest point in the area. The geology is 
dominated by ancient volcanics, composed of andesite flows, plugs, and 
domes. The entire area is covered in rhyolite ash-flows which produce 
dramatic red, white, and buff colored soils. Hunters and hikers alike 
enjoy the breathtaking scenery as well as the resident mule deer and 
elk populations, while rafters brave the John Day's rapids. Cultural 
sites showcase prehistoric fossils, stone tools, and rock art.
    Four miles to the southwest of the Cathedral Rock region is the 
proposed Horse Heaven Wilderness. The name reflects Oregon's pioneer 
past when the flawless grasslands of the areas were a closely guarded 
secret. Today that secret is out and a wide range of recreationists 
enjoy the area's many opportunities. At more than 4,000 feet, Horse 
Heaven Mountain serves as a worthy centerpiece to a diverse landscape 
illustrating Oregon's high and low countries. Traveling south, rolling 
plains and steep terrain dominate the area; to the west, Muddy Creek is 
the area's lone perennial stream. Prairie steppes throughout connect 
hearty shrubs and woodlands that demonstrate steadfast resolve to 
thrive in the rocky soil.
                                s. 2963
    S. 2963 provides for the establishment of two new wilderness areas 
to become components of the National Wilderness Preservation System. 
The bill also provides for the exchange of lands between three private 
parties and the Federal government which would allow the consolidation 
of fragmented land patterns, and provide for two coherent wilderness 
areas. Should the land exchanges be completed, the additional land 
would greatly enhance the wilderness quality and manageability of the 
two areas proposed for wilderness.
    Section 4 of the bill outlines a series of land exchanges with 
three private parties. Under section 206 of the Federal Land Policy and 
Management Act (FLPMA), the Bureau of Land Management (BLM) has the 
authority to undertake land exchanges that are in the public interest. 
Exchanges allow the BLM to acquire environmentally-sensitive lands 
while transferring public lands into private ownership for local needs 
and the consolidation of scattered tracts. In principle, the BLM 
supports the land exchanges envisioned by S.2963; however, we would 
like the opportunity to work with the sponsor and the Committee to 
address a number of specific concerns. Foremost among these concerns is 
the need to assess whether all of the lands proposed for acquisition 
merit management for wilderness values, and provide for public access 
and enjoyment of these lands.
    The lands proposed for exchange out of Federal ownership are 
largely scattered sections of public land intermingled with private 
land. The BLM in Oregon has not had an opportunity to fully assess 
these lands (nearly 7,500 acres) to determine if they are appropriate 
for disposal or if there are significant impediments to transfer out of 
Federal ownership. The BLM believes that there may be cultural resource 
sites that could raise serious concerns or require mitigation. We 
recommend that the legislation allow the Secretary to withdraw specific 
lands from the exchange if any serious impediments are discovered.
    Likewise, while the BLM is generally aware of the resource values 
on the private lands to be acquired by the Federal government, the BLM 
in Oregon would like the opportunity to analyze these lands more 
closely. Furthermore, the legislation should also ensure that all non-
Federal parties are responsible for the remediation of any human safety 
concerns or hazardous materials on the lands to be exchanged out of 
present ownership.
    The BLM supports the provisions of the bill requiring that all 
three exchanges be equal value exchanges, and that the appraisals be 
undertaken consistent with Uniform Appraisal Standards. We recommend 
minor modifications to the language to make it consistent with FLPMA.
    Section 3 of S. 2963 proposes to designate Cathedral Rock 
Wilderness and Horse Heaven Wilderness on the lands that would be 
consolidated under the land exchanges envisioned by section 4 of the 
bill. When those land exchanges are completed, the Cathedral Rock 
Wilderness would include nearly 8,700 acres of public land and the 
Horse Heaven Wilderness nearly 7,800 acres. The BLM could manage these 
areas as wilderness following the exchanges, assuming that the 
exchanges occur and that the private lands exhibit wilderness 
characteristics. It should be noted that absent the largest exchange 
envisioned under S. 2963, these areas would be impracticable for the 
BLM to manage as wilderness. That proposed exchange with ``Young Life'' 
involves the core of both the proposed Cathedral Rock and Horse Heaven 
wilderness areas. As previously noted, the BLM would like time to 
evaluate the proposed non-Federal parcels for wilderness 
characteristics.
    The current land patterns of both the proposed Cathedral Rock and 
Horse Heaven Wilderness Areas are extremely fragmented. The BLM manages 
approximately 4,700 acres in seven non-contiguous parcels within the 
Cathedral Rock area and less than 3,000 acres in two separate parcels 
within Horse Heaven. The land exchanges are, of course, optional for 
the three private parties. If, in the end, the largest private land 
owner decided not to pursue the exchange, managing the wilderness areas 
would be extremely difficult given the fragmented nature of the BLM 
landholdings in these two areas. The BLM encourages the Committee and 
the sponsor to address these concerns before moving the legislation 
forward. One option may be for the bill to designate these lands as 
``potential wilderness,'' which would automatically become wilderness 
when the necessary exchanges are completed.
    Additionally, the BLM would like to work with the sponsor and the 
Committee on boundary adjustments and management language modifications 
as is routine in such proposed designations. Specifically, the BLM 
would like to discuss boundary modifications to assure public access to 
the proposed wilderness areas and to make the areas manageable as 
wilderness.
    Finally, S. 2963 envisions the land exchanges under the legislation 
being completed within two years of the date of enactment. Because of 
the complicated nature of the exchanges as envisioned by the bill, two 
years would very likely be insufficient time to complete the 
transactions.
                               conclusion
    The proposed Cathedral Rock and Horse Heaven Wilderness areas could 
be outstanding additions to the National Wilderness Preservation System 
if the critical exchanges envisioned by the legislation are completed. 
We look forward to working with Senator Wyden and the Committee toward 
that end.

    Senator Udall. Thank you, Ms. Owens.
    I was remiss, and I hope you will accept my apologies. I 
didn't properly introduce you. You are Glenda Owens. You are 
the Deputy Director at the Office of Surface Mining Reclamation 
and Enforcement, Department of the Interior.
    Thank you again for taking the time to come up to the Hill.
    Mr. Roberson, if you would, for the record, would you just 
state your name and your title and your responsibilities, 
please?
    Mr. Roberson. Yes, sir. I am Ed Roberson, the Assistant 
Director for Renewable Resources and Planning in the Bureau of 
Land Management, Department of Interior.
    Senator Udall. Thank you. Thank you for that.
    Senator Wyden, do you have questions? I will recognize 
myself for 2 questions.
    Let me start, Ms. Owens, with you, given that you just 
shared your testimony with us. As I understand it, ever since 
the passage in 1977 of the Surface Mining Control and 
Reclamation Act, finally known as SMCRA, that it allowed the 
use of abandoned mine land funds for the reclamation of high-
priority non-coal abandoned mines.
    The previous administration interpreted the amendments that 
were passed in 2006 to preclude the use of AML funds by States 
for non-coal mine cleanup, despite the fact the topic was never 
debated and there was no expressed congressional intent to 
cutoff the funding. S. 2830 would set this straight and clarify 
that States and tribes can continue to use these funds for non-
coal reclamation.
    Given the serious problems that these non-coal abandoned 
mine sites pose to public health and safety, particularly in my 
State of Colorado and Chairman Bingaman's State of New Mexico, 
I think certainly in the eastern reaches of the great State of 
Oregon, why would the administration oppose the bill?
    Ms. Owens. Senator Udall, we do recognize the dangers that 
are posed by hard rock mine, abandoned mine sites. However, 
this administration feels--believes that the abandoned mine 
funds should be focused on the cleanup of coal reclamation, the 
initial intent of Congress in 1977 when the SMCRA was enacted.
    Senator Udall. I understand wanting to hew closely to what 
you think the intent of the law was. But as I understand it, 
the States since that time, which is now over 30 years, did use 
some of those funds for the non-coal mine cleanup work that 
certainly is very, very necessary in States like mine.
    So we will continue to have this discussion, obviously. I 
will reserve the right on behalf of the committee and the 
chairman to extend questions to you and the agency over the 
next couple of weeks before we close the hearing record.
    Ms. Owens. Certainly. Certainly.
    Senator Udall. Let me turn to Secretary Sherman. Senator 
Barrasso touched on a lot of the questions that I had and I 
think Senator Wyden would have had as well. I know he is going 
to enter some additional questions for the record, but I wanted 
to direct this question.
    I am concerned about future forest conditions, as well as 
current forest conditions. If we do nothing about this 
epidemic--I think that is an appropriate term--that is, I mean 
prioritize treatments and harvest the stands of dead trees to 
reduce threats of harm and fire in emergency areas like my bill 
would accomplish and, just as important, manage our forests, we 
could be right back here with another epidemic of this size and 
scope.
    Do you agree, and is the Forest Service taking steps to 
help produce a healthier, more sustainable future forest?
    Mr. Sherman. Senator Udall, there is no question that we 
need to look to what the future forests of our country will 
look like, and they may look different than the forests of 
today. We have to recognize that climate change is a factor, 
and we have to recognize in certain areas there will be less 
precipitation, warmer temperatures, and so forth.
    So we are looking at ways to diversify the species in given 
forests. We are looking at ways of diversifying the age classes 
of these forests so that we don't have a single, monolithic age 
class. We are looking at ways of reducing the density of some 
of these forests because they simply don't have the carrying 
capacity to serve all of the vegetation that they currently do. 
So I think the forests of the future will look different.
    We have a very significant research arm within USDA and 
within the Forest Service to try to answer these types of 
questions. As we go forward with these efforts to restore our 
forests, we are going to have to focus on what do we want to 
encourage and what types of vegetation, how would they vary 
from what have previously existed?
    But this is an interesting and a complicated issue. But it 
is an issue that certainly has our attention, and we are 
working on it.
    Senator Udall. Thank you for sharing those approaches with 
us.
    I know Senator Wyden represents the second most beautiful 
State in the Nation. It goes without saying what I represent. 
But there is a beautiful area around Bend. The Cascades are a 
place in which I have had many adventures and skied and 
mountain biked and hiked. I am thinking the Bend ecosystem is 
probably similar to the one in the front range of Colorado, 
which is Ponderosa-like forests, which have become thicker and 
thicker, clogged with the dog-hair trees. But we have grown up 
thinking that is what a natural and healthy forest looks like.
    So as part of what I think the Forest Service has to do is 
educate the public as to what a healthy forest looks like, the 
mosaic patterns that you referenced, the more grasses and 
shrubs, biomass in more diverse forms than just in the woody 
biomass that makes up Ponderosas or lodgepoles or other tree 
species. Is that also on your list to work with the public and 
explain to us and educate us?
    Mr. Sherman. Yes. I think a public education campaign here 
is vitally important. Interestingly, our use of prescribed fire 
is going to be one of the tools that we look to to determine 
what the future of forests in this country look like.
    But you are right. People need to understand what a healthy 
forest does look like, and I think part of that clearly is the 
thinning of these forests, giving larger canopies a chance to 
exist within the forest. But again, I am very pleased with the 
research effort going on within USDA to focus on this issue. It 
is an important issue.
    Senator Udall. Yes. I think we all hold the goal of 
returning fire to our forests in the low-intensity, ground-
level way that it has historically operated.
    I know I have gone through my own evolution of learning 
from scientists like Dr. Kaufmann up at CSU as to the key role 
forest fire has played in our ecosystems. We want to reach a 
point where that kind of fire returns to our forests, but 
without great threats and significant threats to our watershed 
sheds and our human-built environment.
    Senator Risch has joined us, my co-sponsor in the bill we 
are discussing. Senator, I would be happy to yield time to you 
if you have had a chance to gather your thoughts.
    Senator Risch. Thank you very much, Mr. Chairman.
    I am honored to co-sponsor this bill with you. Probably 
before I got here, you spent some time talking about the 
conditions that have brought about the situation that we have. 
The Intermountain region is a region that is dry anyway, and we 
went through a series of years where we had back-to-back 
droughts.
    Things have gotten better. In fact, we have actually had a 
couple, a few good years in there. But that doesn't make up for 
the back-to-back droughts that we have. The situation that we 
have is we have large--we have some expansive stands of 
lodgepole pine that grow in what I think most people in America 
would classify as a semi-arid condition.
    Since we didn't have the moisture, the trees were not 
able--trees obviously are attacked every year by bugs or by 
bark beetles, and generally, a healthy tree doesn't have a lot 
of trouble. They have lived with it for centuries, and they 
pitch the beetle out. But when you have a drought situation, 
they can't pitch the beetle out. The result, of course, the 
tree gets girdled, and we have large, expansive stands of 
lodgepole pine.
    When I was Governor, we had--of course, we have fires every 
year. But that particular summer, we went out to look at them, 
and the particular route we took was over what is called the 
Stanley basin in Idaho. I have to tell you, I was shocked at 
seeing the expanses. It looked almost like a fire had gone 
through, but no fire had gone through. But there were just 
expansive stands of this lodgepole pine that are suffering from 
this.
    So something has to be done. Like I said, we have gone 
through some wetter years, although this winter again is going 
to put us in a drought situation. But this bill, hopefully, 
will address that situation. I am honored to co-sponsor.
    Thank you, Mr. Chairman.
    Senator Udall. I want to thank again Senator Risch. He and 
I have an excellent working relationship. Us westerners hang 
together, whether we are Rocky Mountain westerners or we are 
far westerners like Senator Wyden.
    Senator Risch. On a lot of things.
    Senator Udall. On a lot of things.
    With that, let me thank the panelists, and you are excused, 
and we will call up the second set of panelists.
    [Paused.]
    Senator Udall. We will call Mr. Reinhardt forward as well. 
Welcome to all of you. Let me briefly introduce each of you. 
Before I do that, though, I wanted to briefly express my regret 
that our hearing that was scheduled for March 23rd was 
canceled. But I know that we all very much appreciate each of 
you making a second trip to testify here in Washington.
    We have been joined by--in no particular order, but Forrest 
Reinhardt. He is president of Venture Beyond, based in Coto de 
Caza, California. Gregory Conrad, with the National Association 
of Abandoned Mine Land Programs and Executive Director of the 
Interstate Mining Compact Commission, based in Herndon, 
Virginia. The Honorable Dan Gibbs, Colorado State Senator, 
Senate District 16, Denver, Colorado, who happens to be my 
State senator. Dominik Kulakowski, who is a Ph.D., assistant 
professor, School of Geography, Clark University.
    I think you say it ``Wooster,'' Massachusetts. Is that 
right? I maybe didn't pronounce your name----
    Mr. Kulakowski. ``Woostah''.
    Senator Udall. Worcester, Massachusetts. But it is really 
appreciated that you are here today.
    I have a bit of a tight schedule. So I am going to exercise 
a prerogative as the chair and ask the 2 Coloradoans or I 
should say the two witnesses that I asked to appear today to 
testify and then, if the chairman is willing, extend some 
questions to those 2 witnesses. Then, Mr. Conrad and Mr. 
Reinhardt, we certainly do want to hear your testimony as well.
    So we will start with Dr. Kulakowski. Would you please 
share your thoughts with us within about a 5-minute timeframe? 
We look forward to hearing what you have to say.

  STATEMENT OF DOMINIK KULAKOWSKI, ASSISTANT PROFESSOR, CLARK 
                   UNIVERSITY, WORCESTER, MA

    Mr. Kulakowski. Thank you, Chairman Wyden, Chairman Udall, 
and Senator Risch, members of the committee.
    My name is Dominik Kulakowski, and I thank you for the 
opportunity to be here today.
    I have been conducting research on the interactions between 
outbreaks of bark beetles and fires for over a decade. During 
that time, I have worked as a research scientist at the 
University of Colorado, and I am now a professor at Clark 
University in Massachusetts, where I continue this line of 
research. My testimony is based on the findings of my own 
research and on the research of other scientists.
    First of all, it is important to recognize that the Rocky 
Mountains are being affected by the largest outbreak of bark 
beetles in recorded history. The extensive areas of dead trees 
have understandably led to widespread concern about forest 
health and about the risk of wildfires.
    However, the vast majority of scientific studies have found 
that fire risk does not increase following outbreaks of spruce 
beetle or mountain pine beetle. Consider the following 
examples.
    Following a major outbreak in Colorado in the 1940s, there 
was substantial concern about the increased risk of fire. But 
although over 300 fires occurred in that region in the decades 
that followed, our research found that these fires were no more 
likely to have occurred in beetle-affected forests.
    Similarly, after a large fire burned in Wyoming in 1994, 
another group of researchers found that stands of lodgepole 
pine that had been affected by beetles prior to the fire did 
not burn more severely compared to adjacent areas of forests.
    Yet another recent study by a different group of 
researchers examined fuel conditions in lodgepole pine for 35 
years following the outbreaks and concluded that the 
probability of active crown fire does not increase following 
the outbreaks, even when the red needles are still on the 
trees. This list goes on and on.
    To understand these scientific findings, which may seem 
counterintuitive, we need to consider that in any given 
ecosystem, either fuels or climate will be limiting to the 
occurrence of wildfire.
    The emerging scientific view is that in the vast majority 
of forests that are currently being affected by beetles, there 
is no shortage of flammable material, regardless of outbreaks. 
Therefore, changes in fuels following outbreaks are not as 
important a fire risk as we may think.
    In most cases, changes in fuels brought about by outbreaks 
are overridden by climatic and weather conditions to the point 
that the effect of outbreaks does little or nothing to increase 
the risk of fire.
    There is compelling scientific evidence that outbreaks have 
little or no effect on the risk of wildfire in these forests. 
There is also compelling evidence that drought conditions have 
a major effect on the risk of wildfires. Over the past decades, 
we have seen an increase in large fires that have been 
associated with drought conditions.
    Furthermore, numerous scientific studies have concluded 
that large and severe fires have occurred in these forest types 
for centuries and that these fires have occurred during periods 
of drought.
    Over the past decades, firefighters have been using an 
extraordinary amount of resources and have been taking 
extraordinary risks to try to control wildfires--not because 
those fires have resulted from bark beetle outbreaks, but 
because they have occurred during drought conditions. It is 
climate we should be focusing on if we want to assess and 
mitigate fire risk in lodgepole pine and spruce forests.
    If conditions are dry enough, then the risk of fire is 
likely to be high. If conditions are not dry enough, then the 
risk of fire is not likely to be high, regardless of the effect 
of outbreaks.
    Unfortunately, as a Nation, we are increasingly building 
our homes in fire-prone ecosystems. Doing so is like building 
our homes in floodplains. We may be lucky for a while, but 
eventually the flood will come.
    Scientific research concludes that reducing flammable 
material in the wildland-urban interface, especially in the 
immediate vicinity of structures, and using nonflammable 
building materials is the most effective way to protect 
structures against fire damage. Pine branches touching wooden 
decks are much more relevant a fire risk than is the structure 
of remote forests. Replacing wooden shingles with a metal roof 
will do much more to protect a home than treating all beetle-
affected forests in the Rocky Mountains.
    Although ongoing outbreaks have understandably led to 
widespread concern about the increased risk of fire, the best 
available science indicates that outbreaks of mountain pine 
beetle and spruce beetle do not increase the risk of fire in 
most types of forests. Now ongoing outbreaks have not increased 
the risk of wildfire as much as they have drawn attention to 
the risk that has been there long before the outbreaks began.
    My concern is that by focusing treatments in remote forest 
areas, we will be using up limited funds and resources while 
still leaving homes and communities at risk to wildfire. Doing 
so would be like beginning surgery on a patient before first 
having the correct diagnosis. We will not address the real 
problem, and we may do more harm than good.
    We do need to protect our homes and communities from the 
risk of wildfire, but the best way of doing so is by removing 
flammable material from their immediate vicinity and by using 
fire-resistant building materials, not by modifying forest 
structure in remote areas that have been affected by beetles.
    Thank you.
    [The prepared statement of Mr. Kulakowski follows:]
 Prepared Statement of Dominik Kulakowski, Assistant Professor, Clark 
                       University, Worcester, MA
    Chairman Wyden, Senator Barrasso, members of the Committee: My name 
is Dominik Kulakowski. I have been conducting research on the 
interactions between outbreaks of bark beetles and fires for over a 
decade. During that time I have worked as a research scientist at the 
University of Colorado and I am now a professor at Clark University in 
Massachusetts where I continue to pursue this line of research. I have 
authored numerous scientific papers on this topic and have contributed 
to three major scientific literature reviews related to bark beetle 
outbreaks, the most recent of which is attached as supporting material 
with my testimony. I have also peer-reviewed numerous related 
scientific studies and research proposals of other scientists. My 
testimony is based on the findings of my own research and on the 
research of other established scientists. My goal is to summarize the 
best available science on the relationship between beetle outbreaks and 
fire risk and on associated mitigation efforts.
1. Outbreaks and the risk of fire
    First of all it is important to recognize that the Rocky Mountain 
region is being affected by the largest outbreak of bark beetles in 
recorded history. The extensive areas of dead trees have understandably 
led to real concern about forest health and the risk of wildfires. 
However, these concerns need to be informed by the best available 
science to ensure that our responses do not have unintended ecological 
consequences with potentially undesirable effects. The vast majority of 
scientific studies have found that fire risk does not increase 
following outbreaks of spruce beetle or mountain pine beetle and some 
studies actually have reported a decrease in fire risk following 
outbreaks. In contrast, only a couple of studies have reported a minor 
increase in fire risk following outbreaks and the certainty of some of 
those conclusions was hindered by complications in the research design. 
Thus, the premise, such as that contained in S. 2798, that outbreaks 
increase the risk of fire is not consistent with the general 
conclusions of the scientific work on this topic. Consider the 
following examples.
    Following a major outbreak of spruce beetle in Colorado in the 
1940s, there was substantial concern about the increased risk of fire. 
But although over 300 fires occurred in that region in the decades that 
followed, our research found that the forests that had been affected by 
beetles were no more likely to have burned than other forests. 
Furthermore, no major fires occurred in those beetle-affected forests 
in the years and decades that followed the outbreak despite the 
abundance of dead trees. The most likely explanation for this lack of 
large severe fires is that climatic conditions in these spruce-fir 
forests are a greater factor in determining fire risk than is the 
presence of dead trees. In fact, it was not until a severe drought in 
2002 that a large fire affected these forests and during that year 
there were many wildfires in Colorado, the majority of which burned 
forests with no recent history of outbreaks.During the drought of 2002, 
wildfires also burned some forests in northern Colorado that were being 
attacked by beetles at that time. It has been hypothesized that the 
risk of fire may increase during and immediately after outbreaks of 
bark beetles when the dry red needles are still on the trees. However, 
our research found that those ongoing outbreaks affected neither the 
extent nor severity of fires, most likely because changes in fuels 
brought about by outbreaks were overridden by climatic and weather 
conditions.
    Similarly, after a large fire burned in Yellowstone National Park 
in 1994, another group of researchers found that stands of lodgepole 
pine that had been affected by beetles prior to the fire did not burn 
more severely compared to adjacent areas of forests that had not been 
affected by beetles. Yet another recent study by a different group of 
researchers examined fuel conditions for 35 years following outbreaks 
in lodgepole pine forests and concluded that, depending on wind 
conditions, the probability of active crown fire either does not change 
or actually decreases following outbreaks. Numerous other independent 
studies have also concluded that the risk of fire does not increase 
following outbreaks and may decrease in some situations.
    To understand these scientific findings, which may seem counter-
intuitive, we need to consider that (1) bark beetles affect fuels in 
several ways and (2) several factors are necessary for the occurrence 
of wildfires. Recent research indicates that reductions in canopy 
density following outbreaks are actually more important to fire risk 
than are increases in dead fuel. In other words, beetle-killed trees 
rapidly lose their needles and this reduces the amount of potentially 
flammable material in the canopy. In contrast, live trees have dense 
canopies which are instrumental in the spread of wildfire. Second, and 
most importantly, in any given ecosystem either fuels or climate will 
be limiting to the occurrence of wildfire. The emerging scientific view 
is that fuels are not limiting to the occurrence of fires in the vast 
majority of forest types that are currently being affected by beetles 
in the western United States. In other words, in forests dominated by 
lodgepole pine and Engelmann spruce there is no shortage offlammable 
material, even in the absence of beetle outbreaks. These forests are 
characteristically dense and during droughts the risk of severe 
wildfire will be high, regardless of outbreaks. In fact climate is so 
important to fire risk that the effects of outbreaks appear to have 
comparatively little or no influence.
2. Climate and the risk of fire
    There is compelling evidence that outbreaks have little or no 
effect on the risk of wildfires in these forests. There is also 
compelling evidence that drought conditions have a major effect on the 
risk of wildfires. Over the past decades we have seen an increase in 
large fires that have been associated with drought conditions. 
Furthermore, using various scientific methods numerous research groups 
have examined the history of lodgepole pine and spruce forests over the 
past centuries and have concluded that large and severe fires are the 
norm in these types of forests and that such fires have historically 
occurred during periods of droughts. This has been the case long before 
Colorado and Oregon were states and even before the United States was a 
country.
    Over the past decades fire fighters have been using an 
extraordinary amount of resources and have been taking extraordinary 
risks to try to control wildfires--not because those fires have 
resulted from bark beetle outbreaks, but because they have occurred 
during drought conditions. It is climate that we should be focusing on 
if we want to assess and mitigate fire risk. If conditions are dry 
enough then the risk of fire is likely to be high and if conditions are 
not dry enough then the risk of fire is not likely to be high, 
regardless of the effect of outbreaks. Although lodgepole pine and 
spruce forests that are made up of live green trees may appear not to 
be flammable, the fact is that during drought conditions the risk of 
wildfire can be extremely high.
    An important corollary of the fact that large and severe fires are 
the norm in these ecosystems is that fire hazard mitigation in these 
forests should not be mistaken for forest restoration. Although it may 
not be socially desirable, the occurrence of severe fires during 
drought in these forests is not abnormal, and instead represents the 
characteristic function of these ecosystems.
3. Strategies for reducing fire risk to homes, communities and public 
        safety
    Unfortunately, as a nation, we are increasingly building our homes 
in fire-prone ecosystems. Doing so is like building our homes in 
floodplains--we may be lucky for a while, but eventually the flood will 
come. Recent scientific research on fire hazard mitigation concludes 
that the greatest priority should be given to the wildland-urban 
interface, especially in the immediately vicinity of homes--an area 
known as defensible space. Forest Service experts point to a 40-meter 
zone (about 122 feet) around the home that determines a home's 
ignitability. Reducing flammable material in the immediate vicinity of 
structures and replacing flammable building materials such as wooden 
decks with non-flammable alternatives has beenshown to effectively 
protect structures against fire damage. Likewise, as beetle-killed 
trees are likely to fall more often than live trees, strategically 
removing hazard trees in and around campgrounds, recreation areas, and 
certain infrastructure where property is at risk is integral to 
protecting public safety.
    By design, traditional timber harvest is focused on producing 
economically valuable timber and wood fiber and not on reducing fire 
severity. This type of harvest will do little to reduce fire risk at 
any scale if it primarily removes large trees, because smaller trees, 
brush and branches often are the major carriers of a spreading fire. In 
fact, stands that had been harvested but in which small, non-
merchantable material had not been removed prior to the 2002 Hayman 
fire in Colorado actually burned more severely than stands that had not 
been harvested. To be effective at reducing fire hazard to communities, 
tree-cutting must be executed in a way that removes all flammable 
material (not just economically valuable timber) and must be located in 
the immediate vicinity of homes and settlements. Treating forest lands 
far from communities is not likely to reduce the risk of fire to homes 
and neighborhoods.
    Overall, it is going to be much less expensive, more effective and 
less ecologically damaging to focus fire-hazard reduction efforts 
around communities and homes than it would be to try to make a 
wholesale modification of forest structure over large landscapes. Pine 
branches touching wooden decks are much more relevant to fire risk than 
is the structure of remote forests. Replacing wooden shingles with a 
metal roof will do much more to protect a home than treating all 
beetle-affected forests in the Rocky Mountains. My concern is that by 
focusing treatments in remote forests, we will be using up limited 
funds and resources while leaving homes and communities at risk of 
wildfire. Doing so would be like beginning surgery on a patient before 
first having the correct diagnosis--we will not address the real 
problem andwe may do more harm than good.
4. Preventing outbreaks
    If a bark beetle infestation is relatively small and concentrated 
in a limited area, it may be feasible to reduce the population growth 
of beetles by removing infested trees from a forest stand or by 
thinning a stand to reduce stress on trees competing for limited 
nutrients, sunlight and moisture. For example, if a small stand of 
spruce is blown down by a windstorm and populations of bark beetles 
begin growing in fallen logs, then it may be feasible to remove all 
fallen, infested trees over a small area. However, given the climatic 
requirements for beetle population levels to reach epidemic levels, it 
is not known whether such a situation would lead to an outbreak. In 
other words, a small population of beetles is not sufficient for an 
extensive outbreak to occur. Conversely, under climatic conditions 
favorable for an outbreak, such as those of the past decade, outbreaks 
of bark beetles can erupt simultaneously in numerous dispersed stands 
across the landscape. Unfortunately, even if one growing population of 
beetles is successfully removed from one stand, under outbreak 
conditions beetles from other stands are likely to spread over the 
landscape. Given that climate typically favors beetle populations and 
stresses trees over very large areas, it is unlikely that all 
populations of beetles over an extensive region could be successfully 
identified and removed.
5. Conclusion
    Although ongoing outbreaks understandably have led to widespread 
public concern about increased fire risk, the best available science 
indicates that outbreaks of mountain pine beetle and spruce beetle do 
not lead to an increased risk of fire in the vast majority of forests 
that are currently being affected. We should not let the effects of 
bark beetle outbreaks, as spectacular as they may be, distract us from 
the real risk. The real concern in that we have built homes, 
communities, ski resorts, and other infrastructure in inherently 
flammable ecosystems. The ongoing outbreaks have not increased the risk 
of wildfire as much as they have drawn attention to the risk that has 
been there long before the outbreaks began. Forests of lodgepole pine 
and spruce-fir are prone to high-severity fires during drought 
conditions, regardless of the influence of bark beetle outbreaks.
    There is a need to take effective steps to protect public safety 
and especially to protect homes and communities from fire risk that is 
associated with drought conditions. The best way of doing so is by 
removing flammable material from the immediate vicinity of homes and 
communities and by using fire resistant building materials, not by 
modifying forest structure in remote areas that have been affected by 
outbreaks. The former approach would be less expensive, much more 
effective at protecting public safety interests, and consistent with 
the best available science.

    Senator Udall. Thank you, Doctor.
    Let me turn again to my State senator, Senator Gibbs. He 
has also been joined here, I should say, in Washington by 
Representative Christine Scanlan. Their districts overlap. In 
our State, Senator Risch, it is one State senator per 2 State 
representatives, give or take.
    But I think the fact that they are both here shows the 
importance of this concern that is increasingly surfacing in 
the great State of Colorado, and I want to thank Senator Gibbs.
    Senator Risch. Senator Udall, my senator in Idaho promises 
me lower taxes and more services. Does your senator?
    [Laughter.]
    Senator Udall. He does as well. He does as well. I will 
leave him to explain how he is going to do that. But again, I 
want to thank Senator Gibbs for his passion and commitment and 
great knowledge on this topic.
    Senator Gibbs, the floor is yours.

  STATEMENT OF HON. DAN GIBBS, COLORADO STATE SENATOR, SENATE 
                     DISTRICT 16, DENVER CO

    Mr. Gibbs. Thank you, Chairman Udall, Mr. Chairman Wyden, 
Ranking Member Barrasso, Senator Risch, members of the 
committee. It is a great honor to come before you today.
    My name is Dan Gibbs. I am a Colorado State senator, and it 
is a great honor to have my friend and colleague, 
Representative Christine Scanlan, with us here today, who has 
been a great champion on forest health issues throughout 
Colorado.
    In addition to being a Colorado State senator, I am also a 
Type 2 wildland firefighter and Summit County's wildfire 
mitigation specialist. I have fought fires in Colorado and 
California, and I have seen firsthand the difference between 
fires in an area where lands have been proactively managed and 
those that have not.
    Over the last 10 years, I have witnessed a transformation 
of our forests in the counties I represent. In Grand County, 
which gives rise to the headwaters of the Colorado River, a 
source of water and life for major cities and many western 
States, most of the lodgepole pine trees are dead. The bark 
beetle epidemic is changing Colorado and the West.
    This transformation is immediately apparent to anyone 
spending time in our national forests. Visitors in my State 
often remark about the mountainsides of red trees, and I have 
to tell them because it is all dead. The mountain pine beetle 
has already killed 2.9 million acres of trees in Colorado. 
Current estimates indicate that every lodgepole pine tree will 
be dead within a decade.
    The vast swaths of dead timber create fire threats and 
danger from falling trees. These risks create concerns for 
communities throughout the West, such as drinking water, 
critical infrastructure, wildlife, tourism, and recreation. In 
response, local, State, and Federal agencies, as well as 
private businesses, have joined together to address the growing 
devastated areas and threats they present.
    For example, Colorado has adopted a number of innovative 
strategies, including the creation of public-private 
partnerships and cross-jurisdictional forest management 
techniques. But the costs of forest treatment and utilizing the 
woody material is high and represents a major challenge. In my 
view, this represents an emergency. It requires immediate 
action and more careful land management.
    In the short term, the top priority needs to be the removal 
of hazard trees and ensuring that sufficient fire suppression 
resources are available when a fire does occur. The long-term 
response should be an emphasis on producing a future forest 
that contains greater age and species diversity and is more 
resilient.
    Unfortunately, resources are limited. That is why myself 
and Representative Scanlan are pleased that Chairman Udall and 
Senator Risch have introduced the National Forest Insect and 
Disease Emergency Act of 2009. Let me explain how these 
provisions would help Colorado's emergency situation.
    No. 1, the bill would designate insect and disease 
emergency areas. In Colorado, the Forest Service has identified 
15 counties that are experiencing significant mortality from 
the bark beetles. Throughout the West, the Forest Service has 
identified 66 counties and similar levels of mortality that 
present a serious risk of fire of hazard trees.
    No. 2, the bill prioritizes treatments in these emergency 
areas to reduce threats from dead trees and promote forest 
health. In the area in Colorado that I represent, which would 
also be designated as emergency areas, this would provide 
significant assistance to protect communities from fire and 
other threats I have mentioned.
    No. 3, this bill would benefit Colorado by the use of 
Biomass Crop Assistance Program funds to help assist with the 
collection, harvest, storage, and transportation of biomass 
material.
    No. 4, this bill would benefit Colorado by utilizing the 
streamlined national environmental policy provisions within the 
Healthy Forests Restoration Act for treatment projects in 
emergency areas.
    No. 5, this bill would benefit Colorado by permanently 
authorizing the good neighbor authority for all western States. 
Many communities in my region are working cooperatively to 
reduce the threats of non-Federal public lands, but the 
provision would also help make this work for non-Federal land 
effective.
    No. 6, this bill would permanently authorize stewardship 
contracting. There are many projects in Colorado that would 
benefit from this innovative technique.
    Finally, this bill would not diminish or affect the right 
of private property owners. Such concerns are prevalent in the 
West, and this bill would make sure that private property 
rights are protected.
    These provisions would provide tangible and important 
assistance to reduce the emergency threat of massive wildfires 
and help promote a healthier, more sustainable forest. We in 
Colorado, like many other western States, are doing our part at 
the State and local level to help, but we need the assistance 
of this bill to augment these efforts and make them effective.
    [The prepared statement of Mr. Gibbs follows:]
 Prepared Statement of Hon. Dan Gibbs, Colorado State Senator, Senate 
                         District 16, Denver CO
    Thank you Chairman Wyden, Ranking Member Barrasso, members of the 
committee. It is a great honor to come before you today. My name is Dan 
Gibbs, I'm a Colorado State Senator. I have with me Colorado State 
Representative Christine Scanlan, who is a long-time resident of Summit 
County Colorado and has worked hard to help Western lands and 
communities respond to forest health issues.
    Over the last ten years, we've witnessed a transformation of our 
forest in the counties we represent. In Grand County, which gives rise 
to the headwaters of the Colorado River--a source of water and life for 
major cities and many western states--most of the lodgepole pine trees 
are dead.
    The bark beetle epidemic is changing Colorado and the West. This 
transformation is immediately apparent to anyone spending time in the 
national forests. Visitors to our state often remark about the 
mountainsides of red trees, and we have to tell them it's because they 
are all dead.
    The Mountain Pine Beetle has already killed 2.9 million acres of 
trees in Colorado. Current estimates indicate that every lodgepole pine 
tree in the state will be dead within a decade. The vast swath of dead 
timber creates fire threats and danger from falling trees. These risks 
create concerns for communities throughout the west, such as drinking 
water, critical infrastructure, wildlife, tourism, and recreation.
    In response, local, state and federal agencies as well as private 
businesses have joined together to address the growing devastated areas 
and the threats that they present. For example, Colorado has adopted a 
number of innovative strategies, including the creation of public-
private partnerships and cross-jurisdictional forest management 
techniques. But the cost of forest treatment and utilizing the woody 
material is high and represents a major challenge.
    In our view this represents an emergency. It requires immediate 
action and more careful land management. In the short term, the top 
priority needs to be the removal of hazard trees, and ensuring that 
sufficient fire-suppression resources are available when a fire does 
occur. The long-term response should be an emphasis on producing a 
future forest that contains greater age and species diversity and is 
more resilient.
    Unfortunately resources are limited. That's why we are pleased that 
Sen. Udall and Sen. Risch have introduced the National Forest Insect 
and Disease Emergency Act of 2009.
    Let us explain how the provisions of this bill will help Colorado's 
emergency situation.
    First, the bill would designate Insect and Disease Emergency Areas. 
In Colorado, the Forest Service has identified 15 Counties that are 
experiencing significant mortality from bark beetles. Throughout the 
west, the Forest Service has identified 66 counties with similar levels 
of mortality that present a serious risk of fire and/or hazard trees.
    Second, the bill prioritizes treatments in these emergency areas to 
reduce threats from the dead trees and promote forest health. In the 
area of Colorado that we represent, which also would be in designated 
emergency areas, this would be of significant assistance to protect 
communities from fire and the other threats I have mentioned.
    Third, the bill authorizes the use of Biomass Crop Assistance 
Program funds to help to assist with the collection, harvest, storage, 
and transportation of biomass material. It also allows vegetation 
removed from these emergency areas on National Forest Service land to 
be eligible for the incentives as a renewable fuel.
    Fourth, the bill allows the use of the streamlined National 
Environmental Policy Act provisions of the Healthy Forests Restoration 
Act for treatment projects in emergency areas. In my region, this would 
significantly reduce the costs and delays in getting urgently needed 
projects underway and completed.
    Fifth, the bill would permanently authorize the ``Good Neighbor 
Authority'' for all western states. Many communities in my region are 
working cooperatively to reduce the threats on non-federal public 
lands. This provision would help make this work on non-federal land 
effective.
    Sixth, the bill would permanently authorize ``stewardship 
contracting.'' There are many projects in Colorado that would benefit 
from this innovative contracting option. As the bill makes these more 
effective, we can stretch limited resources and get more projects 
underway and completed.
    Finally, the bill would not diminish or affect the right of private 
property owners. Such concerns are prevalent in the west, and this bill 
makes sure that private property rights are protect.
    These provisions would provide tangible and important assistance to 
reduce the emergency threat of large-scale wildfires and help promote a 
healthier, more sustainable forest. We in Colorado, like many other 
western states, are doing our part at the state and local level to 
help. But we need the assistance of this bill to augment these efforts 
and make them effective.
                      the nature of the emergency
    Many dead tree stands pose grave threats to Colorado's growing 
mountain communities and vital assets. Today, 1 million Coloradans live 
in the wildland-urban interface, where homes are adjacent to grasslands 
or forest.
    In 2008, within the five-county epicenter of the infestation:

  <bullet> 12 incorporated municipalities were within impacted forest, 
        and another 11 adjacent to forest lands.
  <bullet> 28 incorporated municipalities that derive most of their 
        drinking water from sources that flow through dead and dying 
        forests.
  <bullet> 2,000 miles of roadways, including many sole evacuation 
        routes, jeopardized by dead trees.
  <bullet> 1,500 miles of hiking and biking trails spanning three 
        national forests that are in danger of closure this year.
  <bullet> 52 emergency communications sites at risk.
  <bullet> The Colorado River, which supplies seven western states and 
        major metropolitan areas including Denver, Las Vegas, Phoenix 
        and Southern California with fresh drinking water.
  <bullet> 633 miles of electrical transmission lines and 1,300 miles 
        of electrical distribution lines--including major lines that 
        feed power to the entire western United States--at-risk from 
        falling trees and fire.

    Tens of millions of people across the west depend on the 
electricity that travels across impacted lands, and most everyone in 
the country depends on the water that flows downstream from Colorado, 
and the food that water is used to grow. Let us make no mistake: the 
bark beetle epidemic poses an immediate threat to the United States' 
national security.
    The impact of a regional power and communications network failure 
resulting from fire would be catastrophic to the entire western United 
States. According to the TriState Generation and Transmission 
Association, if just one dead lodgepole collapses on the wrong 
transformer or power line, it could cause a fire that initiates an 
uncontrolled cascading power outage in Colorado and neighboring states.
    According to Colorado State Forester Jeff Jahnke, the bark beetle 
affects more than 100 miles of WAPA, Tristate, Platte River Power 
Authority and Xcel transmission lines and an uncalculated number of 
smaller distribution lines. Electricity generation in western Colorado 
must cross many high-elevation areas to serve Front Range energy 
demands, and high-voltage transmission lines can be forced out of 
service by smoke or damaged from the extreme heat of wildfires. 
Shutting down transmission lines can threaten power in Denver and other 
Front Range communities, areas throughout Colorado, and neighboring 
states. More than 500 miles of high voltage transmission corridors--
WAPA has a over 350 in USFS Region 2 being addressed in the joint EIS 
Xcel and Tristate have at least another 150--in both Colorado and 
southern Wyoming can be affected. And the number of miles of lower 
voltage distribution lines serving Colorado mountain communities is 
even greater. A cascading power outage would, at the very least, cost 
billions of dollars to correct.
    The threat to our water is equally significant. The Colorado 
River's headwaters are located in Colorado, and an estimated 75 percent 
of the Colorado River's total flow originates in the state. The river's 
tributaries and transmountain diversions--which cut through thousands 
of bark beetle-infested areas--serve nearly two million people in 
Colorado, and tens of millions across the west. Access to the river, 
which provides millions of acre feet of fresh water annually for 
agriculture, recreation and drinking in 13 western states, could be 
crippled by a severe wildfire stemming from Colorado's tinder-dry 
lodgepoles. If the Colorado River became overburdened with refuse from 
a fire, the cost to the upper and lower basin states' recreation 
economies, and the country's agricultural system, is incalculable.
    A fire originating from beetle killed forests would likely burn 
incredibly hot, increasing the potential for scorched earth. In turn, 
forest regeneration would take longer due to the destruction of organic 
matter, increased erosion and flood, and debris flows into our fresh 
water supplies--including the Colorado River--would greatly expand. 
This type of devastation is not unknown: the Hayman Fire, which burned 
more than 138,000 acres along the Front Range in 2002 caused millions 
of dollars in damage to Denver's water supply in particular, and 
Colorado's more generally. Indeed, cleanup efforts from the Hayman Fire 
requiring ``substantial expenditures'' continue to this day, according 
to the utility Denver Water.
    Moreover, the specter of danger posed to the west's fresh water 
supplies is far greater today than in 2002 when the Hayman Fire 
occurred due to the rise in dry and dead forestlands (2.2 million 
acres).
    Additionally, with expanded urbanization comes an unprecedented 
risk to people living in both rural and urban settings. Local 
communities also face significant economic concerns, as the loss of 
Colorado's scenic landscapes and injury to the state's world-class ski 
resorts could eventually cause a decrease in all-important tourism 
dollars.
    Put plainly, the bark beetle epidemic poses a very real threat to 
Colorado's local communities and economies, but also national food and 
water supplies, as well as our national security.
                            local solutions
    Colorado lawmakers are committed to fighting the fire threat and 
restoring our forests. However, the need has simply outpaced our 
financial resources.
    Likewise, expanded funding over the past two fiscal years has 
improved our ability to prevent fires before they occur, and suppress 
fires when they happen. But far more is needed to fulfill our 
priorities.
    Community strategies for living within disturbance-driven 
ecosystems such as the lodgepole pine forests of northern Colorado must 
address the reliability and long-term protection of assets critical to 
our way of life. Essentially, in such environments policy makers are 
required to become more flexible and innovative. At the state level, we 
have undertaken vigorous efforts to mitigate the threat with a number 
of unique collaborations between state and local government and private 
industry.
    Our creativity stems from necessity; Colorado possesses very 
limited resources to apply toward mitigating the infestation. As such, 
we have focused on passing enabling legislation to empower communities 
to write comprehensive and integrated fire preparedness plans; to 
improve information sharing between state, federal and local agencies; 
and to create incentives for private businesses that deforest impacted 
areas and utilize those resources.
    As the scale of the infestation has clarified, policymakers have 
been able to strategically target what were once disparate legislative 
efforts. For example, this past legislative session, we passed an 
aggressive agenda that originated in a special interim committee. The 
integrated legislative package not only emphasized mitigating the 
threat, but provided new solutions to assist local and federal 
officials' partner more effectively, and to encourage private industry 
to take advantage of economic growth opportunities that may exist.
    The capstone of the General Assembly's legislative efforts was a 
sweeping piece of legislation making $3 million available for a series 
of initiatives to combat the epidemic. Moneys from the legislation will 
assist mountain and Front Range communities plan for forest health 
management activities by: addressing the population centers along the 
wildland-urban interface; expanding protection for Colorado's 
watersheds, local communities and vital infrastructure; and providing 
grants for market-based solutions to reduce the overall threat posed by 
wildfire.
    This new funding is critical, as we have demonstrated that even 
small state investments pay large dividends. Each state dollar receives 
a matching amount, so with just $1 million in state funding, we've been 
able to treat $5--$6 million in forest land.
    This year, additional efforts included the following:

  <bullet> We expanded the incentives to utilize woody biomass for 
        energy and other purposes.
  <bullet> We directed the Colorado State Forest Service to develop 
        state standards for certified and uncertified prescribed 
        burners.
  <bullet> We gave Forest Health Improvement Districts the flexibility 
        to allow money generated to go toward wildfire mitigation.

    Last year:

  <bullet> We provided a 5-year exemption from business personal 
        property taxes for qualified businesses that remove trees 
        killed by bark beetles when they assist with forest restoration 
        efforts on the affected land after the beetle-killed timber is 
        removed. Also creates a fund to provide start-up money for new 
        Colorado businesses that process and sell beetle-killed timber 
        and products.
  <bullet> We expanded the ability of counties to raise money to fight 
        fires. Specifically, the bill removes the limit on property 
        taxes that a county can collect--with voter approval--for 
        forest fire fighting.
  <bullet> We required the state forester to establish guidelines for 
        Community Wildfire Protection Plans with input from state, 
        local and federal government officials, and other interested 
        parties.
  <bullet> We streamlined and clarified the roles of state and local 
        emergency personnel when fires occur, specifically allowing 
        sheriffs to develop and update wildfire preparedness plans, and 
        to specify what information should be included in a plan to be 
        effective.
                         federal collaboration
    There are 22.6 million acres of forestland in Colorado. Of this 
acreage, nearly 70 percent is federally owned, including 49 percent 
managed by the U.S. Forest Service. Private landowners oversee an 
additional 28 percent. Fire knows no boundaries, so fire management 
actions must cross-jurisdictional to be effective.
    Areas where expanded partnerships may flourish also exist, but 
state and local officials must have the appropriate authority to 
venture onto private land when necessary to squelch wild fires. 
Likewise, and within reason, private landowners must be empowered to 
protect their private land when it abuts state or federal property.
    Finally, while the epidemic poses a serious challenge to Colorado, 
it also poses a unique economic development opportunity. The blue-
tinged wood from beetle-killed timber creates a desirable aesthetic 
effect. If harvested early enough, wood from beetle-killed trees may be 
used for a variety of wood products, including furniture. The timber 
can also be ground into pellets that can provide a cheap, efficient, 
and green source of energy. Biomass can be used for both large-scale 
and small-scale power production.
    Colorado has passed various laws creating incentives to help foster 
this industry. However, we believe that local timber harvesting 
contractors and wood processing businesses could still better help with 
management solutions if they had a long term guarantee of a viable 
market for their products. Additionally, these huge swaths of timber 
will only be viable for a discrete period of time, as nature and rot 
eventually take their toll on the integrity of the wood.
    We would encourage Congress to create a permanent and viable market 
by continuing and expanding federal incentives for woody biomass, and 
creating a new incentive for other beetle-killed wood products.
                               conclusion
    Colorado has been doing our part in this crisis, and we stand ready 
to do more. We have undertaken vigorous efforts to mitigate the threat 
with limited resources through a number of unique collaborations 
between state and local government and private industry. Still, we are 
not able to address the infestation adequately without further help, 
and so we applaud Senators Udall and Risch in their effort to reduce 
the risk of catastrophic wildfire in America's West with the National 
Forest Insect and Disease Emergency Act of 2009.

    Senator Udall. Thank you, Senator Gibbs.
    I want to turn to Senator Risch in 10 seconds. But I wanted 
to point out to my colleagues up here that not only is Senator 
Gibbs a committed sportsman and a firefighter, but he also 
chairs a full committee in the Colorado State Senate that is 
the equivalent of the House of Representatives Transportation 
Infrastructure Committee.
    So as former State legislators, we know what can happen 
when you serve in one of those bodies. So, Senator Risch, the 
floor is yours.
    Senator Risch. That was very informative, and I think that 
probably you point out the counterintuitive thought that, 
indeed, the issue of whether fire is going to burn or not is 
going to be the local climate conditions at the moment.
    I guess I do take a little issue as far as--and I don't 
know whether you went this far, but it almost sounded like you 
said, well, it doesn't make any difference if the trees are 
dead or if they are alive. I probably would beg to differ with 
you if that was the conclusion that the studies that you cited 
reached.
    I think most of us have been in a forest early afternoon or 
late afternoon when one of these things get going and come 
through like a freight train, you know, if they get a little 
wind behind them. It is hard for me to believe that a dead 
stand, particularly if it has still got needles on it, won't 
burn faster and hotter than a live stand will.
    Now I can't help but throw in with the proposition that the 
whole thing is going to depend upon what the conditions are at 
the moment. But given conditions exactly the same, it is hard 
for me to believe that a dead stand isn't going to react more 
violently and more quickly than a live stand. I would like your 
thoughts.
    Mr. Kulakowski. Thank you for that question.
    It does seem counterintuitive, and I want to stress that 
these conclusions are not only those reached by my own research 
group, but by several independent research groups at numerous 
different universities.
    One thing that may help with this is I am not saying at all 
that stands made up of dead trees aren't susceptible to fires 
that are very large, very fast moving, and very severe. But 
what I am saying is that when we look at a stand of green 
trees, especially if that stand is lodgepole pine or spruce, 
those forests tend to be very dense. Under drought conditions, 
it is very probable that if a wildfire starts, it is going to 
move very quickly, be very severe, and be very large.
    Actually, as counterintuitive as it may seem, the studies 
that have looked at what happens when fires actually do burn in 
forests that have even red needles on them, the conclusions are 
that, indeed, the fires are no more extensive, no more severe 
than in live forests.
    A couple of examples. In northern Colorado, we had an 
outbreak of spruce beetle that began in the late 1990s. In 
2002, there was an extreme drought, and there were extensive 
forest fires across northern Colorado. Those fires included 
burned areas that were affected by bark beetle outbreaks. When 
we analyzed how extensive those fires were and how severe the 
fires were, we could not find any influence of the ongoing 
outbreaks.
    Senator Risch. It is interesting. Does that include the 
time of the year also? Because it seems to me, and admittedly, 
most fires get going in July or August, but it would seem to 
me, particularly in the early part of the year where you had a 
green forest--and again, it is hard to compare because it is 
finding a site exactly like another site. The only difference 
being a dead forest and a live forest would be difficult.
    But it would seem to me early in the year where the trees 
had a lot of moisture in them in a live forest, that there 
would be at least some measurable significant difference 
between how a fire would burn under those conditions. Again, 
admittedly, based on local conditions. Am I right, or am I 
wrong on that?
    Mr. Kulakowski. Yes. That is a difficult question to 
answer. The studies that I referred to are based on a couple of 
different methods. One is when wildfires have actually occurred 
in beetle-affected forests, scientists have gone in and 
analyzed what has actually happened. As you can imagine, we 
don't have the benefit of working with this in a laboratory to 
test exactly those types of questions. The other set of studies 
have used modeling to predict likely fire behavior in beetle-
affected stands.
    There was recently a study out of the University of 
Wisconsin in Madison, just came out this past year, that 
modeled fire behavior in beetle-affected stands. The 
conclusions of the study were very interesting because this 
study found that 2 things happen immediately following bark 
beetle outbreaks.
    One is that the needles turn dry and red, which is what we 
all notice. But the second thing that happens almost at the 
same time is canopy bulk density is reduced, meaning the canopy 
thins out. There is less material in the canopy to burn even in 
the year or 2 immediately after that outbreak. Under those 
conditions, it is actually the thinning of the canopy that is 
brought about by the bark beetle outbreak that is more 
important to how wildfires spread than the foliar moisture 
content.
    Senator Risch. Interesting. Thank you.
    Senator Udall. Thank you, Senator Risch.
    I continue to probe what I think are counterintuitive 
conclusions that many scientists have drawn, and in that 
spirit, I want to follow up with what Senator Risch was asking 
you.
    At the end of your testimony, you conclude by saying that 
the premise of this bill rests on the increased fire threats 
posed by the dead trees. I would like to point out that I think 
in Senator Risch's and my minds, it rests on the premise that 
there is an increased potential for catastrophic damage from 
fires that may occur, and I want to make that clarification.
    So given that premise, even if the number of fires remain 
the same, say, 100 on the Medicine Bow, for example, has the 
bark beetle outbreak increased the probability of those 100 
fires being hotter, larger, and more potentially 
catastrophically damaging to forests, soils, watersheds, and 
communities? I want to underline those other elements here--
soils, watersheds, and communities. We have talked a lot about 
the forest itself.
    A follow-on question. If so, wouldn't fuels treatment 
reduce that severity? Doctor, I hope I didn't throw so many 
questions at you, it made it more difficult.
    Mr. Kulakowski. OK. I will do my best to answer that 
question.
    Most of the research has examined what happens to fire 
risks in the years and decades immediately following outbreaks, 
and that body of scientific work has concluded that neither 
probability of wildfire nor severity of wildfire are increased 
as a result of bark beetle outbreaks.
    Again, we can talk about this situation where we have the 
red needles on the trees, and we have just discussed that 
briefly. But then when we think about what happens after that? 
What happens after the needles fall off, the twigs start 
falling off? Eventually, we have a situation that is analogous 
to trying to set fire to a row of telephone poles. There is 
simply nothing in the canopy to carry that wildfire.
    So the one thing that I would offer is a little bit 
uncertain is what happens several decades into the future when 
all of the dead trees fall? So if we have an increased surface 
fuel load, what will that mean for the severity of fire?
    Senator Udall. I was going to follow up, but I don't want 
to cut you off.
    Mr. Kulakowski. OK.
    Senator Udall. OK.
    Mr. Kulakowski. Yes, and that part is, I think, least 
certain. There have been fewest scientific inquiries into that 
particular question.
    Theoretically, we could speculate that the intensity of 
that fire could increase as a result of there being more dead 
fallen trees. But then the questions we have to ask are what is 
the likelihood of those fires reaching the canopy? As you know, 
living in Colorado, lodgepole pine forests tend to not have 
very much undergrowth. They tend to be fairly open in the 
understory, and the canopies, the green parts of the canopies 
tend to be high in the trees.
    The result of that is that fires that spread on the forest 
floor tend to have a hard time reaching the canopy, making that 
jump up to the canopy. So an increased intensity of surface 
fire doesn't necessarily translate to the probability of ground 
fire.
    Then, if I can, you had a multipart question. So I think 
the last part of it is you asked what kind of mitigation 
efforts.
    Senator Udall. Wouldn't the fuels treatment perhaps reduce 
that severity effect?
    Mr. Kulakowski. That is right. Would fuel treatments reduce 
the severity of those fires? Here again the thing that is 
important to consider, I think, is that not all fuel treatments 
are the same. It is important to remember that traditional 
timber harvest operations are not intended as fire hazard 
mitigation operations. Instead, the built-in goal is to produce 
timber and wood fiber.
    There have been several studies in recent years that have 
looked at the efficacy of timber extraction in reducing 
subsequent fire risk. There was one study in Oregon that there 
was one initial fire that came through, and then there was a 
timber harvest operation. A scientific study into that found 
that regeneration of the forest actually decreased following 
the salvage operations, and the risk of subsequent fire also 
increased.
    In Colorado, we had a major forest fire, the Hayman fire. 
There, similarly, when a group of scientists examined what 
influenced the extent and severity of that fire, again, 
unfortunately, the group of scientists concluded that timber 
harvests prior to the fire actually increased the severity of 
the fire.
    So I am not saying it is not--I am not saying that it is 
impossible that we can somehow reduce the risk of high-
intensity surface fire. But I think the scientific work that is 
out there on the subject would conclude that the way that we 
approach timber extraction, especially following disturbance, 
isn't very effective at that.
    Senator Udall. There are certainly those who would suggest 
there is a difference between timber harvesting and fuel 
reduction and that those are different ways to think about the 
activities that take place in those areas at risk.
    I have seen some scientific studies that show that once the 
dead trees fall to the ground, to pick up on one of the points 
you made, that all of that material creates an increased risk 
of hot, dangerous fires. We are going to get this jackstrawed 
structure. Specifically, I have seen one report whose lead 
author is Michael Jenkins, called ``Bark Beetles, Fuels, Fires, 
and Implications for Forest Management in the Intermountain 
West''--it is dated 2008--that makes this point. In other 
words, makes the point that this material creates an increased 
risk of hot, dangerous fires.
    Do you believe it would be prudent to address this aspect 
of the epidemic, especially around and near homes, communities, 
infrastructure, and watersheds, which is really where Senator 
Risch and I have focused our efforts and why this bill, we 
believe, is so important to protect that vital infrastructure.
    Mr. Kulakowski. Yes. I think the most important part of 
this bill, Senator Udall, is the concentration around homes and 
around communities and around infrastructure. I think here, 
even setting aside the question of the effect of bark beetle 
outbreaks, the reality is, is that in lodgepole pine forests, 
in spruce forests across the Rocky Mountain region, the risk of 
wildfire is tied to drought, and we have entered a period of 
prolonged drought, which means that the risk of wildfire is 
going to be high to those homes and communities, regardless of 
bark beetle outbreak.
    So I think absolutely, yes, it makes sense to prioritize 
treatments around homes, around communities, and around 
infrastructure. But I would urge the committee to consider that 
those fuel treatments should be conducted regardless of the 
effect of bark beetle outbreaks.
    Senator Udall. I think Senator Risch and I will continue to 
probe your summaries and your conclusions.
    Senator Risch. Let me follow up. You know, I am somewhat 
familiar with how long a tree will stand after a fire or, for 
that matter, after a disease outbreak in red fir, Douglas fir. 
But I am not in pine. Is there a study on how long the tree 
will stand after it has been killed? A range, obviously. Not an 
exact, but a range.
    Mr. Kulakowski. Yes. In terms of lodgepole pine, I think 
the estimates we heard earlier in the previous panel were 
accurate, that the rate of tree fall is very rapid, and I 
wouldn't doubt the estimates put forth earlier.
    Senator Risch. It would be a shorter period of time than 
red fir, I would assume?
    Mr. Kulakowski. That I don't know.
    Senator Risch. Or cedar. Thank you.
    Senator Udall. Thanks, Senator Risch.
    I will just note for the record, Dr. Kulakowski, we are 
going to continue to have this conversation that in the Hayman 
Fire, which we are very familiar with in Colorado. It was 
devastating. It was also part of a drought cycle. There had 
been a prescribed fire called the Polhemus prescribed burn. You 
may be familiar with it.
    When the Hayman fire reached that prescribed burn area, it 
dropped to the ground almost immediately and was one of the 
reasons that fire ultimately died out after creating enormous 
damage.
    Senator Risch. Mr. Chairman, to follow up on that, in 
Idaho, when we have a fire, and we always do in the summertime. 
The fire boss, when you go into the tent there, will have a map 
of the previous fires and where they lie, what year they were, 
and all that sort of thing because the fire burns very 
differently when it hits an area that has previously either 
been harvested or been burned previously.
    The rate is very much different, and the fire scientists 
that are on the fire will advise based on when that last fire 
took place.
    Senator Udall. I am tempted to get into a discussion about 
fuel load reduction versus the use of prescribed burns, but we 
may have to direct those questions to you.
    I know Senator Gibbs has to catch an airplane, and I know I 
have gone way over my time. I know Senator Wyden is eager to 
ask a question. But if I could just ask Senator Gibbs 2 quick 
questions, and then I know we are going to excuse you and turn 
you loose.
    Christine--Representative Scanlan and Senator Gibbs 
actually have to be formally excused from being in the 
legislature today. I don't know if that is how----
    Senator Risch. You can write them a note.
    [Laughter.]
    Senator Udall. No, it comes from the speaker of the State 
house or the president of the State senate. I have no power in 
that regard.
    Look, you talked about how the State has been engaged, and 
you mentioned how the bill could assist in the State's efforts. 
In your view, what threats are the highest priorities that need 
to be addressed in the immediate future and over the long term?
    Mr. Gibbs. Yes. Thank you, Mr. Chairman.
    Not only as a legislator, but also as a wildland 
firefighter, my concerns overall are life, property, and 
critical infrastructure for the areas I represent. You know, I 
would say I think the priority should be in areas where people 
live.
    In Colorado, we have about 1 million Coloradoans that live 
within the wildland-urban interface, where the homes meet the 
forested areas. I represent communities that are heavily 
dependent on tourism. So I think that we need to look at the 
campgrounds, for example. We have had some that have closed 
down.
    We heard from Under Secretary Harris Sherman earlier that 
he reflected that every day there could be 100,000 trees that 
are coming down. When you represent areas that are heavily 
dependent on tourism, and I have nine ski resorts in my 
district, that is problematic, to say the least.
    I feel like the folks I represent want action right now, 
and I really think that, Chairman, your bill and Senator 
Risch's bill would really help achieve what we are missing at 
the Federal level, and that is really a long-term approach. I 
think making stewardship contracts permanent is very positive.
    I represent areas where folks literally live right on the 
boundaries of U.S. Forest Service lands. So making good 
neighbor authorities permanent is crucial as well. So you can 
have that agreement with a land owner, as well as working with 
a State forest service or a Federal Forest Service to really be 
proactive in taking care of defensible space. I think that 
should be a major priority.
    So, those are some components. But I think really your 
bills will be really positive reflecting that.
    Senator Udall. Senator Gibbs, you imply and you actually 
were explicit in mentioning the private sector can play an 
important role in responding to this as well. Did you want to 
make any further comments about how the private sector might 
help us respond?
    Mr. Gibbs. Most definitely. I mean, we need the private 
sector. In Colorado, we are losing our timber mills. In my 
district, we have Confluence Energy, which makes wood pellets. 
I mean, this is an amazing opportunity to turn a negative into 
a positive with creating biomass and actually creating energy, 
homegrown energy.
    But what is unfortunate is Confluence Energy is shut down 
right now. We also have Rocky Mountain Pellet Company, which is 
up in Walden in Jackson County, which is shut down right now. 
The cost of shipping, especially lodgepole pine where the value 
is minimal because we are really looking at small-diameter tree 
stands, but the structural integrity is there if harvested 
within about a 5- to 10-year timeframe.
    There could be great opportunities. We could even make 
cellulosic ethanol out of bark beetle kill. So, I do think 
there are great opportunities. But I mean, I am here before you 
today. But in 5 or 10 years, if I come back, and just imagine 
2.9 or 3 million acres throughout the Rocky Mountain West, and 
those trees are coming down. You will have your constituents 
banging on your door, urging for emergency action right away. 
In my opinion, there will be fires in the future.
    Depending on if those needles are still intact on those 
lodgepole pine trees, the fire severity may be different, and 
it may be easier to start a fire and may be harder once the 
needles come down. But I really think that we are dealing with 
an emergency situation right now. Not tomorrow, but right now. 
But I am really hopeful that we can help turn a negative into a 
positive with potentially creating jobs out of something really 
negative right now.
    Senator Udall. Thank you, Senator Gibbs.
    I want to thank the chairman for being so gracious and 
giving me the opportunity to chair the committee, to sit here 
patiently while Senator Risch and I really dove into this 
important topic, which also does affect the State of Oregon.
    Senator Gibbs, I know you have got to catch a plane. I want 
to excuse you. Dr. Kulakowski, hopefully, you can stay because 
I think Senator Wyden may well have some questions.
    Again, thank you to the other 2 panelists for your 
patience.
    Mr. Chairman.
    Senator Wyden. [presiding]. OK. Thank you. Look forward to 
working with you and our colleague from Idaho on this important 
measure.
    Forrest Reinhardt, let us welcome you. You have been an 
integral voice of Young Life's Washington Family Ranch for a 
long, long time, working on public lands management. You have 
put an extraordinary amount of time into work in John Day, with 
the stakeholders on our legislation, S. 2963.
    To you, Mr. Conrad, welcome. Thank you both for your 
patience. Why don't we say we will put your prepared remarks in 
the record in their entirety. I apologize for the hectic nature 
of this afternoon. So we will put your remarks into the record 
in their entirety, Mr. Reinhardt, and for you, Mr. Conrad.
    I think for both of the witnesses from Colorado, we can 
excuse you both at this time. So we will consider you liberated 
as well, and we thank you both.
    Mr. Reinhardt, go ahead.

STATEMENT OF FORREST REINHARDT, PRESIDENT, VENTURE BEYOND, COTO 
                          DE CAZA, CA

    Mr. Reinhardt. Chairman Wyden and members of the 
subcommittee, thank you for allowing us to submit testimony 
regarding S. 2963 on behalf of Young Life, Derby-Smith 
Partners, and the Oregon Natural Desert Association.
    Since the testimony has been submitted as written, I will 
just address one small subset in my oral testimony. You did a 
wonderful job of eloquently and briefly summarizing the 
benefits of this multifaceted proposal.
    I wanted to note that we strongly support the proposal's 
equal-value land exchange between the BLM and the 3 neighboring 
land owners outlined in section 4 of the act. This 
consolidation will enhance the BLM's ability to effectively 
manage the area as wilderness and avoid conflicts between 
public and private land use.
    It provides access to over 7,000 acres of the BLM lands 
previously inaccessible to the public, establishes new 
trailheads for camping, hiking, horseback riding, and secures 
access to backcountry campsites on nearly 4 miles of the John 
Day Wild and Scenic River.
    Despite our strong support, we are concerned that the 
language in section 4 of the bill might be implemented in a way 
that does not meet the intent of the diverse stakeholders who 
have forged this effort. Specifically, there are 4 parcels 
adjacent to the Cathedral Rock area that are proposed for 
exchange from BLM to Young Life and Derby-Smith Partners as 
part of the equal-value exchanges.
    It is our concern that the BLM may ultimately choose to 
retain and develop the parcels in a way that compromises the 
private land use instead of solving current problems of private 
lands trespass as envisioned in the act, which simply 
exacerbate the current problems.
    As such, we respectfully request that you include language 
in section 4 of the bill that prioritizes the conveyance of 
these 4 parcels by the Secretary upon completion of the 
exchange. We would welcome the opportunity to work with your 
office on this important issue. It is our hope that such 
language will ensure that the implementation of the act is 
consistent with the intent of the various supporters.
    Chairman Wyden, thank you again for allowing me to be here 
to testify and being invited. We strongly support the 
legislation. We look forward to working with your staff and 
committee to finalize the bill that will consolidate land 
management and permanently protect Cathedral Rock and Horse 
Heaven as wilderness.
    [The prepared statement of Mr. Reinhardt follows:]
  Prepared Statement of Forrest Reinhardt, President, Venture Beyond, 
                            Coto de Caza, CA
    Chairman Wyden and Members of the Subcommittee, thank you for the 
opportunity to submit testimony regarding Senate Bill 2963 on behalf of 
Young Life, Derby-Smith Partners and the Oregon Natural Desert 
Association also known as ONDA. ONDA is a 1,400 member non-profit 
organization whose mission is to protect, defend and restore Oregon's 
high desert. Young Life is one of the largest Christian youth 
organizations in the United States and serves tens of thousands of 
children every year. Young Life and Derby-Smith Partners both own lands 
immediately adjacent to the proposed Wilderness areas. We are thankful 
for the support of Senators Wyden and Merkley in developing legislation 
to permanently protect Cathedral Rock and Horse Heaven as federally-
designated wilderness areas.
    Cathedral Rock and Horse Heaven are natural treasures that merit 
permanent protection as Wilderness. Located on the John Day Wild and 
Scenic River, the proposed Cathedral Rock and Horse Heaven wilderness 
areas are a tapestry of rolling hills, providing spectacular vistas of 
the river and the surrounding landscape. This unique wild area offers a 
profusion of desert wildflowers in the spring, along with recreational 
opportunities for boaters, hikers, horseback riders, hunters, 
botanists, and other outdoor enthusiasts. The area also provides 
valuable habitat for a variety of wildlife including Rocky Mountain 
elk, cougars, mule deer, bobcats, mountain bluebirds, prairie falcons 
and golden eagles.
    The fragmentation of public and private lands is an enduring 
problem in the John Day basin. Because land ownership often looks like 
a checkerboard, it is not clear when you're on the ground where public 
land ends and private land begins. This creates confusion about access 
and inevitably results in management conflicts such as trespass and 
illegal hunting on private lands.
    The proposal considered today is the work of diverse interests 
including neighboring landowners, county government officials, 
conservationists, and recreationists. As such the proposal accomplishes 
several important objectives including the: 1) permanent protection of 
Cathedral Rock and Horse Heaven as Wilderness, 2) consolidation of land 
ownership that will improve public and private land management, and 3) 
improved access to public lands.
    The land exchanges and proposed Wilderness boundaries of these 
areas were set up in a way that greatly expands public access while 
respecting the needs of neighboring private landowners. The adjacent 
landowners are willing to work with BLM staff to ensure they have the 
access that they need to administrate the areas, even if that means 
occasionally crossing through private lands. Due to the historic 
confusion created by the fragmented parcels, this does mean that one of 
the two areas, the nearly 8,000-acre Cathedral Rock area, will be 
accessed only via the John Day River. This is not a new concept in the 
region. All three wilderness study areas located downstream of 
Cathedral Rock, including Northpole Ridge, Thirtymile, and Lower John 
Day, are also exclusively accessed by the river. In fact, the greatest 
demand on public lands in the John Day basin is for recreational use on 
the river corridor. Thousands of boaters and anglers float this stretch 
of the river every year. The Cathedral Rock proposal will expand public 
ownership by over four miles along the John Day River and thus open up 
a dozen new river campsites to the public.
    At the same time, the nearby Horse Heaven proposed wilderness area 
consolidates over 8,000 acres in a way that will provide clearly-marked 
boundaries and two trailheads for parking and associated camping areas. 
This will create additional hiking and hunting opportunities and do so 
in a way that minimizes conflicts between public and private lands. It 
is the combination of the Horse Heaven and Cathedral Rock areas--one 
that features roaded access and another that features river access--
that makes this a winning proposal.
    We strongly support the proposed equal-value land exchanges between 
the BLM and three neighboring land owners outlined in Section 4 of the 
Act. This consolidation will enhance the BLM's ability to effectively 
manage the area as wilderness and avoid conflicts between public and 
private land use. It provides access to over 7,000 acres of BLM lands 
previously inaccessible to the public, establishes new trailheads for 
camping, hiking and horseback riding, and secures access to backcountry 
campsites on nearly four miles the John Day Wild and Scenic River.
    Despite our strong support, we are concerned that the language in 
Section 4 of the bill might be implemented in a way that does not meet 
the intent of the diverse stakeholders who have forged this effort. 
Specifically, there are four parcels adjacent to the Cathedral Rock 
area that are proposed for exchange from the BLM to Young Life and 
Derby-Smith Partners as part of the equal-value land exchanges. It is 
our concern that the BLM may ultimately choose to retain and develop 
the parcels in a way that compromises private land use and, instead of 
solving current problems of private lands trespass as envisioned in the 
Act, would simply exacerbate current problems. As such, we respectfully 
request that you include language in Section 4 of the bill that 
prioritizes the conveyance of these four parcels by the Secretary upon 
completion of the exchange. We would welcome the opportunity to work 
with your office on this important issue. It is our hope that such 
language will ensure that the implementation of the Act is consistent 
with the intent of the various supporters.
    It is important to note that as part of the exchange proposal, 
Young Life has agreed to conservation easements on any lands found to 
have cultural values. As part of a long-term plan to protect and 
preserve cultural resources, Young Life has agreed to sign a memorandum 
of understanding for the inventory of and access to cultural resources. 
The easement language has been prepared in collaboration with the 
Oregon State Historic Preservation Society and the Prineville District 
BLM. The Confederated Tribes of Warm Springs Reservation is the 
proposed easement grantee.
    We believe that this proposal represents the kind of solutions that 
are possible when diverse stakeholders come together to solve problems. 
You need look no further than the numbers to see the public benefits of 
this proposal. Prior to the exchange, the public can access 9,112 acres 
of their land via roads or the John Day River. Through this proposal, 
public access will be expanded to 16,484 acres. That nearly doubles the 
amount of public access in the area. Likewise, instead of the public 
having access to small chunks or narrow swaths of land that are not 
currently usable for activities such as hunting and hiking, the public 
will have access to two large blocks of land, each totaling several 
thousand acres. This is a win for Oregonians and we hope you will lend 
your support.
    Chairman Wyden, we thank you for introducing Senate Bill 2963. We 
strongly support the legislation and we look forward to working with 
your staff and the Committee to finalize a bill that will consolidate 
land management and permanently protect Cathedral Rock and Horse Heaven 
as Wilderness.
    That concludes my testimony. Thank you for your consideration of 
this bill.

    Senator Wyden. Thank you very much, and thank you for all 
your leadership with the Young Life effort. Very exciting. I 
will have some questions in a moment.
    Mr. Conrad, welcome. I know you have been an awfully 
patient soul this afternoon, and we thank you for it.

STATEMENT OF GREGORY E. CONRAD, EXECUTIVE DIRECTOR, INTERSTATE 
         MINING COMPACT COMMISSION (IMCC), HERNDON, VA

    Mr. Conrad. As a grandfather helping to raise 3 
grandchildren, I have learned that patience is a virtue.
    Senator Wyden. You are used to it. Very good.
    Mr. Conrad. Good afternoon.
    Thank you for the opportunity to appear here before the 
subcommittee to present our views on S. 2830. I am appearing 
today on both behalf of the Interstate Mining Compact 
Commission and the National Association of Abandoned Mine Land 
Programs. The 30 States and tribes represented by these 2 
organizations strongly support this important amendment to 
Title IV of the Surface Mining Control and Reclamation Act, 
otherwise known as the Abandoned Mine Lands program.
    In testimony we presented to the committee on July 14 of 
last year at a legislative hearing on reform of the 1872 mining 
law, we noted that, nationally, abandoned mine lands continue 
to have significant adverse effects on people and the 
environment. As State and tribal governments, we continue to 
aggressively pursue programs and partnerships to address hard 
rock AML problems through a variety of State and Federal 
funding sources.
    For States with active coal mining operations within their 
borders, the most consistent source of AML funding has been the 
title IV grants under the Surfacing Mining Act. Section 409 of 
the act allows States to use these grants at high-priority non-
coal AML sites, and that work is generally limited to 
safeguarding hazards to public safety, such as closure of mine 
openings.
    In December 2006, Congress amended title IV of the Surface 
Mining Act to, among other things, distribute certain AML funds 
to States in an amount equal to those previously allocated 
under SMCRA but never appropriated. However, while section 409 
was not changed or amended in any way, the Interior Department, 
through both a Solicitor's Opinion and Final Rule has now 
interpreted SMCRA to prohibit this enhanced funding from being 
used for non-coal projects.
    This is a significant blow to States such as New Mexico, 
Utah, and Colorado that have previously used SMCRA AML funds to 
address many of the more serious hard rock AML problems. At 
stake for these States is about $9 million annually, and 
without access to these funds, New Mexico will have to forego 
an average of 200 non-coal AML closures each year. Colorado 
will have to postpone some 350 closures, and Utah will have to 
shelve upwards of 500 closures.
    As was noted in Chairman Bingaman's remarks introducing S. 
2830, the bill would remedy the Interior Department's 
unfortunate interpretation of the 2006 amendments, and as such, 
we strongly support the bill. That interpretation not only 
disregards the fact that section 409 was left unamended by 
Congress, it also is inconsistent with assurances repeatedly 
given to the States and tribes by OSM during the consideration 
of the legislation that non-coal work could continue to be 
undertaken with these AML funds.
    The interpretation would also have the unacceptable result 
of requiring States and tribes to devote funds to lower-
priority coal sites while leaving dangerous non-coal sites 
unaddressed.
    OSM has argued that prior balance replacement funds are 
fundamentally distinct from section 402(g) moneys distributed 
from the fund. This, according to OSM, is due to the fact that 
these prior balance replacement funds are paid from the U.S. 
Treasury and have not been allocated under section 402(g)(1).
    This is a distinction of convenience and has no basis in 
reason or law. The fact is these funds were originally 
allocated under section 402(g)(1), are due and owing pursuant 
to the operation of that section, and did not change their 
color simply because they are paid from a different source. 
Without the operation of section 402(g)(1) in the first place, 
there would be no unappropriated State and tribal share 
balances.
    Furthermore, there was never an intent to condition or 
restrict the previously approved mechanisms and procedures that 
States and tribes were using to apply these moneys to high-
priority coal and non-coal problems. To change the rules based 
on such a clever invention is inappropriate and inconsistent 
with law.
    The urgency of advancing this legislation has been 
heightened, Mr. Chairman, by statements in OSM's proposed 
budget for fiscal year 2011. Therein, OSM is proposing to 
further restrict the ability of States to expend AML funds on 
non-coal reclamation projects. This will apparently occur as 
part of a legislative proposal that the administration intends 
to aggressively pursue in the 111th Congress.
    We are uncertain exactly what OSM has in mind with respect 
to this aspect of the legislative proposal, but we suspect it 
has to do with clarifying the very issue that is the subject of 
S. 2830. For all we know, it could be even further reaching.
    For the same reasons that Congress needs to clarify this 
misinterpretation for non-coal AML work, it should also do so 
for the acid mine drainage, or AMD, set-aside program. Section 
402(g)(6) has, since 1990, allowed a State or tribe to set 
aside a portion of its AML grant in a special AMD abatement 
account to address this pervasive problem.
    We therefore urge the committee to amend S. 2830 to correct 
the current policy interpretation by Interior and allow the use 
of unappropriated State and tribal share balances for the AMD 
set-aside.
    In support of our position on S. 2830, we also request that 
you include for the record the attached resolution adopted by 
the western Governors that urges the continued use of funds 
collected or distributed under title IV of SMCRA for the 
reclamation of high-priority, hard rock abandoned mines.
    Thanks for the opportunity to submit this statement today. 
We look forward to working with the subcommittee to further 
this legislation.
    [The prepared statement of Mr. Conrad follows:]
Prepared Statement of Gregory E. Conrad, Executive Director, Interstate 
             Mining Compact Commission (IMCC), Herndon, VA
    My name is Gregory E. Conrad and I serve as Executive Director of 
the Interstate Mining Compact Commission (IMCC). I appreciate the 
opportunity to appear before the Subcommittee today to present our 
views on S. 2830, a bill to amend the Surface Mining Control and 
Reclamation Act of 1977 (SMCRA) to clarify that uncertified States and 
Indian tribes have the authority to use certain payments for certain 
noncoal reclamation projects. I am also appearing today on behalf of 
the National Association of Abandoned Mine Land Programs. Both 
organizations strongly support this critical amendment to SMCRA.
    The Interstate Mining Compact Commission (IMCC) is an organization 
of 24 states located throughout the country that together produce some 
95% of the Nation's coal, as well as important hardrock and other 
noncoal minerals. Each IMCC member state has active mining operations 
as well as numerous abandoned mine lands within its borders and is 
responsible for regulating those operations and addressing mining-
related environmental issues, including the reclamation of abandoned 
mines. Over the years, IMCC has worked with the states and others to 
identify the nature and scope of the abandoned mine land problem, along 
with potential remediation options.
    The NAAMLP is a tax-exempt organization consisting of 30 states and 
Indian tribes with a history of coal mining and coal mine related 
hazards. These states and tribes are responsible for 99.5% of the 
Nation's coal production. All of the states and tribes within the 
NAAMLP administer abandoned mine land (AML) reclamation programs funded 
and overseen by the Office of Surface Mining (OSM) pursuant to Title IV 
of the Surface Mining Control and Reclamation Act (SMCRA, P.L. 95-87).
    In testimony we presented to the Committee on July 14th of last 
year at a legislative hearing on reform of the 1872 Mining Law, we 
noted that nationally, abandoned mine lands continue to have 
significant adverse effects on the environment. Some of the types of 
environmental impacts that occur at AML sites include subsidence, 
surface and ground water contamination, erosion, sedimentation, 
chemical release, and acid mine drainage. Safety hazards associated 
with abandoned mines account for deaths and/or injuries each year. 
Abandoned and inactive mines, resulting from mining activities that 
occurred over the past 150 years, are scattered throughout the United 
States. The sites are located on private, state and public lands.
    Over the years, several studies have been undertaken in an attempt 
to quantify the hardrock AML cleanup effort. In 1991, IMCC and the 
Western Governors' Association completed a multi-volume study of 
inactive and abandoned mines that provided one of the first broad-based 
scoping efforts of the national problem. Neither this study, nor any 
subsequent nationwide study, provides a quality, completely reliable, 
and fully accurate on-the-ground inventory of the hardrock AML problem. 
Both the 1991 study and a recent IMCC compilation of data on hardrock 
AML sites were based on available data and professional judgment. While 
the data is seldom comparable between states due to the wide variation 
in inventory criteria, they do demonstrate that there are large numbers 
of significant safety and environmental problems associated with 
inactive and abandoned hardrock mines and that remediation costs are 
very large.
    Across the country, the number of abandoned hardrock mines with 
extremely hazardous mining-related features has been estimated at 
several hundred thousand. Many of the states and tribes report the 
extent of their respective AML problem using a variety of descriptions 
including mine sites, mine openings, mine features or structures, mine 
dumps, subsidence prone areas, miles of unreclaimed highwall, miles of 
polluted waterways, and acres of unreclaimed or disturbed land. Some of 
the types of numbers that IMCC has seen reported in our Noncoal Mineral 
Resources Survey and Report and in response to information we have 
collected for the Government Accountability Office (GAO) and others 
include the following gross estimated number of abandoned mine sites: 
Alaska--1,300; Arizona--80,000; California--47,000; Colorado--7,300; 
Montana--6,000; Nevada--16,000; Utah--17,000 to 20,000; New York--
1,800; Virginia--3,000 Washington--3,800; Wyoming--1,700. Nevada 
reports over 200,000 mine openings; New Mexico reports 15,000 mine 
hazards or openings; Minnesota reports over 100,000 acres of abandoned 
mine lands and South Carolina reports over 6,000 acres.
    What becomes obvious in any attempt to characterize the hardrock 
AML problem is that it is pervasive and significant. And although 
inventory efforts are helpful in attempting to put numbers on the 
problem, in almost every case, the states are intimately familiar with 
the highest priority problems within their borders and also know where 
limited reclamation dollars must immediately be spent to protect public 
health and safety or protect the environment from significant harm. In 
this regard, we reference a statement we submitted to your Committee on 
December 22, 2008 regarding the American Recovery and Reinvestment Act 
(ARRA) and the potential for funding AML cleanup projects to create 
green jobs and stimulate the economy.
    Today, state agencies are working on hardrock abandoned mine 
problems through a variety of limited state and federal funding 
sources. Various federal agencies, including the Environmental 
Protection Agency, Bureau of Land Management, U.S. Forest Service, Army 
Corps of Engineers and others have provided some funding for hardrock 
mine remediation projects. These state/federal partnerships have been 
instrumental in assisting the states with our hardrock AML work and, as 
states take on a larger role for hardrock AML cleanups into the future, 
we will continue to coordinate with our federal partners. However, most 
of these existing federal grants are project specific and do not 
provide consistent funding. For states with coal mining, the most 
consistent source of AML funding has been the Title IV grants under the 
Surface Mining Control and Reclamation Act (SMCRA). Section 409 of 
SMCRA allows states to use these grants at high priority non-coal AML 
sites. The funding is generally limited to safeguarding hazards to 
public safety (e.g., closing mine openings) at hardrock sites.
    In December 2006, Congress significantly amended the SMCRA AML 
program to, among other things, distribute funds to states in an amount 
equal to that previously allocated under SMCRA but never appropriated. 
However, while Section 409 was not changed or amended in any way, the 
Interior Department, through both a Soliticor's Opinion (M-37014) and 
rule (73 Fed. Reg. 67576), has now interpreted SMCRA to prohibit this 
enhanced funding from being used for noncoal projects. This is a 
significant blow to states such as New Mexico, Utah and Colorado that 
have previously used SMCRA AML funds to address many of the more 
serious hardrock AML problems.
    As you noted in your remarks introducing S. 2830, Mr. Chairman, 
your bill would remedy the Interior Department's unfortunate 
interpretation of the 2006 Amendments and as such we strongly support 
the bill.. That interpretation not only disregards the fact that 
section 409 was left unamended by Congress, it is also inconsistent 
with assurances repeatedly given to the states and tribes by OSM during 
the consideration of the legislation that noncoal work could continue 
to be undertaken with these AML funds. The interpretation would also 
have the unacceptable result of requiring states and tribes to devote 
funds to lower priority coal sites while leaving dangerous noncoal 
sites unaddressed. While OSM will argue that this may impact the amount 
of funding available to uncertified states to address high priority 
coal problems, Congress did not seem overly concerned with this result 
but rather deferred to its original framework for allowing both high 
priority coal and noncoal sites to be addressed.
    In its final rule implementing the 2006 amendments to SMCRA (at 73 
Fed. Reg. 67576, et seq.), OSM continued to abide by its argument that 
``prior balance replacement'' funds (i.e the unappropriated state and 
tribal share balances in the AML Trust Fund) are fundamentally distinct 
from section 402(g) moneys distributed from the Fund. This, according 
to OSM, is due to the fact that these prior balance replacement funds 
are paid from U.S. Treasury funds and have not been allocated under 
section 402(g)(1). This is a distinction of convenience for the 
Interior Department's interpretation of the 2006 Amendments and has no 
basis in reason or law. The fact is, these funds were originally 
allocated under section 402(g)(1), are due and owing pursuant to the 
operation of section 402(g)(1), and did not change their ``color'' 
simply because they are paid from a different source. Without the 
operation of section 402(g)(1) in the first place, there would be no 
unappropriated (i.e. ``prior'') state and tribal share balances. The 
primary reason that Congress appears to have provided a new source for 
paying these balances is to preserve a balance in the AML Trust Fund to 
1) generate continuing interest for the UMW Combined Benefit Trust Fund 
and 2) to insure that there was a reserve of funding left after fee 
collection terminates in 2021 to address any residual high priority 
historic coal problems. There was never an intent to condition or 
restrict the previously approved mechanisms and procedures that states 
and tribes were using to apply these moneys to high priority coal and 
noncoal problems. To change the rules based on such a clever invention 
is inappropriate and inconsistent with law.
    The urgency of advancing this legislation has been heightened, Mr. 
Chairman, by statements in OSM's proposed budget for Fiscal Year 2011. 
Therein, OSM is proposing to further restrict the ability of states to 
expend AML funds on noncoal reclamation projects. This will apparently 
occur as part of a legislative proposal that the Administration intends 
to aggressively pursue in the 111th Congress. While the primary focus 
of that proposal will be the elimination of future AML funding for 
states and tribes that are certified under Title IV of SMCRA (which we 
adamantly oppose), OSM's explanation of its proposal also contains the 
following language: ``Similarly, the proposal will require that 
payments to noncertified States are only used for high-priority coal 
problems.'' We are uncertain exactly what OSM has in mind with respect 
to this aspect of the legislative proposal, but we suspect it has to do 
with clarifying the very issue that is the subject of S. 2830. For all 
we know, it could be even farther reaching.
    For the same reasons that Congress needs to clarify this 
misinterpretation for noncoal AML work, it should also do so for the 
acid mine drainage (AMD) set aside program. Section 402(g)(6) has, 
since 1990, allowed a state or tribe to set aside a portion of its AML 
grant in a special AMD abatement account to address this pervasive 
problem. OSM's recent policy (and now regulatory) determination is 
denying the states the option to set aside moneys from that portion of 
its grant funding that comes from ``prior balance replacement funds'' 
each year to mitigate the effects of AMD on waters within their 
borders. AMD has ravaged many streams throughout the country, but 
especially in Appalachia. Given their long-term nature, these problems 
are technologically challenging to address and, more importantly, are 
very expensive. The states need the ability to set aside as much 
funding as possible to deal with these problems over the long term. We 
therefore urge the Committee to amend S. 2830 to correct the current 
policy interpretation by Interior and allow the use of unappropriated 
state and tribal share balances (``prior balance replacement funds'') 
for the AMD set aside, similar to the use of these balances for noncoal 
work. Suggested amendatory language is attached to our statement.*
---------------------------------------------------------------------------
    * See Appendix II--Statement of National Association of Abandoned 
Mined Land Programs.
---------------------------------------------------------------------------
    Over the past 30 years, tens of thousands of acres of abandoned 
mine lands have been reclaimed, thousands of mine openings have been 
closed, and safeguards for people, property and the environment have 
been put in place. There are numerous success stories from around the 
country where the states' AML programs have saved lives and 
significantly improved the environment. Suffice it to say that the AML 
Trust Fund, and the work of the states pursuant to the distribution of 
monies from the Fund, have played an important role in achieving the 
goals and objectives of set forth by Congress when SMCRA was first 
enacted--including protecting public health and safety, enhancing the 
environment, providing employment, and adding to the economies of 
communities impacted by past coal and noncoal mining. Passage of S. 
2830 will further these congressional goals and objectives.
    In support of our position on S. 2830, we also request that you 
include for the record the attached resolution (No. 07-8)* adopted by 
the Western Governors that urges the continued use of funds collected 
or distributed under Title IV of SMCRA for the reclamation of high 
priority, hard-rock abandoned mines. This resolution is in support of 
the Western Governors' policy statement B.6.
---------------------------------------------------------------------------
    * Resolution has been retained in subcommittee files.
---------------------------------------------------------------------------
    Thank you for the opportunity to submit this statement on S.2830. 
We welcome the opportunity to work with you to complete the legislative 
process and see this bill, as amended, become law.

    Senator Wyden. Thank you, Mr. Conrad.
    Mr. Reinhardt, let us talk about the question of trespass 
in particular. Are there examples of how trespass in the area 
might affect Young Life's ability to conduct your important 
youth camps and manage the Washington Family Ranch effectively?
    Mr. Reinhardt. Yes, Mr. Chairman, as you noted, the 
existing land patterns are a very broad checkerboard of private 
and public lands, most of which are not contiguous. Therefore, 
the hopscotching processes whereby the public would be 
attempting to get to public lands to rightfully hunt on those 
public lands is next to impossible and usually results in them, 
the public ending up trespassing and getting close to the camp.
    One particular incident about 2\1/2\ years ago that really 
prompted us reengaging on this opportunity was we had some 
hunters who ended up actually within the center area of the 
large camp that exists, the Young Life's Wild Horse Canyon, 
during hunting season with guns while a camp was going on. When 
confronted to let them know they were not on public lands, they 
were thoroughly convinced they were on public lands and quite 
argumentative with the staff.
    It sent the kids running in a bit of hysteria, as you might 
imagine, seeing hunters within a matter of about 100 yards with 
guns showing up. It certainly wasn't part of the program that 
we planned. So that is just one of many examples where we have 
had challenges.
    Senator Wyden. What would be your assessment of roaded 
access to Cathedral Rock wilderness? Where would the various 
private land owners be in regard to that issue?
    Mr. Reinhardt. The private land owners have a unique set of 
circumstances and conditions along what is called ``Muddy 
Road.'' It is a very limited-access county road. It is actually 
part of the old Dalles to Canyon City toll road from the 1860s, 
and it has no base under it. It is basically a 2-lane--or 
excuse me, a 2-track jeep trail that goes back through there.
    So, the actual physical access is a tremendously 
challenging physical access. We have had a number of folks who 
have ended up stranded on that road, and we have had to manage 
taking care of that.
    But more specifically, to the private access issues, the 
trespassing becomes a challenge because it is very difficult 
for folks who are in that area to know when they are on public 
land and when they are on private land. There is very little 
demarcation that allows that certainly from the BLM.
    Senator Wyden. Is it fair to say that the deal falls apart 
without certainty for the private owners?
    Mr. Reinhardt. Yes. I would say that, and I would say not 
only the private owners, I would argue or suggest that for 
Jefferson County, who initiated the concern, because of the 
requirements to improve the road that they would likely be 
under, they noted that they would likely change their support 
if there was public access on that road to Cathedral Rock.
    Senator Wyden. Tell me about the potential new additions. 
You and other community members are talking about this, 
certainly substantial interest in it. Can you give us any 
information, any additional information about the new parcels 
of land for exchange that are being proposed?
    Mr. Reinhardt. Yes, Senator.
    The additional proposal of land actually has been in the 
works for--the research has been in the works for about a year 
and a half to include those other parcels close to the Antone 
ranch. It is the same members in the exchange. We are not 
adding any new private members to the exchange.
    Since we were doing that research at the same time, same 
BLM district, same Forest Service district, same watershed, we 
felt it was an opportunity to solve 2 problems at one time and 
actually accomplish a greater good by adding more land to the 
wilderness area at the same time up at Horse Heaven. Have spent 
a good deal of time at the district office, both with Forest 
Service and the BLM, doing the preliminary work to set the 
stage for that opportunity.
    Senator Wyden. I think you have really done a terrific job, 
and I thank you for it.
    Mr. Conrad, you are getting spared largely because I have 
got 3 meetings I am supposed to be in between now and 5 p.m.
    Mr. Conrad. I understand.
    Senator Wyden. We will follow up, the staff on both sides 
will follow up with you and work closely with you on it. I know 
that this has been frustrating because of the earlier delay and 
so much taking place today in the Senate.
    But thank you both for your patience. Mr. Reinhardt, there 
is great interest in our home State in what you all are trying 
to do. As a longtime fan of Young Life, really appreciate the 
leadership.
    Mr. Reinhardt. Thank you very much.
    Senator Wyden. Look forward to working with you closely. 
Mr. Conrad, we will be following up with you.
    With that, the subcommittee is adjourned.
    [Whereupon, at 4:42 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    [Responses to the following questions were not received at 
the time the hearing went to press:]

           Questions for Harris Sherman From Senator Barrasso
    Question 1. In your testimony, you mentioned many nationwide 
baseline accounts for forest management that may be utilized for bark 
beetle mitigation. However, the scope of the bark beetle disaster 
requires dedicated funding and management. What funding is the Forest 
Service prepared to allocate specifically to bark beetle mitigation in 
Wyoming, Colorado, Idaho, Montana, and South Dakota in Fiscal Year 
2011? Please indicate the line items where this funding will be made 
available and the specific amounts.
    Question 2. In your testimony, you indicated that the Department 
wants to ``fully take advantage of'' good neighbor authority with state 
governments. Could you explain how expanded good neighbor authority 
would help address bark beetle issues West-wide?
    Question 3. Please provide the Committee with full documentation 
produced by the National Incident Management Organization team assigned 
to evaluate the bark beetle infestation in USFS Rocky Mountain Region.

          a. Please explain why this team's analysis excluded Shoshone 
        National Forest.

    Question 4. I was disappointed in your testimony that the Forest 
Service plans to handle the bark beetle epidemic are still being 
hatched. You stated that the agency continues to develop cost estimates 
and management plans that may be implemented sometime in the future. 
This is unacceptable. This epidemic has been growing for years. Please 
explain the specific management strategy for bark beetle mitigation in 
Wyoming, Colorado, Idaho, Montana and South Dakota in Fiscal Years 2010 
and 2011.
    Question 5. The Forest Service owns 9.2 million acres in Wyoming, 
3.4 million of those acres are Wilderness and 3.3 million acres are 
inventoried as roadless. We've got 3.5 million acres of bark beetles to 
deal with, and the infestation doubles each year. The Forest Service 
cannot simply ignore its management responsibility based on arbitrary 
boundaries. We have to save communities, watersheds, and wildlife 
habitat form bark beetles. Is the Forest Service prepared to manage its 
lands as necessary for community and watershed protection, regardless 
of arbitrary roadless area boundaries?
    Question 6. If the Forest Service continues management at the rate 
of the last decade, it will take 58 years to treat all acreage 
currently at high risk for wildfire. We don't have that kind of time. 
What is the Department's strategy to increase the annual treatment rate 
nationwide to reduce fire risk?
    Question 7. In your testimony, you indicated that the Forest 
Service has discussed reforms necessary to increase efficacy of 
stewardship contracting. Please list the reforms that have been 
discussed in detail and provide an explanation of whether or not each 
reform discussed requires authorization by Congress.
    Question 8. Canadian scientists and politicians are suggesting that 
the current bark beetle outbreak in Canada will reduce the timber 
volume available to harvest resulting in a decrease in Canada's lumber 
shipments to the United States for up to a century. If not Canada or 
the federal forests in the United States; where do you suggest this 
country's builders get their lumber to meet the future housing demand 
over the next century?
          Questions for Harris Sherman From Senator Murkowski
    As I recall you testified before this Committee and delivered some 
fairly negative testimony on S.1470 Senator Tester's Forest Jobs and 
Recreation Act of 2009. Your written testimony expressed similar 
concerns with Senator Wyden's S. 2895, Eastside Oregon forestry bill.
    I came across an article that said: ``The Obama Administration 
could support the logging mandate in Montana, Senator Jon Tester's 
wilderness bill as a `pilot project,' said U.S. Agriculture Secretary 
Tom Vilsack.''
    That same article reported that ``at the time, Agriculture 
Undersecretary Harris Sherman said the logging targets were 
`unworkable' for the agency and could set a precedent in which each 
national forest is managed differently by Congress.''
    Question 1. Can you explain what a ``pilot project'' is and what 
changes from S. 1470 the Administration will make to that ``pilot 
project'' to make it acceptable to Secretary Vilsack?
    Question 2. Now that the Secretary has announced that S. 1470 is an 
acceptable ``pilot project'', is it your view that the Tester proposal 
can be implemented without legislation?
    Question 3. Could this just be done by having the Secretary wave 
his administration wand to deem these other bills acceptable too?
    Question 4. Do you think the same changes to Senator Udall's bill 
converting it into a pilot project would make this bill we are hearing 
today acceptable to the Secretary?
    Question 5. If the Secretary can just turn the Tester logging 
mandates into a ``pilot project'' and find that an acceptable 
investment; can he do the same for S. 2895 or for S. 2798 Senator 
Udall's National Forest Insect and Disease Emergency Act of 2009?
    Question 6. As I recall you testified before this Committee and 
delivered some fairly negative testimony on S.1470 Senator Tester's 
Forest Jobs and Recreation Act of 2009. Several weeks ago after you 
disparaged Senator Tester's bill, the Secretary then came out and said 
it could be implemented as a pilot project. Last week your written 
testimony expressed similar concerns with Senator Wyden's S. 2895, 
Eastside Oregon forestry bill. Yet today your testimony on the Colorado 
bill is less harsh.
    All three of these bills are more similar than they are different; 
please help us understand your testimony and seemingly evolving 
thinking on these types of bills?
    Question 7. If I heard you correctly; you said you're developing 
your strategy for dealing with the nearly complete collapse of the 
Lodgepole pine ecosystem in the Intermountain West as we speak. This 
fiscal year is half over and the agency received its budget more 
quickly this year than in most years in the last decade. I hope you 
understand that many Senators find the notion that an insect epidemic 
has been raging in this area for the last 4 or 5 years and has almost 
completely run its course yet the Forest Service is just getting around 
to trying to figure out what to do is more than a little disturbing.
    If as you suggested, more than 100,000 trees are falling down every 
day in the Routt-Medicine Bow and Arapaho-Roosevelt National Forests 
aren't you concerned for the people who hike and hunt and recreate in 
the Roadless Areas and Wilderness Areas?
    Question 8. The Shoshone National Forest has approximately a 
million acres of insect impacted Lodgepole pine, yet recently the 
Forest Supervisor informed some in Congress that they would be treating 
only 13,000 acres this year. That suggests that fuel reduction work 
would be completed by about the year 2141.
    Is that pace of treatment acceptable to you?
    Question 9. Does this casual approach to this unprecedented forest 
disaster suggest that the Forest Service has given up on managing large 
swaths of the land they have been entrusted to manage?
    Question 10. Recently my staff completed an analysis of the number 
of acres in fire condition class 2 & 3 compared to the number of acres 
managed through prescribed burning, commercial timber sales, or 
stewardship contracting. That analysis suggests that in most Regions 
half or more of the acres in each region are at high risk to 
catastrophic fires (113 million acres out of the 193 million acres 
entrusted to the Forest Service). It shows that if the 2009 management 
levels are carried on into the future that it would take more than a 
century in most regions to mitigate the fire risk. Specifically it 
would take Region One 203 years to manage their Fire Risk Condition 
Class 2 & 3 Acres; 121Years for Region Two; 73 Years for Region Three; 
188 Years for Region Four; 250 Years for Region Five; 89 Years for 
Region Six; and 107 Years for Region 9.
    The Forest Service is supposed to, according to its original 
Organic Administration Act: 1) to improve and protect the forests; 2) 
to secure favorable water flows; and 3) furnish a continuous supply of 
timber for the use and necessities of citizens of the United States.
    Can you show how you are accomplishing any of the three prime 
directives given the data from this decade compared to resource health 
and production data from the first 70 years of the agency having taken 
on the responsibilities articulated in the 1910 Organic Administration 
Act?
    Question 11. Given the Agency's $4 to $5 billion per year budget 
over the last decade can you provide the Committee with an estimate of 
the timber value lost to fires and insects since the National Fire Plan 
was signed in 2002?
    Question 12. Can you provide an estimate of the value of the water 
that was degraded as a result of wildland fires on the National Forest 
or from insect epidemics?
    Question 13. Can you provide an estimate of the number of acres of 
Threatened and Endangers Species habit that has been negatively 
impacted as a result of wild fires including resulting invasive species 
impacts?
                                 ______
                                 
            Question for Glenda Owens From Senator Barrasso
    Question 1. In 2006, Congress enacted changes to the Surface Mining 
Control and Reclamation Act. The President and Secretary Salazar 
supported the final compromise when they served in the Senate. The AML 
compromise was a bipartisan agreement achieved after more than a decade 
of negotiations. Everyone gave a little to reach a solution that worked 
for all parties.

          a. Why are you walking away from an agreement you and the 
        President supported?
          b. Why should the people of Wyoming, Montana, Louisiana, the 
        Crow Nation, the Hopi Nation, or the Navajo Nation ever trust 
        the Administration if it breaks deals that it previously 
        supported?
                                 ______
                                 
           Question for Dominik Kulakowski From Senator Wyden
    I recently introduced a bill to promote thinning in the Eastside 
forests of Oregon to restore the forests there, reduce hazardous fuels, 
and protect old-growth, and I worked closely with a number of top 
scientists in developing the bill to ensure that it was consistent with 
the best available science. As you understand it, are the roles for 
mechanical thinning different in the context of bark beetle 
infestations of lodgepole pine and spruce, on the one hand, and dry 
ponderosa pine forests, on the other?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

    [Due to the large amount of materials received, only a 
representative sample of statements follow. Additional documents and 
statements have been retained in subcommittee files.]
   Statement of the Colorado Timber Industry Association, on S. 2798
    On behalf of the Colorado Timber Industry Association, representing 
Colorado's forest products companies, including sawmills, loggers, and 
truckers, please accept the following testimony for the Hearing Record 
on S. 2798, the National Forest Insect and Disease Emergency Act of 
2009.
    The interaction of western bark beetles, fuels and fire in forest 
systems is inherently complex and much remains unknown. Mountain pine 
beetle killed ponderosa and lodgepole pine typically topple over within 
2-10 years, creating heavy fuel loads. Such heavy fuel accumulations 
represent challenging wildfire control scenarios, and if the larger 
diameter material dries out sufficiently, as has occurred frequently in 
the past decade, wildfire severity and intensity is greatly increased 
(Kolb 2009).
    Typically in the northern Rocky Mountains, very few fires account 
for most of the total area burned during a long time period, e.g., one 
or two centuries (Turner et al, 1999). In Yellowstone National Park, 
researchers found that severe, high intensity fire was more likely to 
occur in stands of advanced successional stage and in stands which 
experienced high-intensity prior infestations by mountain pine beetles 
and mistletoe (Turner et al, 1999).
    In Montana, several Indian tribes are using active forest 
management as well as rapid salvage and sanitation harvesting to stem 
bark beetle epidemics and reduce the probability of catastrophic 
wildfire effects in their forests (Kolb 2009). The mitigation of 
potentially adverse bark beetles and fire effects is maximized when 
treatments occur at landscape scales and integrate the spatial 
arrangement of forest types, stand conditions, treatment units, and 
prescriptions (Jenkins et al 2008).
    After examining the 2007 Monumental and North Fork Fires in central 
Idaho, researchers found that fuels treatments modified wildfire 
intensity and that burn severity to vegetation and soils within the 
areas where fuels were treated was generally less compared to 
neighboring areas where fuels were not treated. Researchers also 
concluded that fuel treatment location and juxtaposition and the 
treatment of surface fuels, ladder fuels, and crown fuels (in that 
order of importance) are major determinants of both wildfire intensity 
and burn severity (Graham et al 2009).
    Looking ahead to `The Next Forest', the greater the percentage of 
host trees that are similar in age and size, the greater the 
probability of bark beetles successfully attacking and colonizing them 
at the same time (Kolb 2009). Conversely, increasing the diversity of 
tree species and decreasing the size of similar tree age and size 
patches of host trees makes for a more difficult environment for bark 
beetles and reduces the ability of epidemics to develop (Kolb 2009).
    The Colorado Timber Industry Association strongly supports S. 2798 
and commends Senator Mark Udall for his leadership on this important 
bill. The bark beetle epidemics in Colorado and other western states 
are catastrophic, and will require tremendous resources to plan and 
implement projects to mitigate the effects, restore the national 
forests, and protect communities and people.
    S. 2798 will greatly assist the Forest Service by providing 
mechanisms that will allow them to more efficiently and effectively 
focus their on-the-ground response to catastrophic bark beetle 
epidemics in Colorado and other western states. We urge the Senate 
Energy & Natural Resources Committee to advance this legislation as 
soon as possible.
    In addition to the provisions to establish and manage Insect and 
Disease Emergency Areas, other important provisions in the bill will--
designate any biomass removed from Insect and Disease Emergency Areas 
as `renewable biomass', extend Good Neighbor Authority to the affected 
States, permanently authorize Stewardship Contracts, and exclude 
multiyear Stewardship Contracts from cancellation liability 
requirements. These important provisions will contribute to the Forest 
Service's ability to treat national forest lands within the affected 
States.
    We have one recommendation. One of the purposes of the bill is ``to 
ensure that increased resources are available within each designated 
insect and disease emergency area.'' However, the bill does not contain 
any provision to actually ``ensure'' those ``increased resources.'' 
Addressing the bark beetle epidemics in Colorado and other western 
United States will be very expensive. We are very pleased that the US 
Department of Agriculture targeted $74 million toward the bark beetle 
issue in FY 2010. However, that funding will not begin to fully address 
the problems, and adequate funding will again be an issue in FY 2011 
and subsequent years. Just like fire funding, funding for bark beetle 
response should not come from normal program funding. These 
catastrophic epidemics should be treated like other major disasters, 
and Congress should respond with the resources required to address a 
national emergency. We urge the Committee to work with the 
Administration to develop a cohesive strategy, including identification 
of needed work plus the amount and source of funding, to address the 
bark beetle epidemics in Colorado and other western states.
    Thank you for this opportunity to submit testimony.
                                 ______
                                 
                 Northwest Colorado Council of Governments,
                                Silverthorne, CO, October 22, 2009.
Hon. Mark Udall,
U.S. Senate, Hart Office Building, Suite SH-317, Washington, DC.
    Dear Senator Udall, Northwest Colorado Council of Governments is in 
support of the draft National Forest Insect and Disease Emergency Act 
of 2009 for the following reasons:

  <bullet> Act addresses both wildfire and falling tree hazards.
  <bullet> Act addresses all components of communities including human 
        life, homes, businesses, utility corridors, communications 
        sites, roads, trails, recreation sites, and water structures.
  <bullet> Act specifically addresses headwaters of water supplies.
  <bullet> Act establishes Insect and Disease Emergency Areas on 
        national forest system lands excluding designated Wilderness 
        and Wilderness study areas.

    --Provides for priority treatments for hazardous fuels and hazard 
            trees.
    --Provides assistance to State and local governments and private 
            land owners for hazardous fuels and hazard trees.
    --Gives priorities for initiatives involving the harvesting of 
            renewable biomass.

  <bullet> Act makes permanent existing good neighbor and stewardship 
        contracting authorities.
  <bullet> Act includes twelve Western states.
  <bullet> Considers any woody biomass removed from a designated 
        emergency area as renewable biomass under Clean Air Act.
  <bullet> The Secretary may apply provisions in the Healthy Forest 
        Restoration Act of 2003 to hazardous fuels and hazard trees in 
        designated emergency area.
  <bullet> The Secretary may not obligate funds to cover the cost of 
        cancelling a multiyear stewardship contract until the date on 
        which the contract is cancelled.
  <bullet> Act does not modify the National Environmental Policy Act 
        yet utilizes provisions in the Healthy Forest Restoration Act 
        of 2003 to speed analysis.

    We fully understand and support that this draft bill is purposely 
narrow in its scope to focus on emergency mitigation of the current 
insect and disease situation in the West which is our highest priority. 
We encourage you not to broaden and thereby weaken the draft bill into 
a hybrid between emergency mitigation and forest health.
    We want toespecially thank you for the services of Doug Young of 
your staff who has done a great job in addressing the needs of our 
member jurisdictions.
            Sincerely,
                                             Gary Severson,
                                                Executive Director.
                                 ______
                                 
       Statement of the Society of American Foresters, on S. 2798
    On behalf of the Society of American Foresters (SAF), the national 
scientific and educational organization representing the forestry 
profession with over 14,000 members, please accept the following 
testimony for the Hearing Record on S. 2798, the National Forest Insect 
and Disease Emergency Act of 2009. As an organization chartered to 
advance the science, education, technology, and practice of forestry 
for the benefit of society, the SAF strongly supports S. 2798 and 
commends Senator Mark Udall and Senator James Risch for their 
bipartisan leadership on this important bill. S. 2798 is a simple, 
common sense bill that could be easily implemented by land management 
agencies to more-quickly address problems associated with extensive 
bark beetle infestation in the western United States. We urge the 
Senate Energy & Natural Resources Committee to advance this legislation 
as soon as possible.
    As millions of acres of forests across the western United States 
are infested, dead and dying of mountain pine beetle and other insects 
and diseases, a great deal of work will be needed to remove dead and 
dying trees to protect public safety, roads, trails, power lines, 
watersheds and protect communities from catastrophic wildfire. Further, 
by preventing uncharacteristically hot wildfires, we can encourage the 
establishment of a new forest by protecting forest seed sources, 
preventing cooked soils and other damage that hinders or prohibits 
forest regeneration.
    Given current federal land management laws, regulations and case 
law, there is virtually no way this work can be done in a timely 
manner. In fact, the Forest Service will only be able to address the 
direst of needs even if unlimited funding were devoted to this problem. 
S. 2798 will greatly aid the Forest Service by reducing the amount of 
time and resources needed to plan and implement projects to protect 
life, property and other important forest values.
    Again, we commend you for the simple, common sense approach of this 
bill, but also have some recommendations:

          1. Extend the authorities and designation in the bill to 
        include Bureau of Land Management (BLM/public lands) lands. 
        Across the west, many national forests are intermixed with BLM 
        land and treating both land ownerships is critical (for 
        example, 22% of Colorado's forestland is managed by the BLM and 
        over 320,000 acres of forestland in Idaho is managed by the 
        agency).
          2. Authorize 20-year stewardship contracts. Given the 
        landscape-scale restoration work needed to restore forest 
        health, 20-year stewardship contracts could serve as an 
        important tool for land management agencies. These long-term 
        contracts could encourage larger projects while also providing 
        more certainty and consistency for forest contractors.
          3. Ensure appropriate funding of this legislation.
          4. Finally, we also ask that some focus be placed on green 
        forests that have not yet been infested to prevent mortality 
        from bark beetles. Published scientific and case studies have 
        shown that in some forests, if aggressive thinning to a 
        prescribed density is completed, the forest can survive attacks 
        from bark beetles. This will be important to protecting 
        existing habitat and other forest values for the future as a 
        diverse, multi-aged forest is much more resilient than the 
        even-aged forests we see today.

    Thank you for the opportunity to submit testimony.
                                 ______
                                 
                                           Trout Unlimited,
                                        Arlington, VA, May 5, 2010.
Hon. James E. Risch,
483 Russell Senate Office Building, Washington, DC.
Hon. Mark Udall,
317 Hart Senate Office Building, Washington, DC.
RE: S. 2798, the National Forest Insect and Disease Emergency Act of 
2009

    Dear Senators Risch and Udall: I am writing on behalf of Trout 
Unlimited and its 140,000 members nationwide regarding S. 2798. Trout 
Unlimited recognizes the challenges posed by large-scale bark beetle 
infestation in the West, and believes that it is important for 
management approaches to be based on sound science, public involvement 
and environmental review.
    Trout Unlimited supports the underlying desire to remove dead and 
dying trees where it makes ecological and economic sense to achieve 
those goals. In the West, the high levels of insect and disease killed 
and damaged trees are creating new challenges on many national forests. 
We support the goal of reducing the risk these trees pose to 
communities, recreational areas, and transportation and utility 
corridors. However, we are concerned with S. 2798's overly broad 
criteria for defining emergency areas, the lack of public involvement 
in designating emergency areas, and the lack of a sunset provision.
    The legislation calls for the establishment of insect and disease 
emergency areas. The establishment parameters of these emergency areas 
are extremely broad and vague, providing extraordinary discretion to 
the Secretary in creating them. The definition only requires the areas 
to have increased risk to catastrophic fires or increased threats by 
hazard trees to utility corridors, communication sites or other 
infrastructure. These broad criteria would apply virtually anywhere in 
the western United States. We recommend adding additional specificity 
to better circumscribe emergency area designation and to focus efforts 
on areas surrounding communities and infrastructure as opposed to the 
backcountry.
    We are also concerned about the lack of public involvement in 
mapping emergency areas. Local involvement in the mapping and 
designation is important. Such participation is important for a smooth 
and efficient NEPA process and public involvement that will occur when 
particular treatments are proposed.
    Another concern is in how this bill might be applied to other 
situations in the future. There does not appear to be any sunset 
provision or date. This opens the possibility that the provisions of 
this bill could be used in the future to circumvent environmental 
protections in unwarranted ways.
    The bill excludes designated wilderness and recommended wilderness 
from emergency areas. Trout Unlimited supports these exclusions, but 
they are not enough to protect important habitats. Inventoried roadless 
areas and other locations that harbor critical values need to be 
excluded. At a minimum they need to be categorized as areas requiring 
special consideration and review before being open to ``treatment''. 
Other such important habitats include Wild and Scenic River corridors, 
research natural areas and areas within 300 feet of perennial or 
intermittent streams. The rationale for including the stream corridors 
in the exempted areas is the need for wood recruitment into those 
stream systems. One way to help ensure that critical habitats are 
adequately protected is to include Healthy Forest Restoration Act 
protections for old growth forest stands, older and larger trees, 
threatened and endangered species, and other resources.
    Finally, from a fisheries conservation standpoint, two of the most 
important ways to help native trout cope with fire is to remove roads 
in order to reduce sedimentation, and remove culverts that block fish 
passage so that fish may move to other habitats in the occurrence of a 
fire and then re-colonize the stream when conditions have improved. To 
the extent that these activities may be advanced through this bill, 
fisheries will be made more resilient to the effects of fire.
    We appreciate both of your efforts to protect communities and vital 
infrastructure in the forests heavily impacted by beetle kill. There is 
a great deal of work to be done, much of it urgent. By creating 
opportunity for public involvement, applying the best available 
science, and maintaining appropriate protections for critical habitats 
this work may be done in a manner that benefits communities and 
ecosystems.
            Sincerely,
                                               Steve Moyer,
                             Vice President for Government Affairs.
                                 ______
                                 
                 Statement of Vail Resorts, on S. 2798
    Thank you for the opportunity to provide written testimony on the 
National Forest Insect and Disease Emergency Act of 2009 (S. 2798). 
Vail Resorts supports this legislation and would like to thank Senator 
Udall and Senator Risch for their work on this important legislation.
    We would also like to take this opportunity to thank Chairman Wyden 
and the Subcommittee on Public Lands and Forests as well as the full 
Energy & Natural Resources Committee including Chairman Bingaman and 
Ranking Member Murkowski for their work on the FLAME Act that is now 
law. Beginning to untangle fire suppression costs from the rest of the 
USFS budget is a critical step to let USFS focus resources on forest 
health.
    Vail Resorts is the premier mountain resort company in the world 
operating five of the 10 most visited ski resorts in the United States 
which account for 10% of United States skier visits. Vail Resorts 
operates its resorts on National Forest System lands under special use 
permits from the United States Forest Service (USFS). Our resorts value 
the partnership we have with the Department of Agriculture and the USFS 
on the district, forest, regional and national level. This partnership 
is critical to the day-to-day operations of our resorts and we look 
forward to continuing to work closely with the dedicated men and women 
of the USFS. Additionally, the Department and the USFS should be 
commended for the recent decision to commit additional resources to 
USFS Region Two to address forest health needs.
    While our resorts are fortunate to be home to diverse species of 
trees (including aspen, spruce, and fir), the extent of the Mountain 
Pine Beetle (MPB) activity in aging lodgepole pines at our resorts 
necessitates an increased level of forest health efforts. In carrying 
out these efforts, in conjunction with the USFS, Vail Resorts is 
committed to the safety of our guests and the responsible stewardship 
of the environment. To that end the identification and removal of 
hazard trees is an on-going initiative. Examples of hazard trees 
include:

  <bullet> Trees within the wildfire defensible space of resort 
        structures.
  <bullet> Trees with the potential to dead-fall or blow-down onto lift 
        lines, buildings, or trails.

    Vail Resorts would like to thank the USFS for working closely with 
our mountain crews to facilitate the timely removal of hazard trees 
presenting safety issues to our guests and infrastructure. The 
importance of this work cannot be overstated.
    In addition to hazard tree removal, other forest health efforts are 
aimed at promoting increased species and age diversity through 
selective tree thinning, small patch cuts, and forest restoration work 
where the MPB has had or will have the greatest impact. Working closely 
with the USFS, we have consolidated this work into updated vegetation 
management plans that are in various stages of environmental review and 
implementation.
    Through our charitable giving, employee engagement, and 
environmental stewardship program, Vail Resorts Echo, we have also 
engaged our guests to actively support restoration work on the forest 
through a partnership with the National Forest Foundation Ski 
Conservation Fund. Our guests have the opportunity to support the fund 
with $1 when they purchase lift tickets, ski passes, or stay in our 
lodges. The National Forest Foundation uses these contributions for on-
the-ground conservation work in the National Forests.
    In June, 2009 Vail Resorts was invited to share its views on the 
MPB with the U.S. House Subcommittee on Water and Power as well as the 
Subcommittee on National Parks, Forests and Public Lands. At that 
hearing we stated that:

  <bullet> The MPB outbreak in the West has created forest health 
        challenges beyond the capabilities of any single stakeholder 
        and increased partnerships are essential to achieve the desired 
        outcomes.
  <bullet> The USFS, operating within relevant laws and regulations, 
        has demonstrated a great willingness to work with stakeholders 
        in a collaborative and flexible manner to facilitate the 
        response to MPB related forest health challenges.
  <bullet> Opportunities to respond to the MPB include supporting 
        forest products infrastructure, biomass energy, providing the 
        Forest Service with increased flexibility to respond to the 
        MPB, and reforestation.

    In our view, S. 2798 seeks to proactively address the above issues. 
It focuses on the impacts that forest insects and disease can have on 
our local communities as well as the important role the forests fill as 
recreation sites and local, regional, and even national watersheds.
    Thank you again for the opportunity to express our support for the 
National Forest Insect and Disease Emergency Act of 2009.
                                 ______
                                 
Statement of the National Association of Abandoned Mined Land Programs, 
                               on S. 2830
    My name is Michael Garner. I am the AML Program Director with the 
Maryland Department of the Environment and currently serve as the 
president of the National Association of Abandoned Mined Land Programs 
(NAAMLP). We appreciate the opportunity to submit this statement for 
the record of the legislative hearing on S. 2830, a bill to amend the 
Surface Mining Control and Reclamation Act of 1977 to clarify that 
uncertified States and Indian tribes have the authority to use certain 
payments for certain noncoal reclamation projects. We strongly support 
this critical amendment to SMCRA.
    The NAAMLP is a tax-exempt organization consisting of 30 states and 
Indian tribes with a history of coal mining and coal mine related 
hazards. These states and tribes are responsible for 99.5% of the 
Nation's coal production. All of the states and tribes within the 
NAAMLP administer abandoned mine land (AML) reclamation programs funded 
and overseen by the Office of Surface Mining (OSM) pursuant to Title IV 
of the Surface Mining Control and Reclamation Act (SMCRA, P.L. 95-87). 
Since the enactment of SMCRA by Congress in 1977, the AML program has 
reclaimed thousands of dangerous sites left by abandoned coal mines, 
resulting in increased safety for millions of Americans.
    The Association was greatly encouraged with the passage of the 2006 
Amendments to SMCRA. The 15-year extension coupled with increased 
funding has provided the states and tribes with the ability to focus on 
the protection of the public health and safety while ensuring 
restoration of abandoned mines nationwide. The reauthorization of the 
AML program by Congress did not in any way change the provisions that 
allow AML funds to be used to ameliorate either coal or non-coal mine 
public health and safety hazards. However, OSM has adopted final rules 
implementing the 2006 Amendments (73 Fed. Reg. 67576), based on a 
Departmental Solicitor's Opinion (M-37104), that would prohibit some of 
this funding from being used to address many of the most serious non-
coal AML problems.
    Therefore, we strongly support S. 2830, which makes very minor 
changes to SMCRA to correct a misinterpretation by the U.S. Department 
of the Interior. S. 2830 will return states to their longstanding role 
under SMCRA of directing abandoned mine grant funds to the highest 
priority needs at either coal or non-coal abandoned mines.
    The NAAMLP has worked closely with the Interstate Mining Compact 
Commission and the Western Governors' Association in providing 
information to quantify the non-coal AML cleanup effort. While the data 
is seldom comparable between states due to the wide variation in 
inventory criteria, they do demonstrate that there are large numbers of 
significant safety and environmental problems associated with inactive 
and abandoned non-coal mines and that remediation costs are very large.
    Some of the types of numbers that have been reported by IMCC in 
response to information we have collected for the General 
Accountability Office (GAO) and others include the following: Number of 
abandoned mine sites: Alaska--1,300; Arizona--80,000; California--
47,000; Colorado--7,300; Montana--6,000; Nevada--16,000; Utah--17,000--
20,000; Washington--3,800; Wyoming--1,700. Nevada reports over 200,000 
mine openings and Minnesota reports over 100,000 acres of abandoned 
mine lands.
    States and Tribes are very familiar with the highest priority non-
coal problems within their borders and also have limited reclamation 
dollars to protect public health and safety or protect the environment 
from significant harm. States and Tribes work closely with various 
federal agencies, including the Environmental Protection Agency, the 
Bureau of Land Management, the U.S. Forest Service, and the U.S. Army 
Corps of Engineers, all of whom have provided some funding for non-coal 
mine remediation projects. For states with coal mining, the most 
consistent source of AML funding has been the Title IV grants received 
under the Surface Mining Control and Reclamation Act (SMCRA). Section 
409 of SMCRA allows states to use these grants at high priority non-
coal AML sites. The funding is generally limited to safeguarding 
hazards to public safety (e.g., closing mine openings) at non-coal 
sites.
    The urgency of advancing this legislation has been heightened, Mr. 
Chairman, by statements in OSM's proposed budget for Fiscal Year 2011. 
Therein, OSM is proposing to further restrict the ability of states to 
expend AML funds on noncoal reclamation projects. This will apparently 
occur as part of a legislative proposal that the Administration intends 
to aggressively pursue in the 111th Congress. While the primary focus 
of that proposal will be the elimination of future AML funding for 
states and tribes that are certified under Title IV of SMCRA (which we 
adamantly oppose), OSM's explanation of its proposal also contains the 
following language: ``Similarly, the proposal will require that 
payments to noncertified States are only used for high-priority coal 
problems.'' We are uncertain exactly what OSM has in mind with respect 
to this aspect of the legislative proposal, but we suspect it has to do 
with clarifying the very issue that is the subject of S. 2830. For all 
we know, it could be even farther reaching.
    In written statements that we presented to the Committee in 
November of 2007, the Association prioritized two issues of highest 
concern to us. One involved the restriction noted above regarding the 
use of unappropriated state and tribal share balances for noncoal AML 
work. The second involves a similar restriction on the use of these 
unappropriated balances for the Acid Mine Drainage (AMD) set-aside 
program under SMCRA. Congress expanded this program in the 2006 
Amendments to allow states and tribes to set-aside up to 30% of their 
grants funds for treating AMD now and into the future. AMD has ravaged 
many streams throughout the country, but especially in Appalachia. The 
states need the ability to set aside as much funding as possible to 
deal with these problems over the long term. Again, OSM has acted 
arbitrarily in their interpretation of the reauthorizing language by 
limiting the types of funds the state may use for the set-aside 
program. We have proposed amendatory language that would correct this 
misinterpretation and allow the states to apply the 30% set-aside to 
their prior balance replacement funds. (Suggested amendatory language 
is attached to our statement.)
    In summary:


  <bullet> Since the inception of SMCRA in 1977 and the approval of 
        state/tribal AML programs in the early 1980's, the states and 
        tribes have been allowed to use their state share distributions 
        under section 402(g)(1) of the AML Trust Fund for high priority 
        noncoal reclamation projects pursuant to section 409 of SMCRA 
        and for the set-aside program for acid mine drainage (AMD) 
        projects.
  <bullet> In its rules implementing the 2006 Amendments, OSM has 
        stated that these moneys cannot be used for noncoal reclamation 
        or for the 30% AMD set-aside.
  <bullet> Pursuant to Section 411(h)(1) of the 2006 Amendments, the 
        states and tribes assert that these moneys should also be 
        available for noncoal reclamation under section 409 and for the 
        30% AMD set-aside. There is nothing in the new law that would 
        preclude this interpretation. Policy and practice over the past 
        30 years confirm it.

    Over the past 30 years, tens of thousands of acres of abandoned 
mine lands have been reclaimed, thousands of mine openings have been 
closed, and safeguards for people, property and the environment have 
been put in place. Be assured that States and Tribes are determined to 
address the unabated hazards at both coal and non-coal abandoned mines. 
We are all united to play an important role in achieving the goals and 
objectives as set forth by Congress when SMCRA was first enacted--
including protecting public health and safety, enhancing the 
environment, providing employment, and adding to the economies of 
communities impacted by past coal and noncoal mining. Passage of S. 
2830 will further these congressional goals and objectives.
    I appreciate the opportunity to submit this statement for the 
record with respect to the legislative hearing on S. 2830, a bill to 
amend the Surface Mining Control and Reclamation Act of 1977 (SMCRA) to 
clarify that uncertified States and Indian tribes have the authority to 
use certain payments for certain noncoal reclamation projects.
    We welcome the opportunity to work with you to complete the 
legislative process and see this bill, as amended, become law.
  Attachment.--Suggested Amendment to S. 2830 to include the AMD set-
                             aside account
                  (amendments are in bold and italics)
                                 a bill
    To amend the Surface Mining Control and Reclamation Act of 1977 to 
clarify that uncertified States and Indian tribes have the authority to 
use certain payments for certain noncoal and acid mine drainage 
reclamation projects.
    Be it enacted by the Senate and House of Representatives of 
theUnited States of America in Congress assembled,

          SECTION 1. ABANDONED MINE RECLAMATION.

                  (a) Limitation on Funds.--Section 409(b) of the 
                Surface MiningControl and Reclamation Act of 1977 (30 
                U.S.C. 1239(b)) is amended byinserting ``or section 
                411(h)(1)'' after ``section 402(g)''. Section 
                402(g)(6)(A) of the Surface Mining Control and 
                Reclamation Act of 1977 (30 U.S.C. 1232(g)(6)(A)) is 
                amended by inserting ``or section 411(h)(1)'' after 
                ``paragraphs (1) and (5)''.
                  (b) Use of Funds.--Section 411(h)(1)(D)(ii) of the 
                Surface MiningControl and Reclamation Act of 1977 (30 
                U.S.C. 1240a(h)(1)(D)(ii)) isamended by inserting 
                ``section 402(g)(6)'' before ``section 403'' and 
                inserting ``section 409'' after ``section 403''.
                                 ______
                                 
                       New Mexico Environmental Law Center,
                                      Santa Fe, NM, March 22, 2010.
Hon. Jeff Bingaman,
Chairman, Senate Resources Committee, 703 Hart Senate Office Building, 
        Washington, DC.
    Dear Senator Bingaman: The New Mexico Environmental Law Center 
(``NMELC) strongly supports passage of S. 2830 and appreciates your 
efforts to advance this proposed legislation to clarify the intent of 
Congress under Title IV, the Abandoned Mine Land (``AML) program of the 
Surface Mining Control and Reclamation Act of 1977 (``SMCRA).
    S. 2830 makes only minor changes to SMCRA, correcting the Office of 
Surface Mining of the Department of the Interior's misinterpretation of 
an important discretionary provision of the law. Enactment of S. 2830 
will give back to New Mexico and other states discretion under SMCRA to 
direct abandoned mine grant funds to the highest priority needs, both 
coal and non-coal. As it now stands, the Department of Interior's 
narrow interpretation of SMCRA's AML provision subverts the 
congressional intent underlying that provision and delays or stops 
entirely remediation of abandoned non-coal mines in New Mexico.
    Section 409 of SMCRA (30 U.S.C. 1239) allows the States to use AML 
funds to address high priority abandoned mines, both non-coal and coal 
mines. Although New Mexico has abandoned coal mines that need 
reclamation, well over 90% of its approximately 15,000 abandoned mine 
hazards are located at hard rock mines, including uranium mines. In the 
past several decades, all fatalities associated with abandoned mines in 
New Mexico occurred at non-coal mines. During the last 6 years, before 
the Department of Interior's reinterpretation of AML, New Mexico had 
the discretion to divide its annual $1.5 million grant between coal 
(55%) and non-coal (45%) projects.
    Prior to the Department of the Interior's reinterpretation of 
SMCRA's AML provision, New Mexico's regulatory agencies were free to 
exercise their best judgment in balancing the need to reclaim abandoned 
coal mines with the need to address significant health and safety 
threats posed by non-coal mines. The impact of the Interior 
Department's interpretation on New Mexico's attempt to remediate the 
most serious abandoned mine problems is significant. While New Mexico's 
annual AML grant increased to over $4 million, three million can only 
be spent on coal projects only and the remainder can be spent on either 
coal or non-coal projects. As a result, necessary projects at dangerous 
abandoned hard rock mines are being delayed and funds that would have 
been applied to remediate these dangers are being diverted to lower 
priority abandoned coal mines.
    This unnecessary and unwarranted loss of flexibility comes at a 
particularly significant time for New Mexico. New Mexico's regulatory 
agencies are conducting an inventory of abandoned uranium mines. These 
uranium mines have had, and continue to have, adverse impacts upon the 
lives of nearby residents, particularly the Navajo people. In fact, 
this endemic problem has just begun to receive national attention--such 
as the hearings before the House Oversight and Government Reform 
Committee and the dramatic series of articles that appeared in the Los 
Angeles Times and other national media. The availability of AML money 
would provide New Mexico with a unique opportunity to finally address 
some of the sites that have caused (and continue to cause) great harm 
to Navajo and other Native American communities. Under the current 
Interior Department restrictions, the possibility of addressing the 
long-standing need for remediation of these uranium mines is severely 
limited.
    The NMELC urges the Committee to correct the Department of the 
Interior's misinterpretation of SMCRA and restore the discretion and 
flexibility New Mexico's regulatory agencies need in order to address 
serious threats to human health and the environment that many abandoned 
non-coal mines pose.
    Thank you for your consideration of these comments.
            Yours Truly,
                                        Douglas Meiklejohn,
                                                Executive Director.
                                 ______
                                 
   Statement of Hon. Bill Richardson, Governor, State of New Mexico, 
                               on S. 2830
    Thank you for the opportunity to present a statement on this 
important topic.
    We appreciate the efforts of Chairman Bingaman and this Committee 
to propose legislation that will clarify the intent of Congress under 
Title IV, the Abandoned Mine Land (AML) program, of the Surface Mining 
Control and Reclamation Act of 1977 (SMCRA).
    The State of New Mexico strongly supports S. 2830. This bill will 
make only minor changes to SMCRA to correct a misinterpretation of 
SMCRA by the Office of Surface Mining of the Department of the 
Interior. S. 2830 will return New Mexico and other states to their 
longstanding role under SMCRA of directing abandoned mine land grant 
funds to the highest priority needs at either coal or non-coal 
abandoned mines.
    New Mexico has a long and distinguished history of both coal and 
hard rock mining. Centuries of mining have left a legacy of thousands 
of mine openings and other mine hazards that pose serious threats to 
public health and safety. We estimate that there are more than 15,000 
unreclaimed mine hazards across New Mexico. Expanding populations and 
increasing recreational uses are increasing the exposure to abandoned 
mine dangers. An example of the AML problem is the numerous abandoned 
uranium mines located primarily in areas of Native American habitation 
in northwestern New Mexico.
    The primary funding source for AML projects in New Mexico has been 
Title IV of SMCRA. SMCRA includes provisions for the safeguarding of 
abandoned coal mines and high priority non-coal mines. Funding from the 
fees collected on coal production has helped New Mexico address some of 
our most hazardous abandoned mines. Since the inception of the SMCRA 
AML program, New Mexico has addressed approximately 4,000 mine features 
and reclaimed over 700 acres of mine-disturbed land.
    Section 409 of SMCRA (30 U.S.C. 1239) allows the States to use AML 
funds to address high priority non-coal abandoned mines as well as coal 
mines. While New Mexico still has abandoned coal mines that need 
reclamation, well over 90% of New Mexico's 15,000 mine hazards are 
located at abandoned hard rock mines. In the past few decades, all of 
the fatalities associated with abandoned mines in New Mexico have 
occurred at non-coal mines; sadly, another fatality occurred last year 
at an abandoned non-coal mine in New Mexico. With our SMCRA grants, New 
Mexico has balanced the need to reclaim abandoned coal mines with the 
need to address the significant and immediate health and safety threats 
posed by numerous non-coal mines. In the 6 years prior to the 2006 
amendments, New Mexico's $1.5 million annual grant was roughly split 
between coal (55%) and non-coal (45%) projects.
    In December 2006, Congress passed the Tax Relief and Health Care 
Act of 2006 which included a re-authorization of the AML fee on current 
coal production and other amendments to the SMCRA Title IV program. One 
of the major changes was the distribution to the States and Tribes of 
``state share'' funds that had been previously allocated to the States 
under SMCRA, but had never been appropriated by Congress. For New 
Mexico, this amounts to approximately $20 million in additional AML 
funds distributed over a 7 year period, and presents a tremendous 
opportunity to address many of the high priority coal and non-coal 
abandoned mine threats.
    Under SMCRA, the ``state share'' funds were available for use by 
the States at abandoned coal mines and, under Section 409, also at high 
priority abandoned non-coal mines. In the 2006 legislation, Congress 
did not amend Section 409. However, the Interior Department issued an 
opinion in December 2007 prohibiting the additional AML funds from 
being used at non-coal abandoned mine projects. The Office of Surface 
Mining followed with a rule, adopted on November 14, 2008, which 
codified the Interior Department's interpretation.
    The new interpretation flies in the face of Congressional intent. 
Had the funds been appropriated to the State when they were originally 
allocated to the State, there would have been no question that these 
funds could be used for either coal or non-coal projects. Congress did 
not amend Section 409 of SMCRA in the 2006 amendments. However, the 
Interior Department has latched onto Congress' use of a new funding 
source to distribute the previously allocated funds to claim that the 
intent changed.
    Since the beginning of the AML program, New Mexico, Utah and 
Colorado have balanced the need to reclaim abandoned coal mines with 
the need to address the significant health and safety threats posed by 
numerous non-coal mines. With these funds, New Mexico successfully 
completed a number of innovative projects that were recognized by OSM. 
In the Cerrillos Hills between Santa Fe and Albuquerque, we closed 
dozens of non-coal mines along trails in a park and protected park 
visitors from mine hazards while showcasing the mining history. This 
project received a national award from OSM. New Mexico also received 
the highest national award from OSM for the Real de Delores project in 
the Ortiz Mountains which safeguarded mine openings within one of the 
oldest gold mining districts in America.
    The impact of the Interior Department's interpretation is 
significant. While New Mexico's annual AML grant increased to over $4 
million, three million can only be spent on coal projects only and the 
remainder can be spent on either coal or non-coal projects. As a 
result, needed projects at dangerous abandoned hard rock mines have 
been delayed and funds diverted to lower priority abandoned coal mines.
    This loss of flexibility also comes at a particularly significant 
time for New Mexico. Under Governor Bill Richardson's direction, the 
State is using a variety of funding sources to conduct an inventory of 
abandoned uranium mines, many of which are located in areas occupied by 
Native Americans in northwestern New Mexico. The impacts of these 
uranium mines on the nearby residents, particularly the Navajo people, 
have received national attention and have been the subject of hearings 
before the House Oversight and Government Reform Committee. New Mexico 
is working cooperatively with the Navajo Nation and the U.S. EPA to 
coordinate work on abandoned uranium mines in areas near the Navajo 
Indian Reservation. With the new AML money available, we have a unique 
opportunity to finally address some of these sites which have caused 
great harm to the Navajo communities. With the Interior Department's 
restrictions, our options become much more limited, because the money 
for non-coal projects is much more limited. We hope you will prevent 
that reduction in funds for eliminating hazardous non-coal risks.
    S. 2830 will allow New Mexico and other western states to address 
some of the highest priority threats to public health and safety from 
non-coal mines while continuing to address the inventory of priority 
coal mines. Allowing more funds to be spent on non-coal mines may also 
result in more jobs. Our experience has been that non-coal AML projects 
are much more likely to attract partners and additional funding thus 
increasing the size of the project and the number of jobs generated. 
The uranium mine assessment project mentioned above is an example. New 
Mexico began the project with limited SMCRA funds and has attracted 
private, state and other federal funds to more than triple the size of 
the project.
    This legislation has broad support in New Mexico from the mining 
industry, the environmental community and public officials. At the 2010 
New Mexico Legislative Session, both houses of the New Mexico 
Legislature passed Memorials that requested the Congress to expedite 
legislation to allow uncertified states to use SMCRA funds on non-coal 
abandoned mine reclamation. (See attached House Memorial 34 and Senate 
Memorial 30). Both Memorials passed all Committees and full chambers 
without a single dissenting vote. Mr. Chairman and members of the 
Committee, we thank you for this opportunity to present New Mexico's 
position on S. 2830. We urge the Committee to correct the 
misinterpretation of SMCRA and restore the flexibility needed by the 
States. We look forward to working with the Committee in the future.
                                 ______
                                 
    Statement of Jon J. Indall and Adela M. Dwan, Counsel, Uranium 
                  Producers of New Mexico, on S. 2830
    The Uranium Producers of New Mexico (``UPNM') is a group of uranium 
exploration and development companies that are working to permit 
uranium mining and milling operations in New Mexico in the next two to 
four years. Current members of ``UPNM'' include Laramide Resources 
Ltd., Neutron Energy, Inc., Rio Grande Resources Corporation, 
Strathmore Resources (U.S.) Ltd., and Uranium Resources, Inc.
    Senate Bill 2830 requests that Congress amend the Surface Mining 
Control and Reclamation Act of 1977 (``SMCRA'') to clarify that the 
allocated funding for SMCRA can be used by uncertified states for non-
coal reclamation projects. This amendment is important to New Mexico to 
begin the remediation of abandoned mines and to create needed jobs.
    New Mexico has a long and notable history of both coal and hard 
rock mining. When the Atomic Energy Commission (``AEC'') created the 
Uranium Procurement Program in the 1950's, many companies in New Mexico 
answered the call for uranium to fuel the federal govemment's defense 
needs for nuclear weapons. A uranium mining industry was created almost 
over night. New Mexico became the largest uranium producing state in 
the nation, with over 380 million pounds produced for the nuclear 
weapons program and subsequently for nuclear power reactors. Today, the 
uranium industry in New Mexico is reemerging to once again help meet 
our country's increasing demands--this time to provide the uranium that 
will be essential to growing a nuclear energy supply in the United 
States.
    The Uranium Procurement Program initiated by the AEC was very 
successful and resulted in the operation of numerous mines throughout 
New Mexico, mainly in Cibola and McKinley Counties. Unlike today, there 
were few standards and no mine closure requirements. As the Procurement 
Program met its production goals in the mid 1960's, most of the small 
operators gave way to the larger companies and the small company and 
individuals' mine sites were abandoned with little or no thought to 
reclamation. These uranium sites, along with a number of other hard 
rock abandoned mines, make up a legacy of abandoned hard rock mines in 
New Mexico. Since these mines were created to fulfill an urgent 
national defense priority, the federal government has a responsibility 
to assist in reclaiming the abandoned mines in New Mexico and other 
western states.
    The primary source of funding Abandoned Mine Land (``AML'') 
projects in New Mexico has been the Surface Mining Control and 
Reclamation Act of 1977 (``SMCRA'') program. Under this program, New 
Mexico has successfully addressed approximately 4,000 mine features and 
reclaimed over 700 acres of mine-disturbed lands. New Mexico has 
successfully balanced the use of its SMCRA funds to accomplish 
reclamation on both coal and non-coal reclamation sites. The state 
needs to continue this important work, and the additional federal 
funding that would be made available by the enactment of S. 2830 would 
allow us to do so.
    In December 2006, Congress amended SMCRA to allow the distribution 
of reclamation funds to states in an amount equal to that previously 
authorized to the states under SMCRA. Despite the uncontroverted fact 
that Congress did not amend the ability of states to use these funds 
for non-coal, hardrock mines, the Department of the Interior (``DOI'') 
made such a determination. Senate Bill 2830 is now necessary to once 
again amend SMCRA to clarify that the appropriated funding can be used 
for non-coal reclamation sites.
    The UPNM has worked closely with the Mining and Minerals Division 
(``MMD'') of the New Mexico Energy, Minerals and Natural Resources 
Department on various state projects related to SMCRA. The MMD has 
identified a total of l37 abandoned uranium mines in New Mexico. In 
cooperation with MMD, UPNM funded the surveying of the first 21 of 
these sites located on state, federal and private lands. The MMD has 
since contracted the surveying of an additional 35 sites.
    The purpose of surveying the abandoned mines is to allow the MMD to 
prioritize these sites for reclamation. With 56 of the 137 abandoned 
mines now surveyed, New Mexico is ready to begin the actual clean-up 
warranted at these sites. This not only means the creation of shovel-
ready jobs but also the beginning of a resolution to a fifty-year 
legacy left behind in New Mexico, as a result of the federal 
government's call for uranium for its nuclear defense needs dating back 
to the 1960's.
    Although the many stakeholders in New Mexico do not always agree on 
hardrock mining issues, there is overwhelming agreement that New Mexico 
needs the SMCRA funding to help address the legacy of abandoned mines 
in our state. The New Mexico State Senate and House of Representatives 
both recently passed memorials urging the New Mexico congressional 
delegation to collaborate to do what is necessary to amend SMCRA. The 
New Mexico Mining Association and the Association of Commerce and 
Industry have also written letters to the delegation supporting the 
amendment. The McKinley County Commission also recently passed a 
resolution in support of amending SMCRA. These memorials, letters and 
the resolution are attached for your review and the record.
    The UPNM appreciates the opportunity to present this statement in 
support of S. 2830 and would also appreciate a recommendation from this 
Subcommittee to move Senate Bill 2830 forward.
    Thank you.
                                 ______
                                 
Statement of Greg Dyson, Executive Director, Hells Canyon Preservation 
                          Council, on S. 2895
    Thank you for extending Hells Canyon Preservation Council an 
invitation to provide testimony regarding the Oregon Eastside Forest 
Restoration, Old Growth Protection, and Jobs Act (S. 2895) at the 
Subcommittee hearing held on March 10, 2010. We strongly support the 
concepts behind this bill, however cannot fully support it as written. 
Attached please find our letter to Senator Wyden articulating our 
concerns in detail.* We reiterate below our key concerns in order to 
highlight specific changes that could be made to the bill to gain 
support from HCPC and from a broader representation of the conservation 
community.
---------------------------------------------------------------------------
    * Letter has been retained in subcommittee files.
---------------------------------------------------------------------------
    First, one of our most serious concerns continues to be the removal 
of the administrative appeals process during the Interim Period. We 
know from decades of firsthand experience using this process that it is 
an invaluable tool for avoiding litigation. We feel very strongly that 
this process provides a forum in which the agency must justify its 
decision, seriously consider our legal and ecological concerns and 
discuss potential solutions. Eliminating administrative appeals is 
counterproductive, particularly given that one of the main objectives 
of the bill is to reduce courtroom battles over logging projects.
    Moreover, if appeals are eliminated, this bill would create 
national inconsistency for how the public and the Forest Service 
address projects on federal public lands. The National Forest system is 
just that--a national system--and establishing a public participation 
framework applicable only to National Forests in eastern Oregon 
establishes a precedent for breaking down National Forest policy.
    Second, for consistency with the bill's language and purpose, we 
recommend removing the second half of the sentence in Section 
9(c)(1)(D) to simply read ``each applicable recommendation of the 
advisory panel.'' As written, the clause allows the Forest Service 
unfettered discretion in determining which of the advisory panel's 
recommendations to apply and which to ignore during the Interim Period.
    Third, we also feel very strongly that the inclusion of specific 
acreage targets during the interim period, as set forth in Section 
9(c)(5)(A), will create unrealistic expectations from local industry 
that the drafters of this bill will come to regret only after it is too 
late to reverse. Why not let the Science Panel determine how many 
acres, where, and by what means should any logging occur?
    Fourth, an explicit 3-year deadline for the expiration of the 
Interim Period should be included in Section 9(c). The bill currently 
offers no concrete deadline, and without one, our decades of experience 
tell us that this period could easily last upwards of 5 years.
    Fifth, Ecological Restoration Projects, as described in Section 9 
of the bill, have potentially conflicting mandates. In Section 9(b)(2) 
we recommend changing the ``shall'' to ``should'' to help ensure that 
timber production is a by-product of restoration projects, and not a 
rationale for developing the projects.
    Sixth, strengthening the definition of ``decommission'' in Section 
3 to read ``. . .the conduct of a restoration activity to return the 
road to a natural state'' will go much farther in effectuating the 
desire to address ecological damage associated with temporary roads 
than the current definition. The definition as written merely requires 
the Forest Service to return ``temporary'' roads to a ``more natural 
state''--that being a state ``more'' natural than the one to which it 
was altered, or in other words a state that is simply less unnatural.
    Lastly, we strongly urge changes in the bill adopting a far more 
cautious approach to biomass. While biomass is still relatively new and 
un-researched it should remain limited to small-scale, local projects.
    In summary, we suggest these specific changes to the bill:

  <bullet> Interim Period Appeals, Section 9(c)(2)--delete this 
        subsection entirely.
  <bullet> Interim Period Agency Discretion, Section 9(c)(1)(D)--delete 
        the second half ofthis clause so it reads in its entirety 
        ``each applicable recommendation of theadvisory panel.''
  <bullet> Interim period Acreage Targets, Section 9(c)(5)(A)(i)(I), 
        (II) & (III)--delete thesesubsections entirely.
  <bullet> Interim Period Time Frame, Section 9(c)(1)--delete the first 
        half of this subsectionthat starts: ``Until the date on which 
        the Secretary initiates mechanicaltreatments. . .'' Instead, 
        begin this section with: ``For a period of 3 years from thedate 
        of enactment of this Act, the Secretary shall prepare, approve, 
        andimplement interim projects . . .'' Also, delete Section 
        9(b)(3)(B).
  <bullet> Ecological Restoration Projects, Section 9(b)(2)--change 
        ``shall'' to ``should.''
  <bullet> Definition of Decommission, Section 3(4)--delete the word 
        ``more.''
  <bullet> Biomass, Section 12(b)(4)--strike ``after a period of 10 
        years'' and after ``based onsupply conditions'' add ``or Best 
        Available Science.''

    As we have already noted, we fully support many of the concepts 
behind this bill. Itcould lead to a fundamental change in the way our 
Oregon eastside National Forestsare managed--in a way that benefits all 
those involved with this ongoing debate. Wevery much appreciate the 
time and effort that has gone into the drafting of this bill.HCPC is 
one of the few on-the-ground conservation groups in eastern Oregon, and 
welook forward to being part of this process as it moves forward.
                                 ______
                                 
                Statement of the Sierra Club, on S. 2895
    Chairman Wyden and Members of the Subcommittee:
    On behalf of the Oregon Chapter of the Sierra Club and the more 
than 1.3 million members and supporters of the Sierra Club nationwide, 
we thank you for the opportunity to submit testimony on S. 2895, the 
Oregon Eastside Forest Restoration, Old Growth Protection, & Jobs Act. 
For more than a century Sierra Club has worked to explore, enjoy, and 
protect America's wilderness, forests, and public lands. Today, there 
are 65 Sierra Club Chapters and more than 425 Sierra Club Groups across 
the country.
    With over 20,000 members living in Oregon, the Sierra Club has a 
strong interest in the management of the National Forests of Central 
and Eastern Oregon. Our staff and membership in Oregon have 
consistently worked to ensure sound science-based management of the 
National Forests covered by this legislation and have focused efforts 
on protecting old growth forests and roadless areas. We support the 
creation of forest based restoration jobs that also promote the 
recovery of healthy populations of threatened and endangered species, 
address the excessive network of roads created through past management, 
and to preserve biodiversity and ecosystem resiliency in the face of 
climate change.
    Over the years, we have been involved in a number of Senator 
Wyden's efforts to protect Oregon's old growth forests in Oregon. We 
support some of the goals of this legislation, but believe that key 
sections as currently written will run directly counter to the some of 
the bill's stated restoration goals. We provide the following comments 
in the interest of improving Senator Wyden's current proposal, and in 
hopes of modifying the legislation to address our concerns.
                    mandating annual acreage targets
    While the bill promotes the use of the best available science to 
guide management decisions, it mandates annual acreage targets during 
both the interim period and for each covered National Forest 
thereafter. Annual acreage targets will force individual forest 
managers to plan and implement projects based on this mandate, rather 
than on actual restoration needs. This approach will burden taxpayers, 
as the Forest Service will be obligated to plan and implement annual 
landscape scale projects regardless of whether Congress funds the 
implementation of the proposal or whether restoration projects actually 
bring in enough revenue to pay for the Forest Service's costs. 
Particularly during the interim period, these acreage mandates will be 
focused on mechanical entry into forests and the removal of sawlogs, 
activities which create unreasonable expectations within the timber 
industry for steady and increased levels of logs from National Forests, 
expectations which may not be able to be met in the time allotted. For 
these reasons, we suggest the removal of specific annual acreage 
targets, mandated levels of mechanized activity, and language 
emphasizing sawlog production over other values. The bill should not 
dictate a desired result but should allow the best available science to 
guide which restoration approaches are prioritized in each national 
forest based on local needs.
                    using the best available science
    In 1994, the Eastside Scientific Society Panel issued a report to 
Congress and the President (Henjum, et al; The Wildlife Society, 
Technical Review 94-2, August 1994) which outlined the key strategies 
that were necessary to protect and restore old growth forests and 
healthy watersheds. The Forest Service adopted some of these 
recommendations on what was supposed to be an interim basis in what 
became known as the `Eastside Screens.' The scientific recommendations 
in the Eastside Scientific Society Panel's Report in 1994 are just as 
pressing and relevant today as they were then. While the bill 
incorporates some of this science, it is silent on others. The bill 
directs a new science panel to finish its report in less than six 
months, but does not provide enough direction to them to meet this 
ambitious time line. Rather than rushing a new process, we believe the 
science panel created by this legislation should be explicitly directed 
to incorporate and build upon recommendations of the Eastside 
Scientific Society Panel Reportof 1994, and include: protecting large 
trees and old growth stands from logging, protecting significant 
roadless areas 1000 acres or larger, limiting mechanical entry into 
intact forests, curtailing grazing and preventing post-fire salvage 
logging.
                         administrative appeals
    During the interim period covering some 300,000 acres and three or 
more years, this bill removes an important mechanism that the public 
uses to resolve disputes with the Forest Service -- administrative 
appeals. Administrative appeals are a fundamental reflection of the 
strength of the democratic process, facilitating dialogue rather than 
litigation. The Sierra Club has found that administrative appeals do 
allow a meaningful way for the public to resolve concerns over projects 
without having to go to directly court. During the interim period, the 
bill entirely removes the right for the public to administratively 
appeal logging projects, including those conducted after fires, in old 
growth stands and significant roadless areas. We believe this will lead 
to more litigation, not less. We strongly suggest that dministrative 
appeal rights be retained for all projects during the interim period.
                        riparian area protection
    We appreciate that the bill incorporates the PacFISH and INFISH 
riparian buffers. We do have some concerns because as implemented now, 
PacFISH and INFISH currently allow some harmful activities in sensitive 
riparian areas. Further, the extent of riparian areas on the landscape 
is arguably greater than PacFISH and INFISH provide. The buffers for 
non-fish bearing streams and perennial streams are generally inadequate 
to ensure the health and recovery of these systems. We suggest that 
this legislation start with PacFISH and INFISH as a floor with the 
opportunity to administratively expand riparian buffers under the 
recommendations of the science panel, make compliance with those 
standards mandatory, and incorporates the direction that has been 
provided by the NOAA Fisheries the Fish & Wildlife Service through 
existing biological opinions on anadramous and inland fish.
                              road network
    Based on our experience on the ground and familiarity with the best 
available science, the benefits of logging in a forest are often 
outweighed by the negative effects on soils, hydrology and aquatic 
systems from ground disturbing mechanical activities and road 
construction. We are very concerned that widespread use of mechanical 
treatments and `temporary' roads will have extensive and persistent 
impacts on soils. Even if the use of a road is claimed to be temporary, 
the effects of building the road and its presence often last for 
decades. Temporary roads may be temporary as to their use, but it is 
well established that the impacts of such roads are not temporary on 
the hydrology and water quality of affected watersheds. A road should 
only be called temporary if its effects on the land are actually 
determined to be temporary based on the best available science. 
Decommissioning of all temporary roads must be part of completing the 
restoration project. If it is part of a later project, we think it 
highly unlikely that the decommissioning will be completed. We further 
support strategic and robust efforts to reduce the permanent road 
network and suggest legislating more specific goals and benchmarks in 
this billto make this a reality.
                    natural processes & emergencies
    There is no scientific consensus on what constitutes ``emergency 
status'' or ``uncharacteristic'' events, particularly in the face of 
altered ecosystems and a changing climate. Legislating this type of 
language will undermine the work of the science panel to soberly assess 
restoration needs and priorities on the landscape, paints natural 
processes in a negative light, begs the question of when the situation 
will no longer be an emergency, and may encourage managers to take 
actions counter to the legislation's stated goals. For these reasons, 
we suggest that terminology designating the situation in the forests as 
an ``emergency,'' as well as the designation of emergency conditions, 
should be removed or very tightly constrained to ensure that any 
project needing more analysis than a categorical exclusion would not be 
covered.
                              job creation
    Economists are increasingly realizing that our forests have value 
as sources of clean water, salmon habitat, recreation and carbon 
storage. The Sierra Club believes that any new approach to create jobs 
in national forest restoration must not focus solely on the economics 
of supporting the logging industry, but also on enhancing non-timber 
values and diversifying the restoration economy as a whole. To this 
end, policies should be enacted to deliberately create a diverse array 
of businesses in eastern Oregon through systematic and long-term 
investments in ecological restoration activities. If the focus is 
primarily on generating logs for the mill, then the boom and bust cycle 
of timber prices and housing starts will continue to create economic 
uncertainty as they have for decades. This legislation should create 
clear targets on improving fish passage, restoring degraded riparian 
areas, reducing the dense road network and removing invasive species, 
in order to stimulate the creation of new businesses within a diverse 
restoration economy. In addition to these activities, within the 
wildland urban interface, the focus should thinning brush and small 
diameter trees. Outside of those interfaces, a greater focus should 
beplaced on utilizing both prescribed and wildland use fie policies to 
re-introduce natural processes where ecosystems have been significantly 
altered.
                               conclusion
    The passage of S. 2895 would mark a significant shift in management 
of Oregon's eastside National Forests. The Sierra Club believes it is 
important to codify interim rules in place since 1994 that protect 
large diameter trees and riparian areas. However, we believe this 
legislation's emphasis on mechanical entry into forests and maintaining 
mill infrastructure through sawlog production, combined with mandated 
annual acreage targets and removal of administrative appeals for what 
could become several years, will undermine the important ecological 
restoration goals this bill contains.
    We believe that through the removal of annual acreage mandates, the 
retention of administrative appeal rights and the more explicit 
incorporation of existing eastside science will go a long way towards 
addressing our concerns.
                                 ______
                                 
Statement of Russell Hoeflich, Vice President and Oregon Director, The 
                     Nature Conservancy, on S. 2895
    We applaud Senator Ron Wyden for his leadership in bringing 
together a diverse group of Oregonians to craft pioneering legislation 
that will put people to work restoring Eastern Oregon's forests. We 
commend the leaders of conservation and industry groups for their hard 
work and willingness to set aside differences to chart a better future 
for our eastside forests.
    The Oregon Eastside Forests Restoration, Old Growth Protection and 
Jobs Act (S. 2895) is a pioneering and historic effort by long-standing 
adversaries to put the past behind them and to work together for a 
positive solution. This legislation focuses energy and attention where 
it belongs--on the significant consensus that exists for implementing 
on the ground restoration activities on Oregon's Eastside national 
forests.
    The Nature Conservancy strongly supports the proposed legislation 
as a sound approach to forest and stream restoration that will result 
in healthier habitats for fish and wildlife over millions of acres of 
public land, while also creating more jobs in rural communities.
    In Eastern Oregon, millions of acres of dry forests and riparian 
areas are ecologically unhealthy. The Act establishes key principles 
and guidance to address past conflicts and respond to the needs of 
today, and establishes a restoration and recovery road map for the 
future to improve the health of our eastside national forests, 
watersheds, and economy that will:

  <bullet> Focus management on restoration--The primary goal of the Act 
        is to make landscape-scale forest and riparian restoration the 
        primary goal of federal management on Eastern Oregon's nine 
        million acres of federal forests.
  <bullet> Base management decisions on sound science--The bill 
        requires that restoration activities consider the best 
        available science. Management decisions will be guided by 
        forest-wide ecological assessments, and the recommendations of 
        a scientific advisory panel tasked with reviewing and providing 
        guidance on restoration strategies and projects.
  <bullet> Protect old growth--The legislation establishes protections 
        for older trees and encourages forest management activities 
        that will contribute to ensuring old growth characteristics can 
        eventually predominate in Eastside forests.
  <bullet> Provide immediate near-term timber supply--Eastside mills 
        are struggling, with lack of timber supply playing a key role. 
        By creating an interim period that focuses on restoration 
        projects with sawlogs as an attribute, mills will have 
        increased access to a stable timber supply.
  <bullet> Maintain timber infrastructure--Meaningful forest 
        restoration at the scale envisioned requires a stable timber 
        industry, a difficult undertaking without the surety of a 
        diverse timber supply base that includes federal forests. A key 
        goal is to maintain infrastructure sufficient to achieve 
        restoration goals, reflected in nearly every aspect of the 
        legislation.
  <bullet> Ensure riparian and aquatic protection and restoration--
        Eastside watersheds have been degraded, and greater protection 
        is needed to support key species and habitats and ensure clean 
        water. This legislation establishes clear direction to guide 
        aquatic and riparian restoration efforts, and also recognizes 
        the need to reduce impacts from existing roads.
  <bullet> Promote collaboration--Collaboration is often a key 
        attribute of reaching agreement on the restoration of specific 
        forest landscapes--where they exist, this legislation supports 
        and emphasizes collaborative efforts, where they do not, it 
        incentivizes and encourages their creation.

    Once the bill is enacted, it will be critical to ensure that 
funding is made available to implement it. Given the rare and landmark 
nature of the agreement, Eastern Oregon should be a priority for 
federal forest restoration funding. We believe the focus on 
collaboration and sound science will reduce the costs to plan and 
implement restoration projects that produce saw logs as a byproduct. 
Forest restoration in Eastern Oregon provides an opportunity to 
demonstrate increased cost-effectiveness.
    The Nature Conservancy has an extensive history of working on 
collaborative and scientific approaches to forest restoration in 
Oregon. The Eastside Forest Restoration bill will help us and our 
partners apply lessons learned from these efforts and expand them to a 
larger scale. Examples include:

  <bullet> The Northwest Fire Learning Network is a collaborative 
        effort among The Nature Conservancy, U.S. Forest Service, 
        Bureau of Land Management, state and local agencies, 
        businesses, landowners, scientists, community groups and others 
        to restore fire-adapted ecosystems. The Network seeks to foster 
        partnership, planning and innovation to accelerate the 
        restoration of fire-adapted forests throughout the Pacific 
        Northwest, including key efforts at the Upper Deschutes Basin, 
        Sprague watershed, and Applegate watershed.
  <bullet> The Ashland Forest Resiliency project is a collaborative, 
        community-based initiative to restore healthy conditions to 
        7,600 acres of public forest within a larger 22,000-acre area 
        of public forest that includes the Ashland Creek watershed. The 
        project goals are to reduce the risk of large-scale wildfire; 
        help large, old trees survive fire, insects and disease; 
        restore a healthy forest ecosystem; and provide clean drinking 
        water, recreation and wildlife habitat. Strong accountability 
        and performance measures are incorporated in the project and 
        will be monitored by a diverse group of local stakeholders. The 
        Nature Conservancy is providing technical and scientific 
        support to the project.
  <bullet> The Conservancy participated in the Birds and Burns Research 
        Network at our Sycan Marsh Preserve in Lake County in 
        cooperation with the U.S. Forest Service and others. The award-
        winning project advanced our understanding of the impacts of 
        forest management and controlled burning on cavity-nesting 
        birds.
  <bullet> The Forest Landscape Restoration Act, a top priority for the 
        Conservancy, was signed into law as title IV of the Omnibus 
        Public Land Management Act of 2009. The Act encourages 
        collaborative initiatives based on the best available science 
        to plan and prioritize landscape-scale forest restoration 
        projects. The Act also authorizes $40 million per year to 
        supplement local resources and leverage non-federal support to 
        make large-scale, long-term forest restoration projects 
        feasible.
  <bullet> The Conservancy helped convene and facilitate four 
        restoration collaboratives in Oregon and also assisted the 
        teams with technical GIS support.

    The Nature Conservancy is a leading conservation organization 
working around the world to protect ecologically important lands and 
waters for nature and people. To date, the Conservancy and its one 
million members have been responsible for the protection of more than 
18 million acres in the United States and have helped preserve more 
than 117 million acres in Latin America, the Caribbean, Asia and the 
Pacific. In Oregon, the Conservancy owns or manages 47 nature preserves 
and has helped protect over 500,000 acres of important habitats, with 
support from 21,000 member households.
    Thank you for this opportunity to provide testimony, and we want to 
extend our appreciation to Senator Wyden and his staff for leading the 
effort.
                                 ______
                                 
       Statement of Susan Batterson and JT Batterson, on S. 2963
    Chairman Wyden and Members of the Subcommittee, thank you for the 
opportunity to submit testimony regarding Senate Bill 2963.
    We own forty acres of land immediately adjacent to land included in 
the proposed land exchange, including land that would be designated as 
a new wilderness area. Our land is the former site of the Horse Heaven 
Mine on Gosner Road, which at one time was one of the country's largest 
producers of mercury and which currently includes a small residence our 
family uses as a vacation retreat. The property is approximately 
seventeen miles due east from Ashwood, Oregon, Township 10 South, Range 
18 East, Section 12, in Jefferson County.
    Unless the bill is amended as we suggest below, the land exchange 
proposed in Senate Bill 2963 and the preliminary plans of certain 
stakeholders for the development of trailhead, parking and camping 
facilities to service the Wilderness area would adversely impact the 
use and enjoyment of our property and implicates serious issues of 
public health and safety. The purpose of our testimony is to outline 
those concerns and request that the bill be amended to address them.
                       horse heaven mine history
    To provide context for our testimony, following is a brief history 
of our property and the land around it.
    In 1931 Raymond Whiting Jr. and Harry Hoy spent a summer at the 
current Horse Heaven Mine site prospecting for cinnabar. They 
discovered a viable source on the lower half of Horse Heaven Mountain 
and as a result Ray Whiting Sr. and Charlie Hayes started the 
development of the first level of the mine. Whiting and Hayes owned and 
operating the mine from 1931-1934, producing an estimated 2,200 flasks 
of mercury. In 1934 the mine was sold to Sun Oil Company. Sun Oil 
Company operated the mine until 1958. The mine was the second largest 
mercury producer in the country with the estimated production at 17,214 
flasks of mercury. The mine had 10 levels and went back into the side 
of Horse Heaven Mountain approximately 1,500 feet in various 
directions.
    The original owners of the Horse Heaven Mine acquired 2,400 acres 
of land. The entire 2,400 acres were sold to Sun Oil Company in 1934. 
After the mine ceased operations, Sun Oil Company sold the mine and the 
2,400 acres to Tom MacDonald. Subsequently, 40 acres where the mine 
actually sits today were deeded to Ray Whiting Jr. He and his wife 
Clyde Whiting lived at the mine site year round from 1965-1983. In 1986 
the mine was deeded to Susan Batterson (daughter of Ray Whiting), who 
is the current owner today along with her son JT Batterson.
    In 2001 the Oregon Department of Environmental Quality (ODEQ) took 
interest in environmental and human safety issues that the mine 
presented. The remains of the mine and its operations consists of large 
mine tailing piles, old building structures, mine shafts and large pits 
in the side of Horse Heaven Mountain where the tunnels have collapsed. 
Studies were conducted and ODEQ issued a Record of Decision, Remedial 
Action Plan in December 2005. The primary remedial actions were to 
limit access to the site, cap a furnace area and implement measures to 
limit overland migration of mine waste offsite. In addition to other 
remedial actions, one remedy implemented was the entry of an Easement 
and Equitable Servitude to restrict access to and use of the property 
in order to prevent the public from moving the tailings offsite (either 
intentionally or unintentionally on shoes or clothing).
    The only current water source for our property (the primary water 
source since 1932) is a spring located approximately one mile to the 
southwest on Young Life property that is to be transferred to the BLM 
pursuant to the bill. The spring is connected to our property through 
steel pipes. Due to the history outlined above, we are not able to 
drill for water on our property.
                plans for trailhead, parking and camping
    Although not explicitly part of the bill, some proponents of the 
land exchange and creation of the Wilderness areas have begun planning 
for the construction of improvements to facilitate access to the 
Wilderness areas. Preliminary maps associated with the legislation 
reflected those plans by including in the land exchange the transfer of 
a certain portion of property from Young Life to BLM that would not be 
designated as wilderness. The proponents of the bill preliminarily 
planned to use that property for the construction of a trailhead, 
parking and camping area to serve as an access point for the Wilderness 
areas. Those proposed facilities would have been located approximately 
1,200 feet from the residence on our property.
    We have worked with the bill's proponents to identify an 
alternative location for the trailhead, parking and camping facilities, 
and believe that a consensus is developing around a location 
approximately 1.25 miles west of the site that concerns us. We would 
approve location of the facilities at that alternative location.
 concerns regarding senate bill 2963 and plans for related development
    Our primary concerns are as follows:
1. Public Health and Safety
    The property exchange and wilderness designation, as well as the 
plans of certain promoters of the exchange, contemplate that the 40 
acre parcel immediately to the southwest of our property will be 
developed as a publicized public access trailhead and campground with 
enough parking to accommodate horse trailers. Although the Site Closure 
Report prepared for the ODEQ remedial action contemplates an occasional 
resident, hiker or camper in the area, it did not contemplate the 
development of a permanent, publicized public facility adjacent to the 
property. The remedial action implemented at the mine site relies 
heavily on restricting access to that area in order to limit exposure 
to the mercury and arsenic found on the site. It would be unwise to 
place a public access trailhead and campground so close to the site. 
The Site Closure Report is attached as Exhibit 1 to this testimony.
    We note as well that the mine tunnels on our property are known to 
be an important maternity and hibernation resource for the Townsend's 
Big Eared Bat, which are identified as a sensitive species in Oregon.
2. Access to Water
    We need to preserve access to the spring and piping that provides 
water for our property, including the ability to use motor vehicles to 
reach the spring and the pipeline to perform maintenance on the system. 
An additional, related concern is that the contemplated trailhead, 
parking lot and campground would sit directly above the pipe that 
connects the spring to our property, potentially impairing its use and 
maintenance.
3. Use and Enjoyment of Our Property
    A residence at the current mine site is used by family members for 
periods throughout the year. If the proposed trailhead, parking and 
campsites are located in the 40 acres adjacent to the southwest corner 
of our property, it would significantly impact the privacy of the 
family members that currently use the site for a personal retreat.
                           proposed solutions
    Through a family representative and legal counsel, we have begun 
working with the offices of Senator Wyden and Representative Walden, 
participants in the land exchange and the Oregon Natural Desert 
Association to identify solutions to the concerns we have raised above. 
It is our sincere desire to be able to support Senate Bill 2963, with 
amendments that protect public health and safety and our own private 
property interests. The solutions include the following, which we 
respectfully request be included in amendments to the bill and the 
Subcommittee's report:

          1. To protect public health, public safety and my family's 
        use and enjoyment of our property, the contemplated trailhead, 
        parking lot and campground should not be located in the forty-
        acre parcel immediately adjacent to the southwest corner of our 
        property. This week, representatives of my family and other 
        stakeholder made separate visits to the area to evaluate 
        alternative sites for the proposed facilities. Additionally, we 
        have begun discussions with Young Life about the possibility of 
        purchasing the subject property from Young Life, for the 
        purpose of excluding it from the land exchange and preserving 
        it as a buffer against the public lands. In no event, however, 
        should that property be developed as initially contemplated.
          2. We have begun working with Young Life to formalize a legal 
        agreement regarding rights to the water and access to the 
        spring and piping that constitute the only source of water for 
        our property. We request that the legislation provide that BLM 
        would take Young Life's property subject to the agreement 
        between Young Life and us, and that we be permitted to use 
        motor vehicles to access the spring and pipes for maintenance 
        purposes notwithstanding any general prohibitions against the 
        use of motor vehicles in wilderness areas. At a minimum, we 
        need to retain the ability to use a backhoe to maintain the 
        water facilities.

    Chairman Wyden and Members of the Subcommittee, we thank you for 
taking these matters into consideration. We look forward to working 
with the stakeholders, your staff and the Committee to address these 
matters in a way that protects public health and safety, as well as our 
private property rights.
                                 ______
                                 
   Statement of Bob Freimark, Senior Policy Analyst, The Wilderness 
                          Society, on S. 2963
    The Wilderness Society is a national, non-profit conservation group 
with about 500,000 members and supporters. The mission of The 
Wilderness Society is to protect wilderness and inspire Americans to 
care for our wild places. Since its establishment in 1935, The 
Wilderness Society has advocated for protecting America's wild, special 
lands such as Cathedral Rock and Horse Heaven.
    S. 2963, the Cathedral Rock and Horse Heaven Wilderness Act 
designate two new wilderness areas (approximately 16,000 acres) as part 
of the National Wilderness Preservation System. The bill also directs 
three land exchanges to occur between private parties and the federal 
government.
    The Wilderness Society supports S. 2963. We do have a legislative 
language recommendation for improving the water rights section of the 
bill which is detailed below.
    S. 2963 will permit the public to better access and enjoy the Wild 
and Scenic John Day River by blocking up ownership through land 
exchanges enabling additional access to the river. The legislation also 
creates a large block of wilderness quality land, while helping 
eliminate trespassing occurring both on the current BLM lands, and the 
private landowners land. The two wilderness designations include a 
diversity of habitat types including grasslands, riparian areas, shrub 
steppe and forests. They also provide important habitat for threatened 
summer steelhead and Chinook salmon as well as other sensitive species 
including the John Day pincushion, Western Toad, pygmy rabbits, and 
Ferruginous hawks. The wilderness proposal provides important wintering 
habitat for mule deer and Rocky Mountain elk. Over four miles of the 
Wild and Scenic John Day River would be added to public ownership. The 
land exchanges would be subject to appraisal (using Uniform Appraisal 
Standards) and will be equal value. The land consolidation will enhance 
the wilderness qualities of the wilderness designations, and will 
improve the manageability of the lands involved.
                             recommendation
    The water rights section is in Sec. 3(c)(6) and reads, ``STATE 
WATER LAWS-Nothing in this section constitutes an exemption from State 
water laws (including regulations).'' We recommend modifying the 
legislation to more standard legislative language. It should read as 
``As provided in paragraph 4(d)(7) of the Wilderness Act, nothing in 
this Act shall constitute an express or implied claim or denial on the 
part of the Federal Government as to exemption from State water 
laws.'').
                               conclusion
    The proposed Cathedral Rock and Horse Heaven Wilderness areas could 
be outstanding additions to the National Wilderness Preservation System 
with the completion of the land exchanges authorized by the bill. The 
land exchanges will benefit the public by consolidating public 
ownership and providing the public with high resource value lands such 
as the John Day River properties. We thank Senator Wyden for his 
leadership on this proposal, and offer our support of having this 
legislation signed into law.

                                    

      

</pre></body></html>
